               In s p e c to r Ge ne r al
                                                                U.S. Department of Defense




                             Semiannual Report
                                to the Congress
                                      OCTOBER 1, 2013 TO MARCH 31, 2014




                         Required by Public Law 95-452
I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
         Our mission is to provide independent, relevant, and timely oversight
         of the Department of Defense that: supports the warfighter; promotes
             accountability, integrity, and efficiency; advises the Secretary of
                    Defense and Congress; and informs the public.



                                              Vision
           Our vision is to be a model oversight organization in the federal
           government by leading change, speaking truth, and promoting
             excellence; a diverse organization, working together as one
                professional team, recognized as leaders in our field.




                                         Fraud, Waste, & Abuse

                                         HOTLINE
                                         Department of Defense
                                         d o d i g. m i l / h o t l i n e




For more information about whistleblower protection, please see the inside back cover.
	
                                               INSPECTOR GENERAL
                                             DEPARTMENT OF DEFENSE
                                             4800 MARK CENTER DRIVE
                                          ALEXANDRIA, VIRGINIA 22350-1500


                               I am pleased to present the Department of Defense Inspector General Semiannual
                               Report to Congress for the reporting period October 1, 2013, through March 31,
                               2014, issued in accordance with the Inspector General Act of 1978, as amended.

                               Our oversight of the Department to identify fraud, waste, and abuse is crucial as
                               the Department continues to balance operational needs within tight budgetary
                               constraints. Our core values of integrity, efficiency, accountability, and excellence are
                               reflected in our investigations, audits, assessments, evaluations, and inspections.
                               During this reporting period, we found the following:

    Inspector General          •	 U.S. Transportation Command and U.S. Central command officials did not establish
    Jon T. Rymer
                               adequate oversight of processes and procedures for the Afghanistan Rotary Wing
            Transport contracts. As a result, they had limited assurance that the contractors were meeting the
            contract performance standards and were unaware that a contractor incorrectly billed $141,923 for
            maintenance flights.
         •	 In accordance with DoD IG oversight provisions of Section 847 of Public Law 110-181, “The National
            Defense Authorization Act for Fiscal Year 2008,” the After Government Employment Advice Repository
            database was not complete, required section 847 records were located in multiple and decentralized
            locations, and the records were not readily available for examination
    We also uncovered instances of fraud, waste, and abuse, such as:

         •	 Three U.S. service members and one DoD contractor employee were sentenced to jail and ordered to pay
            restitution to the Government after accepting bribes and conspiring to facilitate the theft of more than
            $1 million in fuel from a forward operating base in Afghanistan.
         •	 A Defense contractor and its owner were ordered to pay restitution to the Government for supplying
            unauthorized substituted parts to the Defense Logistics Agency. Some of the substituted parts were
            critical application items for use on military vehicles and weapons systems, and the parts were labeled as
            if they conformed to the contract.
    These examples provide a snapshot of our mission of serving our warfighters and taxpayers, and providing
    guidance and recommendations to the Department of Defense and Congress.

    During this reporting period, we issued 52 reports identifying $3.6 million in potential monetary benefits.
    Defense Criminal Investigative Service investigations were the basis for 48 arrests, 171 criminal charges, 147
    criminal convictions, 82 suspensions, and 81 debarments, as well as $1.5 billion in returns to the Government.
    The DoD Hotline fielded 5,596 contacts from the public and components of the DoD community. Administrative
    Investigations closed a total of 877 complaints involving whistleblower reprisal and senior official misconduct.

    Many thanks to the Army Audit Agency, Naval Audit Service, Air Force Audit Agency, U.S. Army Criminal
    Investigation Command, Naval Criminal Investigative Service, Air Force Office of Special Investigations, and the
    Defense Contract Audit Agency, who all contributed to our report.

    I would also like to thank our DoD IG employees, the entire defense oversight community, the Department, and
    Congress for their commitment in supporting this office.




                                                              Jon T. Rymer
                                                              Inspector General
S tat i s t i c a l H i g h l i g h t s

         SUMMARY OF AUDIT ACTIVITIES
           Reports Issued 	                                                                                                40
           Potential Monetary Benefits Identified
           	         Recommendations Made with Questioned Costs	                                                 $3.6 million
           Achieved Monetary Benefits	                                                                         $ 25.8 million

         SUMMARY OF DEFENSE CRIMINAL INVESTIGATIVE SERVICE ACTIVITIES
           Total Investigative Receivables and Recoveries1	                                                       $1.5 billion
           	         Recovered Government Property	                                                                $ 904,440
           	         Civil Judgments/Settlements	                                                                 $1.1 billion
           	         Criminal Fines, Penalties and Restitution Ordered (does not include Asset Forfeitures)	   $367.2 million
           	         Administrative Recoveries2	                                                                  $31 million
           Investigative Activities
           	         Arrests	                                                                                              48
           	         Criminal Charges	                                                                                   171
           	         Criminal Convictions	                                                                               147
           	         Suspensions	                                                                                          82
           	         Debarments	                                                                                           81
           Asset Forfeiture Results
           	         Seized	                                                                                     $1.2 million
           	         Final Orders of Forfeiture	                                                                 $1.5 million
           	         Monetary Judgments	                                                                         $5.4 million

         SUMMARY OF ADMINISTRATIVE INVESTIGATIONS
           Complaints Received	                                                                                          961
           Complaints Closed	                                                                                            877
           	         Senior Official	                                                                                    382
           	         Whistleblower Reprisal	                                                                             495

         SUMMARY OF POLICY AND OVERSIGHT ACTIVITIES
           Existing and Proposed Regulations Reviewed	                                                                   168
           Evaluation Reports Issued	                                                                                       2
           Inspector General Subpoenas Issued	                                                                           355
           Contractor Disclosures Received	                                                                              106

         SUMMARY OF INTELLIGENCE AND SPECIAL PROGRAM ASSESSMENTS ACTIVITIES
           Reports Issued	                                                                                                  4

         SUMMARY OF SPECIAL PLANS AND OPERATIONS ACTIVITIES
           Assessment Reports Issued	                                                                                       6

         SUMMARY OF DoD HOTLINE ACTIVITIES
           Contacts	                                                                                                   5,596
           	         Cases Opened	                                                                                     3,149
           	         Cases Closed	                                                                                     4,368



           1
               	 Includes investigations conducted jointly with other law enforcement organizations.
           2
               	 Includes contractual agreements and military non-judicial punishment.



iv │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                                                                                                          Contents

CONTENTS
1.	 OVERVIEW	
         MISSION & ORGANIZATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  2
                     MISSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
                     ORGANIZATION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
         EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  4
                     OVERVIEW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
                     PRIORITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
                     CORE MISSION AREAS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
                     ENABLING MISSION AREAS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
2.	 CORE MISSION AREAS
         AUDITS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
                     ACQUISITION PROCESSES & CONTRACT MANAGEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
                     FINANCIAL MANAGEMENT. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
                     JOINT WARFIGHTING AND READINESS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
         INVESTIGATIONS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
                     PROCUREMENT FRAUD. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
                     PUBLIC CORRUPTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
                     PRODUCT SUBSTITUTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
                     HEALTH CARE FRAUD. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
                     ILLEGAL TECHNOLOGY TRANSFER. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
         INSPECTIONS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
                     HEALTH AND SAFETY. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
                     JOINT WARFIGHTING AND READINESS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32
                     ADMINISTRATIVE READINESS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
                     COMPLIANCE. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .33
                     NUCLEAR ENTERPRISE. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34
         ADMINISTRATIVE INVESTIGATIONS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36
                     ACCOMPLISHMENTS THIS REPORTING PERIOD:. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36
                     WHISTLEBLOWER REPRISAL INVESTIGATIONS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36
                     REPRISAL INVESTIGATIONS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37
                     INVESTIGATIONS OF SENIOR OFFICIALS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39
         POLICY AND OVERSIGHT. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41
                     AUDIT POLICY AND OVERSIGHT. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41
                     INVESTIGATIVE POLICY AND OVERSIGHT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41
                     CRIMINAL INVESTIGATIVE POLICY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 42
3.	 ENABLING MISSION AREAS
         CONGRESSIONAL TESTIMONY AND BRIEFINGS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 44
         DOD HOTLINE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 44
         PROGRAMS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49
         OUTREACH . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 52
4.	 SERVICES
         ARMY. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 56
                     U.S. ARMY AUDIT AGENCY. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 56
                     U.S. ARMY CRIMINAL INVESTIGATION COMMAND. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .67
         NAVY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 69
                     NAVAL AUDIT SERVICE. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .69
                     NAVAL CRIMINAL INVESTIGATIVE SERVICE. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 74
         AIR FORCE. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 77
                     AIR FORCE AUDIT AGENCY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 77
                     AIR FORCE OFFICE OF SPECIAL INVESTIGATIONS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 82
5.	 APPENDIXES
         APPENDIX A. AUDIT, INSPECTION, AND EVALUATION REPORTS ISSUED. . . . . . . . . . . . . . . . . . . . . . . . . 86
         APPENDIX B. REPORTS CONTAINING POTENTIAL MONETARY BENEFITS. . . . . . . . . . . . . . . . . . . . . . . . . 93
         APPENDIX C. FOLLOWUP ACTIVITIES. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 94
         APPENDIX D. CONTRACT AUDIT REPORTS ISSUED1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 96
         APPENDIX E. STATUS OF ACTION ON POST-AWARD CONTRACTS1. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 97
         APPENDIX F. STATUS OF REPORTS WITH ACTION PENDING . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 98
         APPENDIX G. SECTION 845 ANNEX AUDIT REPORTS WITH SIGNIFICANT FINDINGS. . . . . . . . . . . . . 109
         APPENDIX H. RESULTS OF PEER REVIEWS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 117
         APPENDIX I. ACRONYMS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 118



                                                                                                                                                                    OCTOBER 1, 2013 TO MARCH 31, 2014 │ v
Reporting Requirements

         The Inspector General Act of 1978, as amended, states that each inspector general shall no later than April 30
         and October 31 of each year prepare semiannual reports summarizing the activities of the office during the
         immediately preceding six-month periods ending March 31 and September 30. The IG Act specifies reporting
         requirements for semiannual reports. The requirements are listed below and indexed to the applicable pages.

          REFERENCES         REQUIREMENTS                                                                                        PAGE
          Section 4(a)(2)    “review existing and proposed legislation and regulations...make recommendations...”                N/A

          Section 5(a)(1)    “description of significant problems, abuses, and deficiencies...”                                  9-42

          Section 5(a)(2)    “description of recommendations for corrective action...with respect to significant problems,       9-42
                             abuses, and deficiencies...”
          Section 5(a)(3)    “identification of each significant recommendation described in previous semiannual reports on      N/A
                             which corrective action has not been completed...”
          Section 5(a)(4)    “a summary of matters referred to prosecutive authorities and the prosecution and convictions       9-42
                             which have resulted.”
          Section 5(a)(5)    “a summary of each report made to the [Secretary of Defense] under section 6(b)(2)...” instances    N/A
                             where information requested was refused or not provided”
          Section 5(a)(6)    “a listing, subdivided according to subject matter, of each audit report, inspection report, and    86-92
                             evaluation report issued” showing dollar value of questioned costs and recommendations that
                             funds be put to better use.
          Section 5(a)(7)    “a summary of each particularly significant report...”                                              9-42

          Section 5(a)(8)    “statistical tables showing the total number of audit reports, inspection reports, and evaluation   94
                             reports and the total dollar value of questioned costs...”
          Section 5(a)(9)    “statistical tables showing the total number of audit reports, inspection reports, and              94
                             evaluation reports and the dollar value of recommendations that funds be put to better use by
                             management...”
          Section 5(a)(10)   “a summary of each audit report, inspection report, and evaluation report issued before the         94
                             commencement of the reporting period for which no management decision has been made by
                             the end of reporting period...”
          Section 5(a)(11)   “a description and explanation of the reasons for any significant revised management decision...”   N/A

          Section 5(a)(12)   “information concerning any significant management decision with which the Inspector General        N/A
                             is in disagreement...”
          Section 5(a)(13)   “information described under Section 05(b) of the Federal Financial Management Improvement          N/A
                             Act of 1996...” (instances and reasons when an agency has not met target dates established in a
                             remediation plan)
          Section 5(a)(14)   “An Appendix containing the results of any peer review conducted by another Office of Inspector     117
                             General during the reporting period...”
          Section 5(a)(15)   “A list of any outstanding recommendations from any peer review conducted by another Office         N/A
                             of Inspector General that have not been fully implemented, including a statement describing the
                             status of the implementation and why implementation is not complete...”
          Section 5(a)(16)   “Any peer reviews conducted by DoD IG of another IG Office during the reporting period,             117
                             including a list of any outstanding recommendations made from any previous peer review...that
                             remain outstanding or have not been fully implemented...”
          Section 5(b)(2)    “statistical tables showing the total number of audit reports, inspection reports, and evaluation   95
                             reports and the dollar value of disallowed costs...”
          Section 5(b)(3)    “statistical tables showing the total number of audit, inspection, and evaluation reports and the   95
                             dollar value of recommendations that funds be put to better use by management agreed to in a
                             management decision...”
          Section 5(b)(4)    “a statement with respect to audit reports on which management decisions have been made but         109-116
                             final action has not been taken, other than audit reports on which a management decision was
                             made within the preceding year...”
          Section 8(f)(1)    “information concerning the number and types of contract audits...”                                 96

          Section 5 note     “an annex on final completed contract audit reports...containing significant audit findings.”       98-108



vi │ SEMIANNUAL REPORT TO THE CONGRESS
            1
O verview
M i ss i o n


         Serving the Congress and the
         Department
         Department of Defense Inspector General is an
         independent, objective agency within the U.S.
         Department of Defense that was created by the
         Inspector General Act of 1978, as amended. DoD IG is
         dedicated to serving the warfighter and the taxpayer
         by conducting audits, investigations, inspections
         and assessments that result in improvements to
         the Department. DoD IG provides guidance and
         recommendations to the Department of Defense
         and Congress.


         Mission
         Our mission is to provide independent, relevant and
         timely oversight of the Department of Defense that:

           •	 Supports the warfighter.
           •	 Promotes accountability, integrity and efficiency.
           •	 Advises the Secretary of Defense and Congress.
           •	 Informs the public.


         Vision
         Our vision is to be a model oversight organization
         in the Federal Government by leading change,
         speaking truth and promoting excellence; a diverse
         organization, working together as one professional
         team, recognized as leaders in our field.


         Core Values
           •	 Integrity
           •	 Efficiency
           •	 Accountability
           •	 Excellence


         Goal 1
         Promote economy, efficiency and effectiveness.


         Goal 2
         Identify, deter and investigate fraud, waste and abuse.


         Goal 3
         Engage, enable and empower our people.


         Goal 4
         Achieve excellence through unity.




2 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                               O r g a n i z at i o n


                                                Secretary of Defense




                                                 Inspector General




                                                             Intelligence &
Auditing                                 Administrative                                                    Special Plans &
                   Investigations                           Special Program       Policy & Oversight
                                         Investigations                                                      Operations
                                                              Assessments




 Auditing                                                    Intelligence and Special Program
 The Office of the Deputy Inspector General for
 Auditing conducts audits within all facets of DoD
                                                             Assessments
                                                             The Office of the Deputy Inspector General for
 operations. The work results in recommendations for         Intelligence and Special Program Assessments
 reducing costs; eliminating fraud, waste, and abuse         provides oversight (audits, evaluations, and
 of authority; improving performance; strengthening          inspections) across the full spectrum of programs,
 internal controls; and achieving compliance with laws,      policies, procedures, and functions of the intelligence,
 regulations, and policy.                                    counterintelligence, nuclear and security enterprises,
                                                             and other special programs within DoD.
 Investigations
 The Office of the Deputy Inspector General for
 Investigations leads the Defense Criminal Investigative
                                                             Policy and Oversight
                                                             The Office of the Deputy Inspector General for
 Service, which conducts highly relevant, objective,         Policy and Oversight provides oversight and policy
 professional investigations of matters critical to DoD      for audit and investigative activities, conducts
 property, programs, and operations that provide for         engineering assessments of DoD programs, provides
 our national security with emphasis on life, safety,        technical advice and support to DoD IG projects,
 and readiness.                                              and operates the DoD IG subpoena and contractor
                                                             disclosure programs.
 Administrative Investigations
 The Office of the Deputy Inspector General for
 Administrative Investigations investigates and
                                                             Special Plans and Operations
                                                             The Office of the Deputy Inspector General for Special
 oversees investigations of allegations regarding the        Plans and Operations provides assessment oversight
 misconduct of senior DoD officials, both civilian and       of all facets of DoD programs and operations. Senior
 military; restriction from communicating with an IG or      DoD leaders and Congress use these assessments to
 member of Congress; whistleblower reprisal against          make informed decisions regarding priority national
 service members, defense contractor employees,              security objectives.
 and DoD civilian employees (appropriated and
 nonappropriated fund); and improper referrals of
 service members for mental health evaluations.




                                                                                            OCTOBER 1, 2013 TO MARCH 31, 2014 │ 3
E xecutive Summary


         OVERVIEW                                                 Investigations-Defense Criminal Investigative Service
                                                                  opened 295 cases, closed 251 cases and has
                                                                  1,720 ongoing investigations. Cases resolved in
         The Inspector General Act of 1978, as amended,           this reporting period primarily addressed criminal
         states that the inspector general is responsible for     allegations of procurement fraud, public corruption,
         conducting audits, investigations, and inspections       product substitution, illegal transfer of technology and
         and for recommending policies and procedures to          health care fraud.
         promote economical, efficient, and effective use
         of agency resources and programs that prevent            Administrative Investigations received a total of
         fraud, waste, abuse, and mismanagement. The              384 senior official and 577 whistleblower reprisal/
         Act also requires the inspector general to keep          restriction complaints in the first half of FY 2014;
         the Department and Congress fully and currently          and closed a total of 382 senior official and 495
         informed about problems and deficiencies in              whistleblower reprisal/restriction complaints.
         the Department’s operations and the need for
         corrective action.                                       Intelligence and Special Program Assessments issued
                                                                  four reports that addressed acquisition processes and
                                                                  contract management, financial management, and
            “We are dedicated to serving the                      the nuclear enterprise.
              warfighter and the taxpayer by
              conducting audits, investigations, and              Policy and Oversight issued two evaluation reports
                                                                  addressing its oversight of audit and investigative
              inspections that result in improvements             issues in DoD. In particular, we reviewed a Hotline
              to the Department.”                                 allegation regarding a followup audit of a contractor’s
                                                                  Material Management and Accounting System and
         During this reporting period, DoD IG continued           deoxyribonucleic acid collection requirements for
         directing its resources toward those areas of greatest   criminal investigations. Policy and Oversight also issued
         risk to the Department of Defense. We are dedicated      3 Department-wide policies, coordinated 168 existing
         to serving the warfighter and the taxpayer by            and proposed DoD policy issuances, issued 355 IG
         conducting audits, investigations, and inspections       subpoenas, and received 106 contractor disclosures.
         that result in improvements to the Department.
         DoD IG provides guidance and recommendations to
         the Department and information to Congress. We           Special Plans and Operations issued 6 assessment
         summarize below the work of each component as of         reports with 58 recommendations that addressed a
         March 31, 2014.                                          range of issues, including planning for the effective
                                                                  development and transition of critical Afghan National
         Auditing issued 40 reports with more than 135            Security Forces enablers to post-2014, managing risks
         recommendations identifying potential cost               of multiple medications, and burials at Arlington and
         savings and funds that could be put to better use,       Soldiers’ and Airmen’s Home National Cemeteries.
         ensuring the safety of service members; addressing
         improvements in DoD operations, financial reporting
         and accountability; ensuring the Department
         complied with statutory mandates; and improve
         existing or identifying new efficiencies. Of those
         reports, 30 percent addressed acquisition processes
         and contracting issues; 50 percent addressed financial
         management issues; 2.5 percent addressed cyber
         security issues; and 17.5 percent addressed joint
         warfighting and readiness issues.




4 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                             E xecutive Summary


PRIORITIES                                                CORE MISSION
As a Department-wide priority, the Secretary of
                                                          AREAS
Defense identified the need to improve effectiveness
and efficiencies in business operations to sustain        DoD IG issued 52 reports identifying $3.6 million
mission-essential activities. In support of this focus,   in potential monetary benefits. We achieved an
DoD IG uses its extensive oversight capabilities to       additional $25.8 million in financial savings based on
promote economy, efficiency, and effectiveness            management-completed corrective actions to reports
throughout the Department. DoD IG performs audits,        issued in previous reporting periods. In addition,
investigations, and assessments to support the            Defense Criminal Investigative Service investigations
Department’s goals to:                                    were the basis for 48 arrests, 171 criminal charges,
                                                          147 criminal convictions, 82 suspensions and
  •	 Prevail in today’s wars;                             81 debarments, as well as $1.5 billion potentially
  •	 Prevent and deter conflict;                          returned to the Government.
  •	 Prepare to defeat adversaries and succeed in a
     wide range of contingencies;
  •	 Preserve and enhance the all-volunteer force; and    Audits
  •	 Reform the business and support functions of the     DoD IG examined the Department's financial
     defense enterprise.                                  schedule of North Atlantic Treaty Organization (NATO)
                                                          contributions to the Afghan National Army Trust Fund
We performed audits, inspections, and assessments         to determine whether the receipts and expenditures
of key programs and operations. We also consulted on      were fairly stated (accurately reported). NATO
a variety of Department initiatives and issues. DoD IG    countries have contributed more than $600 million
is focusing work efforts on preventing and detecting      to the trust fund to date. DoD IG did not identify
fraud, waste, and abuse, and improving efficiency and     any instances where contributions were applied to
effectiveness in critical areas for the Department        contracts that conflicted with NATO donors’ intent.
such as:                                                  However, the Department was not able to provide
                                                          a financial schedule that was auditable because of
  •	 Acquisition processes and contract management;       material internal control weaknesses related to the
  •	 Financial management;                                financial reporting processes and noncompliance
  •	 Joint warfighting and readiness;                     with laws and regulations. Therefore, DoD IG issued
  •	 Information assurance, security and privacy;         a disclaimer of opinion because DoD IG was not able
  •	 Health and safety;                                   to determine if the financial schedule was accurate.
  •	 Equipping and training Afghan National               Without audited statements, future donations from
     Security Forces; and                                 contributing countries may be at risk. The lack of a
  •	 Nuclear enterprise.                                  timely completed audit may negatively affect the
                                                          participation of NATO countries making donations to
Our investigations resulted in criminal, civil and        the trust fund.
administrative actions. We report on the following        Report No. DODIG-2014-046
investigative priorities for crimes impacting
the Department:                                           The Air Force Aeronautical Systems Center awarded
                                                          a $215.8 million cost-plus-fee service contract to
  •	 Procurement fraud;                                   Pratt and Whitney to establish a sole-source, 10-year,
  •	 Public corruption;                                   performance-based logistics business arrangement
  •	 Product substitution;                                for sustainment of fielded F119 engines. The Air
  •	 Health care fraud; and                               Force awarded about $1.6 billion for F119 engine
  •	 Technology protection.                               sustainment, including engine spare parts for 2008




                                                                                         OCTOBER 1, 2013 TO MARCH 31, 2014 │ 5
E xecutive Summary

         through 2012, but did not validate actual unit costs of   its subsidiary Janssen Pharmaceutica, Inc., introduced
         engine spare parts purchased. This occurred because       the antipsychotic drug Risperdal into interstate
         the contracting officers did not have a process to        commerce for non-FDA approved use and allegedly
         identify and track the actual unit costs paid for         provided incentives for this off-label use to healthcare
         F119 engine spare parts. As a result, the contracting     providers. On November 1, 2013, Janssen entered into
         officers did not know whether they received fair          a civil settlement agreement with the Department
         and reasonable prices for sole-source F119 engine         of Justice in which the company agreed to pay the
         spare parts. Consequently, the Air Force Life Cycle       Government a total of $1.2 billion to settle allegations
         Management Center contracting officers will not be        of off-label marketing. Of this amount, TRICARE
         able to transition the F119 engine spare parts contract   received $8.1 million. Additionally, on November 7,
         structure to firm-fixed-price. DoD IG recommended         2013, Janssen pleaded guilty to a criminal information
         the Commander, Air Force Life Cycle Management            charging it with introducing a misbranded drug,
         Center, develop a process to identify and document        Risperdal, into interstate commerce. Janssen was
         actual spare part costs for 2010 and each subsequent      sentenced to pay a criminal fine of $334 million and
         year on the contract for use in determining fair and      was ordered to forfeit $66 million, based on FDA
         reasonable prices, and develop an action plan with        forfeiture actions.
         defined milestones to transition to a firm-fixed-price
         contract for F119 engine spare parts.                     A DCIS investigation examined allegations that
         Report No. DODIG-2014-038                                 Sikorsky Aircraft Corporation submitted false claims
                                                                   for inflated costs for spare parts. The investigation
         The Army did not have effective procedures for            found that in four contacts from 2008 to 2011 Sikorsky
         processing and safeguarding retail and wholesale          allegedly failed to disclose accurate, complete, and
         equipment at the Redistribution Property Assistance       current cost and pricing data for U.S. Army Black
         Team yards in Afghanistan. Redistribution Property        Hawk helicopters. As a result of the inaccurate
         Assistance Team personnel did not accurately record       pricing data, Sikorsky allegedly submitted claims to
         37.2 percent of equipment valued at $157.4 million        the Government with inflated prices. On March 31,
         in the accountability systems or maintain sufficient      2014, Sikorsky entered into a civil settlement with the
         documentation to support items that had been              Department of Justice and agreed to pay $3.5 million
         transferred from the Redistribution Property              to resolve allegations that it violated the False
         Assistance Team yards in Bagram and Kandahar.             Claims Act.
         The Army did not properly oversee contractor
         performance to ensure adequate establishment and          A Defense Criminal Investigative Service investigation
         transference of property accountability; did not hold     disclosed that Component Source Florida and its
         the contractor accountable for poor performance; and      owner, Luis Cantos, supplied DoD with parts that did
         did not implement effective controls over equipment.      not meet the contract specifications. Cantos bought
         The Army reported accumulated losses of                   Chinese-made parts and unlawfully used them to
         $586.8 million from May 2012 through May 2013             fill DoD orders that required original equipment
         in retail and wholesale equipment at the nine             manufacturer parts. The contracts were for parts for
         Redistribution Property Assistance Team yards in          high mobility multipurpose wheeled vehicles, forklifts,
         Afghanistan. Included in these losses were weapons,       and aircraft. Cantos and co-conspirator Jeffrey
         weapons systems, and other sensitive equipment.           Perez were later identified as employees of Metro
         Report No. DODIG-2014-043                                 Enginetech, Inc., and Cantos was also identified as the
                                                                   owner of LEC Technologies. Both companies provided
         Investigations                                            parts that did not meet DoD specifications and also
                                                                   submitted false traceability documentation to the
         A joint investigation with U.S. Health and Human
                                                                   Defense Supply Center Columbus and the Defense
         Services Office of Inspector General, Food and Drug
                                                                   Supply Center Richmond using email and facsimile.
         Administration (FDA) Office of Criminal Investigation
                                                                   On December 16, 2013, Jeffrey Perez pleaded guilty to
         and the United States Postal Service Office of
                                                                   conspiracy to defraud the Government with respect
         Inspector General, disclosed Johnson & Johnson and




6 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                             E xecutive Summary

to claims. On February 6, 2014, Luis Cantos pleaded       Defense Authorization Act for Fiscal Year 2008,”
guilty to conspiracy to defraud the Government            addressing subsequent direction from the House
with respect to claims, false claims, and conspiracy      Armed Services Committee, and determining whether
to commit mail fraud. On March 4, 2014 Perez was          written legal opinions required by Section 847 were
sentenced to five months imprisonment, three years        being provided and retained in accordance with the
supervised release, and ordered to pay $23,300 jointly    requirements of this section.
and severally with Cantos. Sentencing for Cantos is       Report No. DODIG-2014-050
scheduled for May 2014.
                                                          DoD IG conducted an annual review of the
Inspections                                               effectiveness and compliance of Services’ voting
                                                          assistance programs. Compliance areas focused
DoD IG conducted an assessment of the Arlington
                                                          on staffing, training, material distribution,
National Cemetery and the Soldiers’ and Airmen’s
                                                          communication and information, and commander-
Home National Cemetery for oversight, operational
                                                          and installation-level involvement.
issues, information systems, and grave accountability
                                                           Report No. DODIG-2014-051
to determine whether their capabilities were
sufficient for executing its mission.
Report No. DODIG-2014-026                                 Policy and Oversight
                                                          DoD IG reviewed a DoD Hotline complaint alleging
DoD IG assessed Wounded Warrior programs                  that during a followup audit of a DoD contractor’s
to identify challenges pertaining to medication           Material Management and Accounting System
management practices. The assessment team                 (MMAS), a Defense Contract Audit Agency (DCAA)
reviewed DoD and Services policies and programs           auditor concluded that numerous outstanding
intended to manage risks associated with multiple         deficiencies were corrected without obtaining
medication prescriptions, examined policies               sufficient evidence, and the auditor reported the
related to reducing adverse drug events, and              entire MMAS system adequate. DoD IG substantiated
looked at procedures related to disposal of               the allegation that DCAA reported several MMAS
expired and excess medications.                           deficiencies as corrected without obtaining
Report No. DODIG-2014-040                                 sufficient evidence to support the opinion, but did
                                                          not substantiate the second allegation that DCAA
DoD IG reviewed plans and activities that are in place    reported the entire MMAS system as adequate.
to develop enabling capabilities (enablers) identified    Report No. DODIG-2014-002
as being critical to the ability of the Afghan National
Army to conduct and sustain independent operations.       DoD IG evaluated whether DoD and the U.S. Coast
This report is classified.                                Guard authorities collected Deoxyribonucleic Acid
Report No. DODIG-2014-027                                 (DNA) samples from service members convicted of
                                                          certain offenses and submitted them to the U.S. Army
DoD IG tracked Afghan National Police/Ministry of         Criminal Investigation Laboratory (USACIL) for analysis
Defense development in the areas of sustainment,          and subsequent inclusion in the Combined DNA Index
professionalization, and Afghan National Police/          System (CODIS) as Federal law and DoD Instruction
Ministry of Defense transition to Afghan security lead.   mandate. DoD and Coast Guard authorities did not
Metrics were analyzed to determine progress toward        submit 282 of the 3,536 required DNA samples to
the goal of developing a sustainable Afghan National      USACIL for inclusion in CODIS during the evaluation
Security Force for transition to Afghan control by        sample period of June 1, 2010, through October 31,
2014. This report is classified.                          2012. Because of this, evaluated agencies had an
Report No. DODIG-2012-034.7                               overall 92 percent compliance rate.
                                                          Report No. DODIG-2014-029
DoD IG conducted an assessment to address the
central database and DoD IG oversight provisions of
Section 847 of Public Law 110-181, “The National




                                                                                         OCTOBER 1, 2013 TO MARCH 31, 2014 │ 7
E xecutive Summary


         Administrative Investigations
         The DoD IG recently completed a review of a report
                                                                  ENABLING MISSION
         of investigation concerning the processing of a
         recommendation to award the Medal of Honor to
                                                                  AREAS
         a former Army captain. Specifically, the review
         was conducted to determine the circumstances             DoD Hotline
         surrounding the loss of the original award               The DoD Hotline received 5,596 contacts from the
         recommendation. DoD IG determined that the               public and members of the DoD community during
         report of investigation was factually incomplete         this reporting period. Of those contacts, 1,211
         and conducted additional inquiry. As a result of         (22 percent) were telephone calls. Based on these
         the additional inquiry, DoD IG concluded by a            contacts, the Hotline opened 3,149 cases and closed
         preponderance of the evidence that the Commander,        4,368 cases.
         U.S. Forces-Afghanistan, properly endorsed the
         officer’s original Medal of Honor recommendation,
         but the recommendation was not forwarded to
                                                                  Congressional Affairs
                                                                  Section 4(a) of the Inspector General Act requires the
         Headquarters, U.S. Central Command, as required.         Inspector General “to review existing and proposed
         There was insufficient evidence to conclude a senior     legislation and regulations relating to the programs
         official committed misconduct in this matter. Prior to   and operations of [the Department of Defense]” and
         the completion of our review, the officer was awarded    to make recommendations “concerning the impact
         the Medal of Honor.                                      of such legislation or regulations on the economy
                                                                  and efficiency in the administration of programs
                                                                  and operations administered or financed by [the
                                                                  Department] or the prevention and detection of fraud
                                                                  and abuse in such programs and operations.” DoD IG
                                                                  provides information to Congress by participating in
                                                                  congressional hearings and briefings.

                                                                  The Office of Communications and Congressional
                                                                  Liaison (OCCL) supports the DoD IG by serving as the
                                                                  contact for communications to and from Congress.
                                                                  From October 1, 2013, through March 31, 2014,
                                                                  OCCL received 85 new congressional inquiries and
                                                                  closed 126.


                                                                  Congressional Requests
                                                                  DoD IG had six new legislative reporting requirements
                                                                  in the FY 2014 National Defense Authorization Act
                                                                  and Committee report language for the FY 2014 DoD
                                                                  Appropriations bill. These reporting requirements
                                                                  include periodic audits of contracting compliance
                                                                  with section 2533a of title 10, United States Code
                                                                  (the “Berry Amendment”), an assessment of planned
                                                                  testing of the Ground Based Interceptors program, a
                                                                  review of the Permanent Change of Station program
                                                                  efficiencies, and an assessment of the time it takes
                                                                  for Service treatment records to be transmitted from
                                                                  DoD to the Department Veterans Affairs. DoD IG also
                                                                  received requests for reviews directly from Members
                                                                  of Congress and congressional committees.



8 │ SEMIANNUAL REPORT TO THE CONGRESS
                    2
C ore M ission A reas
C o r e M i ss i o n A r e a s


         AUDITS                                                    the Use of Cost Reimbursement Contracts.” DoD IG
                                                                   determined whether the Missile Defense Agency and
                                                                   the Defense Microelectronics Activity complied with
         The following are highlights of DoD IG audit work         interim Federal Acquisition Regulation revisions on
         during the reporting period. DoD IG performed audits      the use of cost reimbursement contracts. This was
         in the following categories:                              the third in a planned series of audit reports on
                                                                   DoD compliance with the interim rule for the use
           •	 Acquisition processes and contract management.       of cost-reimbursement contracts.
           •	 Financial management.
           •	 Joint warfighting and readiness.                     Findings:
           •	 Cyber security.                                      Of the 88 contracts reviewed, valued at about
                                                                   $1.66 billion, Missile Defense Agency and Defense
         Acquisition Processes &                                   Microelectronics Activity contracting personnel did
         Contract Management                                       not consistently implement the interim rule for
                                                                   72 contracts, valued at about $528 million.
         The Department continues to focus efforts on
                                                                   Contracting personnel issued contracts that did
         improving its acquisition processes and management
                                                                   not follow the interim rule because of different
         and oversight of the contracts it issues. The
                                                                   interpretations of the interim rule requirements.
         Department recognizes that it must do more with
                                                                   As a result, Missile Defense Agency and Defense
         less considering the current fiscal constraints. The
                                                                   Microelectronics Activity contracting personnel
         Department’s efforts to be more disciplined with
                                                                   continue to issue cost-reimbursement contracts that
         resources are evident by the number of major defense
                                                                   may inappropriately increase DoD’s contracting risks
         acquisition programs the Department terminated
                                                                   because cost reimbursement contracts provide less
         over the last several years. Additionally, achieving
                                                                   incentive for contractors to control costs.
         greater efficiencies is the central tenet of its Better
         Buying Power initiative, which includes a broad array
         of efficiency efforts with emphasis on innovation,        R esult :
         technology, best value, and professionalism of the        The Director, Missile Defense Agency, agreed and
         workforce. However, DoD IG continues to identify          will emphasize the importance of the revisions
         recurring deficiencies with the Department’s efforts      to contracting personnel. Missile Defense Agency
         to provide effective administration and oversight of      contracting personnel have updated their checklists
         contracts and determine fair and reasonable prices.       to reflect the revisions. The Chief, Contracting
                                                                   Division, Defense Microelectronics Activity, agreed
                                                                   and immediately established procedures to ensure
            “Of the 88 contracts reviewed, valued                  that a senior official is always available to approve
              at about $1.66 billion, Missile Defense              all cost-reimbursement contracts one level above
              Agency and Defense Microelectronics                  the contracting officer. According to the Chief’s
              Activity contracting personnel did not               comments, Defense Microelectronics Activity has
                                                                   provided additional training to contracting personnel
              consistently implement the interim rule
                                                                   regarding the requirements of the interim rule.
              for 72 contracts, valued at about                    Report No. DODIG-2014-011
              $528 million.”
                                                                   U.S. Army Corps of Engineers Transatlantic
         Missile Defense Agency and Defense                        District- North Needs to Improve Oversight of
         Microelectronics Activity Use of Cost-                    Construction Contractors in Afghanistan
         Reimbursement Contracts                                   O verview:
         O verview:                                                        DoD IG is performing a series of audits on
               DoD IG is required to perform this audit in                 military construction projects in Afghanistan.
               accordance with the FY 2009 National Defense        For this project, DoD IG determined whether U.S.
         Authorization Act, section 864, “Regulations on           Army Corps of Engineers (USACE) properly monitored




10 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                               C


                                                               assurance process was secondary and that completing
                                                               the special operations forces military construction
                                                               projects was the top priority. As a result, there is
                                                               an increased risk that, although the two special
                                                               operations forces military construction projects
                                                               will get completed, the projects may not meet
                                                               contract requirements.


                                                               R esult :
                                                               Management comments partially addressed the
                                                               recommendations. USACE agreed to complete
                                                               Statements of Understanding and Compliance,
                                                               approve contractors’ quality control plans, and
                                                               maintain complete records in response to the
                                                               recommendations.
  DoD IG determined whether USACE properly monitored
                                                               Report No. DODIG-2014-010
  contractor performance during construction in Afghanistan.
                                                               U.S. Army Contracting Command Did Not
                                                               Obtain Fair and Reasonable Prices for
contractor performance during construction and
adequately performed quality assurance oversight
                                                               Communications Equipment
responsibilities pertaining to two special operations          O verview:
forces military construction projects at Bagram                       DoD IG determined whether the U.S. Army
Airfield, Afghanistan.                                                Contracting Command (ACC) obtained fair and
                                                               reasonable prices for communications equipment
                                                               procured from Datron World Communications, Inc.
Findings:
                                                               (Datron). Specifically, DoD IG reviewed 37 contract
USACE Transatlantic District-North quality assurance
                                                               actions, valued at approximately $328 million for
and contracting officials’ oversight of two special
                                                               127 items, and identified 75 items with associated
operations forces’ military construction projects at
                                                               commercial sales, valued at approximately
Bagram Airfield, valued at $37.6 million, was not
                                                               $219 million.
conducted in accordance with the Federal Acquisition
Regulation and USACE guidance. Since 2010, when the
projects were initiated, area and resident engineers           Findings:
did not provide project engineers and construction             Contracting officers did not obtain fair and reasonable
representatives with a Statement of Understanding              prices for communications equipment procured
and Compliance; project engineers did not always               from Datron to support the Afghan National Security
follow contract oversight responsibilities, were               Forces (ANSF). Specifically, contracting officers did not
working with incomplete contractors’ quality controls
plans, did not prepare quality assurance plans, and
could not substantiate that contractors fully executed
the three-phase inspection process; and USACE
Transatlantic District-North technical inspections
of contractors’ construction efforts were limited.
This occurred because current quality assurance
officials did not always have critical quality assurance
documents available before their arrival and could not
explain why quality assurance requirements were not
fully executed from the projects’ start. However, the            DoD IG determined whether ACC obtained fair and
area engineer stated that documenting the quality                reasonable prices for communications equipment.




                                                                                               OCTOBER 1, 2013 TO MARCH 31, 2014 │ 11
C o r e M i ss i o n A r e a s

         conduct sufficient pre- or post-award price analysis.
         Additionally, contracting officers did not obtain the
         most favored customer price on 40 of 75 commercial
         sales items. This occurred because the contracting
         officers did not:

           •	 verify that proposed prices were fair and
              reasonable in accordance with the Defense
              Federal Acquisition Regulation Supplement
              before awarding the contract;
           •	 adequately review price changes as authorized by
              the contract; or
           •	 enforce the most favored customer clause and
              obtain sales data in accordance with contract
              requirements.

         As a result, ACC potentially overpaid up to $3.3 million     DoD IG evaluated if sole-source engine spare parts for the
                                                                      F-22 Raptor were purchased at fair and reasonable prices.
         for communications equipment purchased for
         the ANSF.
                                                                    The Air Force awarded about $1.6 billion for F119
         R esult :                                                  engine sustainment, including engine spare parts for
         Comments from the Director of Contracting, ACC-            2008 through 2012, but did not validate actual unit
         Aberdeen Proving Ground, addressed all but one             costs of engine spare parts purchased. The contracting
         recommendation, which DoD IG revised based on              officers did not have a process to identify and track
         actions taken since the draft report. DoD IG requested     the actual unit costs paid for F119 engine spare parts.
         additional comments on the revised recommendation.         As a result, the contracting officers did not know
         Report No. DODIG-2014-020                                  whether they received fair and reasonable prices for
                                                                    sole-source F119 engine spare parts. Consequently,
         Air Force Life-Cycle Management Center Could               the Air Force Life Cycle Management Center
         Not Identify Actual Cost of F119 Engine Spare              contracting officers will not be able to transition
         Parts Purchased From Pratt and Whitney                     the F119 engine spare parts contract structure to
                                                                    firm-fixed-price.
         O verview:
                 DoD IG determined whether the U.S. Air Force
                 purchased sole-source F119 PW-100 Turbofan         R esult :
         (F119) engine spare parts for the F-22 Raptor at fair      The Commander, Air Force Life Cycle Management
         and reasonable prices from Pratt and Whitney. The          Center, did not provide comments to the
         F-22 fleet consists of 187 aircraft, each powered by       recommendations in the report.
         two F119 engines manufactured by Pratt and Whitney.        Report No. DODIG-2014-038
         This was the first in a series of audits addressing the
         F119 engine sustainment performance-based                  The Army Needs to Improve Property
         logistics contract.                                        Accountability and Contractor Oversight at
                                                                    Redistribution Property Assistance Team Yards
         Findings:                                                  in Afghanistan
         On February 19, 2008, the Air Force Aeronautical           O verview:
         Systems Center at Wright-Patterson Air Force Base,                 DoD IG determined whether Redistribution
         Ohio, awarded a $215.8 million cost-plus-fee service               Property Assistance Teams (RPATs) in Bagram
         contract to Pratt and Whitney to establish a sole-         and Kandahar, Afghanistan, have effective procedures
         source, 10-year, performance-based logistics business      in place to process equipment, to include preparation
         arrangement for sustainment of fielded F119 engines.       for shipment.




12 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                            C o r e M i ss i o n A r e a s

Findings:                                                   R esult :
The RPATs did not have effective procedures for             Management comments from the Commander
processing and safeguarding retail and wholesale            Army Sustainment Command were responsive
equipment at the RPAT yards in Bagram and Kandahar,         to the recommendations. Comments from the
Afghanistan. Specifically, RPAT personnel did not           Commander, Army Materiel Command, the Director,
accurately record 6,703 of 18,036, or 37.2 percent,         Army Contracting Command-Rock Island, and the
of equipment valued at $157.4 million in the                Commander, 401st Army Field Support Brigade
accountability systems or maintain sufficient               partially addressed the recommendations. DoD IG
documentation to support items that had been                requested the Commander, Army Materiel Command,
transferred from the RPAT yards in Bagram and               the Commander, Army Sustainment Command, the
Kandahar. This occurred because Army Sustainment            Director, Army Contracting Command-Rock Island, and
Command, Army Contracting Command - Rock Island,            the Commander, 401st Army Field Support Brigade
and the 401st Army Field Support Brigade did not            provide additional comments.
properly oversee contractor performance to ensure           Report No. DODIG-2014-043
adequate establishing and transferring of property
accountability at the RPAT yards; Army Sustainment          Improvements Are Needed in Contractor
Command did not provide sufficient resources to             Oversight, Mission Security, and Personnel
the RPATs; Army Contracting Command - Rock Island           Safety for the Afghanistan Rotary Wing
did not hold the contractor accountable for poor            Program Contracts
performance; and the 401st Army Field Support               O verview:
Brigade did not implement effective controls over                   DoD IG determined whether U.S.
equipment at the RPAT yards. As a result, the Army                  Transportation Command (USTRANSCOM) and
reported accumulated losses of $586.8 million from          U.S. Central Command (USCENTCOM) officials had
May 2012 through May 2013 in retail and wholesale           adequate oversight of processes and procedures for
equipment at the nine RPAT yards in Afghanistan.            the Afghanistan Rotary Wing Transport contracts. This
Included in these losses were weapons, weapons              was the second in a series of audits of these contracts.
systems, and other sensitive equipment. DoD IG also         Since FY 2009, USTRANSCOM contracting officials
identified that equipment at the RPAT yards was not         have awarded 10 indefinite-delivery, indefinite-
being safeguarded in accordance with applicable             quantity contracts in support of the Afghanistan
regulations. When notified of the problem, the              Rotary Wing Transport program. As of June 2013,
Commander, 401st Army Field Support Brigade                 the contracting officer issued 30 task orders with an
promptly acted to fix the identified deficiencies.          approximate obligated value of $2 billion, and a
                                                            total approximate value of $3.3 billion, if all options
                                                            are exercised.

                                                            Findings:
                                                            USTRANSCOM and USCENTCOM officials did
                                                            not establish adequate oversight of processes
                                                            and procedures for the Afghanistan Rotary Wing
                                                            Transport contracts. As a result, USTRANSCOM
                                                            and USCENTCOM had limited assurance that the
                                                            contractors were meeting the contract performance
                                                            standards and were unaware that a contractor
                                                            incorrectly billed $141,923 for maintenance flights.
                                                            U.S. Forces–Afghanistan (USFOR-A) personnel did
                                                            not correctly handle classified information related
                                                            to the Afghanistan Rotary Wing Transport contracts.
  DoD IG reviewed RedistributionProperty Assistance Teams
                                                            Specifically, military personnel posted classified
  in Afghanistan.
                                                            information from classified flight schedules in




                                                                                          OCTOBER 1, 2013 TO MARCH 31, 2014 │ 13
C o r e M i ss i o n A r e a s

                                                                    DoD Considered Small Business Innovation
                                                                    Research Intellectual Property Protections
                                                                    in Phase III Contracts, but Program
                                                                    Improvements Are Needed
                                                                    O verview:
                                                                            In response to a requirement in House
                                                                            Armed Services Committee Report 112-479,
                                                                    to accompany the National Defense Authorization
                                                                    Act for FY 2013, DoD IG reviewed 22 Small Business
                                                                    Innovation Research (SBIR) Phase III contracts,
                                                                    with a combined base award value of about
                                                                    $244.9 million, to determine whether the Services
                                                                    properly awarded SBIR Phase III contracts to other
                                                                    than small businesses. Specifically, DoD IG determined
                                                                    whether the Services considered small business
                                                                    intellectual property rights and properly
           DoD IG determined whether USTRANSCOM and
           USCENTCOM officials had adequate oversight of the
                                                                    notified the Small Business Administration (SBA)
           Afghanistan Rotary Wing Transport contracts.             of contract awards.


         public locations. This occurred because the military       Findings:
         personnel needed to provide the flight schedules to        U.S. Army Medical Research Acquisition Activity, Naval
         passengers. As a result, the compromised classified        Air Systems Command, Naval Sea Systems Command,
         information could have threatened personnel life and       and Air Force Research Laboratory contracting
         safety or caused serious damage to national security.      personnel:
         In April 2013, the Chief of Staff, USFOR-A stated that a
         security review was conducted and corrective action          •	 properly awarded all 11 SBIR Phase III contracts
         was taken at Jalalabad Airbase. USCENTCOM allowed               that were awarded to other than small businesses
         unprotected contractor aircraft to transport personnel          because the awardee owned the SBIR data rights;
         and cargo under the Afghanistan Rotary Wing                     and
         Transport contracts. Specifically, 13 aircraft were not      •	 considered SBIR intellectual property rights when
         equipped with ballistic protection matting. As a result,        awarding 21 of 22 contracts by including the
         aircrews, passengers, and Government property                   required contract clause.
         are at an increased risk of injury and damage from
         enemy attacks. The USTRANSCOM contracting officer          However, DoD contracting and U.S. Army Medical
         awarded the Afghanistan Rotary Wing Transport              Research and Materiel Command personnel
         contract to a contractor that did not meet the security    inconsistently followed policies that governed
         clearance requirements established by USCENTCOM.           SBIR intellectual property protections because of
         As a result, USCENTCOM personnel released classified       unclear and inconsistent DoD and SBA requirements.
         information for nearly 3 years to contractor personnel     Additionally, DoD organizations did not:
         who did not have the required security clearances.
                                                                      •	 have any documented instances of contractor
                                                                         intellectual property complaints within the
         R esult :
                                                                         SBIR Program because DoD personnel were not
         The USCENTCOM, Commander; USCENTCOM, Director
                                                                         required to track complaints and believed that
         of Operations; USFOR-A, Deputy Commander–
                                                                         none existed; and
         Support; USTRANSCOM, Director of Acquisition
                                                                      •	 know the complete universe of SBIR Phase III
         and the USTRANSCOM, Contracting Officer only
                                                                         contract awards because no mechanism existed
         partially addressed the recommendations and DoD IG
                                                                         to fully track SBIR Phase III contracts.
         requested additional comments.
         Report No. DODIG-2014-044



14 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                         C o r e M i ss i o n A r e a s

DoD organizations’ inconsistent interpretation of
unclear requirements hinders program oversight and
                                                          Financial Management
                                                          The Department is committed to achieving audit
weakens protections over small business intellectual
                                                          readiness on all its financial statements. This
property. Without a clear interpretation of existing
                                                          longstanding goal continues to be a strategic focus
policy, DoD organizations could face obstacles in
                                                          for the Department’s efforts in improving financial
exercising their rights to SBIR data. DoD does not
                                                          management. DoD must improve its financial
have reliable data to report the success of the DoD
                                                          management as the budgetary uncertainties
SBIR Program. As a result, DoD’s program oversight
                                                          compound the Department’s fiscal challenges. If the
and the protections over small business intellectual
                                                          Department is going to make sound business and
property within the SBIR Program is weakened, and
                                                          budgetary decisions, it must have timely, accurate,
information provided to Congress is not complete.
                                                          and reliable financial information.

R esult :                                                 During this reporting period, DoD IG issued opinion
The Deputy Director, Policy and Procurement, DoD          reports addressing appropriated funds obligated for
Office of Small Business Programs, responding for the     the purpose of Human Immunodeficiency Virus /
Administrator, DoD Office of Small Business Programs,     Acquired Immune Deficiency Syndrome prevention,
SBIR Office, partially addressed the recommendations      DoD execution of North Atlantic Treaty Organization-
to develop training and issue guidance. The Deputy        contributing donations to Afghan National Army
Director agreed with the recommendations and              Trust Fund, and funds obligated for National Drug
stated the DoD Office of Small Business Programs          Control Program activities. Additionally, DoD IG
would address the following topics during the SBIR/       issued opinion reports on the DoD Basic and Special
Small Business Technology Transfer annual training        Purposes financial statements; Army, Navy, and Air
workshop planned for June 2014:                           Force’s General and Working Capital Fund financial
                                                          statements; U.S. Marine Corps Budgetary Activity for
  •	 standard intellectual property protections;          FY 2012; DoD Medicare-Eligible Retiree Health Care
  •	 use of the data assertions table;                    fund; and an endorsement of the opinion on the DoD
  •	 when the SBIR protection period begins and           Military Retirement Fund financial statements.
     when it can be extended;
  •	 timely SBA notification requirements; and
  •	 accuracy and uniformity of SBIR database                “U.S. Army Contracting Command-
     information.                                             Warren...inappropriately permitted
                                                              unusual contract financing when they
However, the Deputy Director did not fully                    modified two Ground Combat Vehicle
address the actions needed to allow for a uniform
                                                              development contracts with award
interpretation of intellectual property protections
across DoD or those needed to increase the accuracy
                                                              values totaling $889.7 million.”
of SBIR information being entered into existing
databases. The Director, Defense Procurement              Authorization of DoD Progress Payments
Acquisition Policy agreed to address inconsistencies in   For Ground Combat Vehicle Contracts Needs
DoD regulations. The Director stated DoD would work       Improvement
with SBA to address the inconsistencies regarding         O verview:
intellectual property and noted DoD has taken steps               DoD IG determined whether DoD officials
to clarify guidance on the initiation and extension of            authorized and administered progress
the protection period of SBIR generated data.             payments in DoD contracts in accordance with
Report No. DODIG-2014-049                                 selected Federal Acquisition Regulation and DoD
                                                          policies. Additionally, DoD IG examined progress
                                                          payments for two contracts for the Ground Combat
                                                          Vehicle Technology Development Phase.




                                                                                       OCTOBER 1, 2013 TO MARCH 31, 2014 │ 15
C o r e M i ss i o n A r e a s

         Findings:                                               R esult :
         U.S. Army Contracting Command-Warren                    Comments from the Director, Defense Procurement
         procurement contracting officers (PCOs)                 and Acquisition Policy addressed all of the specifics
         inappropriately permitted unusual contract financing    of the recommendation. As a result of the Director’s
         when they modified two Ground Combat Vehicle            comments, DoD IG referred one recommendation
         development contracts with award values totaling        to the Director, Defense Pricing. Since the Director,
         $889.7 million. The contract modifications authorized   Defense Procurement and Acquisition Policy
         the contractors to receive additional financing         coordinated with the Director, Defense Pricing to
         payments, although the contracts already included       implement the recommendation DoD IG did not
         customary progress payments. In addition, the           request additional comments. Comments from the
         PCOs did not follow Federal Acquisition Regulation      Executive Director, U.S. Army Contracting Command
         and DoD guidance when negotiating consideration         - Warren, were generally responsive. However,
         for the modifications. This occurred because the        comments on two recommendations did not
         PCOs misunderstood the proper use and approval          adequately address the recommendations. Because
         of contract financing payments. In one instance the     the contract ends in less than six months, DoD IG
         PCO disregarded advice from the administrative          does not request additional comments.
         contracting officer that the proposed contract          Report No. DODIG-2014-039
         actions did not comply with the Federal Acquisition
         Regulation. U.S. Army Contracting Command-              Navy Needs to Improve Contract Oversight
         Warren PCOs provided two DoD contractors the            of Its Financial Improvement and Audit
         ability to obtain $110 million more in financing        Readiness Program Contracts
         payments than were allowable under the Federal          O verview:
         Acquisition Regulations and thereby increased the              DoD IG determined whether the Navy
         effective progress payment rate above the 80 percent           was performing effective oversight of the
         threshold without proper approval. Additionally, U.S.   contracts for its Financial Improvement and Audit
         Army Contracting Command-Warren PCOs did not            Readiness Program.
         request or obtain adequate consideration for the
         additional financing. Using DoD guidance, the PCOs
                                                                 Findings:
         should have requested at least an additional
                                                                 The Navy Office of Financial Operations and Naval
         $1.3 million in consideration from the contractors.
                                                                 Supply System Command, Fleet Logistics Center
                                                                 Norfolk, Philadelphia Office did not perform adequate
                                                                 contract oversight on all 13 nonstatistically-selected
                                                                 sampled task orders related to the Navy’s Financial
                                                                 Improvement and Audit Readiness efforts as of
                                                                 September 30, 2012. This occurred because:

                                                                   •	 The contracting officer believed the quality
                                                                      assurance surveillance plan for the SeaPort-e
                                                                      contract or the performance standards within
                                                                      each task order fulfilled the requirements.
                                                                   •	 The Navy Office of Financial Operations
                                                                      reprioritized its audit-readiness focus and
                                                                      believed part of the deliverable was not required.
                                                                   •	 The contracting officer representative had no
                                                                      mechanism to track deliverable submission dates.
                                                                   •	 The contracting officer and the Deputy Director,
                                                                      Office of the Deputy Assistant Secretary Financial
           DoD IG examined financing of two contracts for the
                                                                      Operations, did not process appointment
           Ground Combat Vehicle Technology Development Phase.
                                                                      letters accurately.




16 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                         C o r e M i ss i o n A r e a s

As a result, Naval Supply System Command, Fleet           Therefore, DoD IG was unable to provide an audit
Logistics Center Norfolk, Philadelphia Office had         opinion (issued a disclaimer of opinion) and was
limited assurance on the quality of audit-readiness       not able to determine if the financial schedule
services totaling $26.3 million in expended funds as of   was accurate. Without audited statements, future
September 30, 2012.                                       donations from donor countries may be at risk. The
                                                          lack of a timely completed audit may negatively
R esult :                                                 affect the participation of NATO countries making
The Commander, Naval Supply Systems Command,              donations to the trust fund. DoD IG identified
agreed with all the recommendations and                   internal control weaknesses related to the financial
immediately began modifying existing orders and           reporting processes and noncompliance with laws
updating procedures. However, DoD IG requested            and regulations. However, DoD IG did not identify
additional comments on one recommendation.                any instances where contributions were applied to
The Deputy, Financial Operations agreed with the          contracts that conflicted with donors’ intent. DoD IG
recommendations and will increase contract                made five recommendations to DoD senior leaders to
oversight staff and update technical assistant letters.   improve future reporting.
According to the Deputy’s comments, the Navy has
provided training to reiterate contracting officer        R esult :
representative duties.                                    Comments from the Deputy Comptroller (Program/
Report No. DODIG-2014-030                                 Budget), Office of the Under Secretary of Defense
                                                          (Comptroller)/Chief Financial Officer, DoD addressed
                                                          all of the specifics of the five recommendations and
   “Without audited statements, future                    discussed several initiatives planned or underway
     donations from donor countries                       to improve the financial reporting process. The
     may be at risk. The lack of a timely                 improvements identified should improve the internal
     completed audit may negatively affect                controls and processes for recording obligations
     the participation of  NATO countries                 and disbursements of the NATO contributions.
     making donations to the trust fund.”                 The effectiveness of the implementation will be
                                                          determined when the next examination is conducted.
                                                          Report No. DODIG-2014-046
Independent Auditor’s Report on the
Examination of DoD Execution of North
Atlantic Treaty Organization–Contributing                 Joint Warfighting and Readiness
Countries’ Donations to Afghan National Army              The Department will be challenged with maintaining
Trust Fund                                                U.S. global posture and presence over the next several
                                                          years, as the Department rebalances the capacity,
O verview:                                                capabilities, and readiness of the joint force. Over
       DoD IG examined the Department’s March 31,
                                                          the near term, the Department has indicated, due
       2013, financial schedule of NATO contributions
                                                          to fiscal constraints, it will continue to experience
       to the Afghan National Army Trust Fund to
                                                          gaps in training and maintenance. Additionally, if the
determine whether the receipts and expenditures
                                                          fiscal constraints that presently have a brief reprieve
were fairly stated (accurately reported). NATO
                                                          are not carried from FY 2016 and beyond, readiness
countries have contributed more than $600 million to
                                                          will continue to be impacted and is a risk to the
the trust fund to date.
                                                          Department in meeting its strategic objectives.
                                                          During this reporting period, DoD IG continued to
Findings:                                                 focus on readiness issues, continuing operations in
The Department was not able to provide a                  Afghanistan and the related drawdown efforts, and
financial schedule that was auditable (reconciled         civil-military operations.
to supporting schedules and accounting data).




                                                                                        OCTOBER 1, 2013 TO MARCH 31, 2014 │ 17
C o r e M i ss i o n A r e a s

         MV-22 Squadrons Could Improve Reporting of
         Mission Capability Rates and Readiness
         O verview:
                DoD IG evaluated the accuracy of the aircraft
                inventory reports and work orders used to
         compute the MV-22 mission capability rates from
         October 1, 2008, through September 30, 2011. In
         addition, DoD IG evaluated readiness reports to
         determine whether MV-22 squadrons reported
         accurate and complete equipment condition (R-level)
         and category (C-level) information for the MV-22.

         Findings:
         From FY 2009 through FY 2011, MV-22 squadron
         commanders computed the Naval Aviation
         Maintenance Program mission capability rates for            DoD IG evaluated readiness reports to determine whether
                                                                     MV-22 squadrons reported accurate information.
         five of the six squadrons using erroneous aircraft
         inventory reports and work orders. Squadron
         maintenance personnel:                                    As a result, the mission capability rates were
                                                                   unreliable, and senior DoD and Marine Corps officials
           •	 improperly recorded MV-22 aircraft status            could have deployed MV-22 squadrons that were not
              information 167 of 200 times on aircraft inventory   prepared for missions.
              reports for out-of-reporting periods; and            R esult :
           •	 did not adequately prepare 112 of 907 work           Comments from the Commander, Naval Air Force,
              orders that DoD IG reviewed.                         Pacific, responding for the Commander, Naval Air
                                                                   Forces were partially responsive. Comments from
         In addition, MV-22 squadron commanders submitted          the Deputy Commandant for Aviation, responding
         incomplete or inaccurate readiness reports for the        for the Deputy Commandant for Plans, Policies, and
         six squadrons. For example, squadron operations           Operations, the Commander, Marine Forces Command,
         personnel provided incomplete or inaccurate R-level       and the Commander, Marine Forces Pacific were
         information for 199 of 265 readiness reports.             partially responsive.
         Furthermore, 5 squadrons did not provide complete         Report No. DODIG-2014-001
         C-level information for 127 of 265 readiness reports.
                                                                   Combined Joint Task Force-Horn of Africa
         This occurred because MV-22 squadron commanders           Needed Better Guidance and Systems to
         did not:                                                  Adequately Manage Civil-Military Operations
                                                                   O verview:
           •	 adequately train MV-22 maintenance personnel
                                                                          DoD IG determined whether Combined Joint
              to prepare aircraft inventory reports and work
                                                                          Task Force-Horn of Africa (CJTF-HOA) officials
              orders
                                                                   adequately planned and executed civil-military
           •	 adequately train MV-22 operations personnel on
                                                                   operations in accordance with U.S. Africa Command
              readiness reports;
                                                                   (USAFRICOM) objectives. DoD IG reviewed 49 of 137
           •	 verify the accuracy of aircraft inventory reports,
                                                                   humanitarian assistance and humanitarian and civic
              work orders, and readiness reports; or
                                                                   assistance projects that were planned, ongoing, or
           •	 place a continued emphasis on the reliability of
                                                                   completed from FY 2010 through FY 2014 with an
              data critical to the mission capability rates.
                                                                   estimated value of $8.70 million.




18 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                            C o r e M i ss i o n A r e a s

   “...officials could not provide supporting              projects may not have been maintained. In addition,
     documentation to verify whether                       DoD lacks assurance that project structures
                                                           are sustained.
     $228,971 was properly accounted for,
     and documentation for other projects
                                                           R esult :
     may not have been maintained.”                        Comments from the Under Secretary of Defense for
                                                           Policy were responsive. DoD IG requested additional
Findings:                                                  comments from the Acting Chief of Staff, U.S. Africa
CJTF-HOA officials did not adequately plan or              Command to the final report.
execute civil-military operations in accordance with       Report No. DODIG-2014-005
USAFRICOM objectives. Although CJTF-HOA officials
identified how projects supported USAFRICOM                Defense Logistics Agency Disposition Services
objectives for 40 of the 49 projects, officials did not    Afghanistan Disposal Process Needed
accurately identify how projects supported                 Improvement
                                                           O verview:
objectives for the remaining 9 projects. This occurred
                                                                  DoD IG determined whether Defense Logistics
because civil-military operations officials did not
                                                                  Agency (DLA) Disposition Services was properly
effectively use the Overseas Humanitarian Assistance
                                                           disposing of equipment during the drawdown in
Shared Information System to identify how projects
                                                           Afghanistan. Additionally, DoD IG determined whether
supported USAFRICOM objectives and were not
                                                           adequate controls existed over the receipt, inspection,
required to receive training on strategic guidance.
                                                           coding, and disposal of equipment.
Additionally, CJTF-HOA officials did not report actual
cost data or could not provide all expenditure
documentation for four of six projects nonstatistically
                                                           Findings:
                                                           DLA Disposition Services did not have adequate
selected for funding review. This occurred because
                                                           controls over disposal of excess equipment. DLA
both USAFRICOM and CJTF-HOA officials did not
                                                           Disposition Services did not:
develop adequate procedures to account for
                                                             •	 have accountability over and correctly code
project costs.
                                                                excess equipment as DLA Disposition Services
                                                                officials did not adequately train personnel;
Also, CJTF-HOA officials could not ensure the host
                                                             •	 certify and verify demilitarization of excess
nation would sustain one out of the four completed
                                                                equipment in accordance with guidance
humanitarian assistance projects DoD IG observed in
accordance with the sustainment plan. This occurred
because USAFRICOM and CJTF-HOA officials did not
develop implementation guidance on how to build
host nation capacity with an emphasis on knowledge
and skills transfer. Finally, CJTF-HOA officials are not
required to conduct 1-year after action reports for
completed humanitarian and civic assistance structure
projects above $10,000. This occurred because the
Under Secretary of Defense for Policy did not include
a requirement in guidance to determine whether
structures were sustained by the host nation and
used as intended.

As a result, officials could not provide supporting
documentation to verify whether $228,971 was
properly accounted for, and documentation for other          DoD IG determined whether DLA Disposition Services was
                                                             properly disposing of equipment in Afghanistan.




                                                                                             OCTOBER 1, 2013 TO MARCH 31, 2014 │ 19
C o r e M i ss i o n A r e a s

              and accurately account for and bill scrapped
              equipment sold. This occurred because DLA            INVESTIGATIONS
              Disposition Services Afghanistan officials did not
              adequately monitor the certification and scrap       The following cases are highlights of investigations
              accounting processes;                                conducted by the Defense Criminal Investigative
           •	 have adequate access and security controls           Service (DCIS) and its Federal law enforcement
              because DLA Disposition Service officials did not    partners during the reporting period. DCIS
              develop local standard operating procedures;         investigations are listed under the following categories:
           •	 include the export-controlled items clause in
              the Afghanistan labor contract, which was an           •	 Procurement fraud.
              oversight on the part of DLA Disposition               •	 Public corruption.
              Service officials.                                     •	 Product substitution.
                                                                     •	 Health care fraud.
         In addition, these conditions occurred because              •	 Illegal technology transfer.
         DLA Disposition Service officials did not assign an
         appropriate number of personnel responsible for
         oversight within Afghanistan. DLA Disposition Service
                                                                   Procurement Fraud
                                                                   Procurement fraud investigations continue to
         had an increased risk of fraud, theft, improper
                                                                   comprise a major part of the DCIS case inventory. Of
         release of sensitive excess equipment, and transfer
                                                                   all forms of white-collar crime, procurement fraud
         of sensitive equipment technology. Additionally, DLA
                                                                   is probably the least visible, yet the most costly.
         Disposition Services did not receive optimal monetary
                                                                   Procurement fraud includes, but is not limited to, cost
         return for scrapped equipment sold.
                                                                   or labor mischarging, defective pricing, price fixing,
                                                                   bid rigging, and defective and counterfeit parts. The
         R esult :                                                 potential damage resulting from procurement fraud
         During the course of DoD IG’s audit, management           extends well beyond financial losses. This crime poses
         took corrective actions that addressed preliminary        a serious threat to the ability of the Department to
         observations. DoD IG commends management for              achieve its operational objectives and can have a
         taking proactive actions and as a result, no further      negative effect on the implementation of programs.
         recommendations or management actions were                DCIS places the highest priority on investigations
         required. DLA Disposition Services did the following:     impacting safety and operational readiness to
                                                                   protect the welfare of warfighters throughout the
           •	 eliminated backlogs;                                 procurement process.
           •	 identified and corrected system problems;
           •	 provided additional system training;
                                                                   DoD Contractors Sentenced for False
           •	 corrected coding errors;
                                                                   Statements to Obtain Government Contracts
           •	 added personnel to key positions;
           •	 addressed scale issues;                              O verview:
           •	 submitted debit memorandums to bill scrap                    A joint investigation with the Department
              contractors;                                                 of Labor Office of Inspector General (OIG);
           •	 properly secured the facilities;                     Department of Veterans Affairs OIG; Department
           •	 increased visitor access controls;                   of Homeland Security OIG; and Department of
           •	 developed local standard operating procedures;       Housing and Urban Development OIG disclosed that
           •	 modified the labor contract;                         from approximately May 2007 through July 2009,
           •	 increased trained personnel with oversight           John Blanchard and four of his former Liberating
              responsibilities; and                                Solutions employees, Amy Johnson, Eric Behler,
           •	 added contracting officer representative training    Joanne Blanchard, and James Blanchard, knowingly
              to the pre-deployment requirements.                  engaged in a scheme to defraud the U.S. Government,
         Report No. DODIG-2014-007                                 Service Disabled Veteran Owned Small Businesses,
                                                                   and certain U.S. military veterans to obtain funds,
                                                                   credit, and property belonging to these victims. The




20 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                          C o r e M i ss i o n A r e a s

investigation showed that John Blanchard used an
employee of the National Association of System               “...Thomas Robeson pleaded guilty to
Administrators, Inc., who was an eligible Service-             conspiracy to commit money laundering
related disabled veteran, to found Liberating Solutions        and was ordered to forfeit $2.17 million.”
as a Service Disabled Veteran Owned Small Business.
However, John Blanchard knew the disabled veteran
would have no active involvement with the business.       submitted the inflated amounts to the Government
As such, John Blanchard falsely represented Liberating    for payment. Roberson, and others acting at his
Solutions was owned and operated by a qualified           direction, submitted the fictitious invoices via wire,
disabled veteran and obtained contracts set aside by      specifically email.
law for this group.
                                                          R esult :
R esult :                                                 Previously Thomas Robeson pleaded guilty to
Amy Johnson previously pleaded guilty to making           conspiracy to commit money laundering and was
and using a false document. On November 25, 2013,         ordered to forfeit $2.17 million. On November 14,
Johnson was sentenced to three years of probation,        2013, he was sentenced to 18 months imprisonment,
ordered to pay $100 special assessment, $1000 fine        3 years of supervised release and 50 hours of
and ordered to pay restitution of $12,177, jointly and    community service. Robeson was also ordered to
severally with James Blanchard. James Blanchard           pay $2.17 million in restitution and a $100 special
previously pleaded guilty to wire fraud. On January 6,    assessment.
2014, he was sentenced to three years of probation,
10 months of home confinement, ordered to pay             FreshPoint, Inc. Pays $4.2 Million to Settle
$100 special assessment and ordered to pay joint          Allegations of Overbilling
restitution of $12,177, jointly and severally with Eric   O verview:
Behler, Joanne Blanchard, and Amy Johnson. On                     A Defense Criminal Investigative Service
February 24, 2014, John Blanchard pleaded guilty to               investigation disclosed that FreshPoint of
wire fraud. Sentencing is pending for John Blanchard,     Southern Georgia, a wholly owned subsidiary of Sysco
Eric Behler, and Joanne Blanchard.                        Corporation, allegedly violated the False Claims Act
                                                          by inflating the price of goods sold to DoD customers.
Defense Contractor President Sentenced to                 FreshPoint allegedly added market earned income
Jail After Defrauding U.S. Navy                           increases to certain fresh fruit and vegetables
O verview:                                                contracts which had been awarded to East Coast Fruit
        A joint investigation with Naval Criminal         Company and subsequently serviced by FreshPoint.
        Investigative Service (NCIS) and the Internal     From 2007 through 2009, FreshPoint allegedly
Revenue Service-Criminal Investigation Division           overcharged the Government on hundreds of sales
disclosed that Thomas Robeson, president and owner        of fresh produce by improperly inflating its prices to
of Nomad Aviation, Inc., submitted false claims to        reflect FreshPoint’s view of the prevailing market price
the Government for expenses not yet incurred. The         of goods at the time of sale.
investigation showed that Robeson, and someone
acting on Robeson’s behalf, provided the Defense          R esult :
Contract Audit Agency with four vendor invoices.          On October 25, 2013, FreshPoint of Southern Georgia
One invoice was from South Peck Aviation, which           entered into a civil settlement agreement with the
was actually a bakery Roberson and his wife owned         Department of Justice in which the company agreed
in Hawaii. Roberson provided the invoice as if South      to pay the U.S. Government a total of $4.2 million to
Peck Aviation was an unrelated, third-party vendor        settle allegations of fraud. Of this amount, the U.S.
that had billed Nomad. South Peck Aviation or             Government received $3.4 million and the relator will
Nomad actually purchased parts from third-party           receive $798,000.
vendors, marked up the costs of the purchases, and




                                                                                         OCTOBER 1, 2013 TO MARCH 31, 2014 │ 21
C o r e M i ss i o n A r e a s

         Former Sea Star Line President Sentenced to                 and Axway allegedly failed to comply with the price
         Five Years for Bid Rigging                                  reduction clause of the GSA Multiple Awards
         O verview:                                                  Schedule contract, and as a result, it contained
                 A joint investigation with the Antitrust            inflated prices allegedly causing numerous Federal
                 Division’s National Criminal Enforcement            agencies to overpay for software and other contract
         Section disclosed that Frank Peake, former president        related services.
         of Sea Star Line LLC, participated in a conspiracy from
         2005 to 2008 to rig bids, and fix rates and surcharges      R esult :
         for freight transportation by water between the             On October 23, 2013, Axway entered into a civil
         continental United States and Puerto Rico. The              settlement with the Department of Justice and agreed
         investigation revealed the three largest water freight      to pay the U.S. Government $6.2 million to resolve
         carriers serving these routes, including Sea Star, bid at   allegations that the company violated the False
         certain established prices and agreed to not compete        Claims Act. Of this amount, the relator will receive
         against each other for certain contracts in the U.S. to     $1.17 million.
         Puerto Rico trade lane.
                                                                     Kuchera Brothers Sentenced to Pay More than
         R esult :                                                   $2 Million For Fraud Against the Government
         Previously, all three freight carriers pleaded guilty and   and Conspiracy
         were ordered to pay more than $46 million in criminal       O verview:
         fines for their roles in the conspiracy to unreasonably              A joint investigation with the Naval Criminal
         restrain interstate trade and commerce. In addition,                 Investigative Service, Federal Bureau of
         former Sea Star President, Frank Peake, was found           Investigation, and the Internal Revenue Services-
         guilty of violating the Sherman Antitrust Act. On           Criminal Investigation Division disclosed that William
         December 6, 2013, Peake was sentenced to serve 60           Kuchera and Ronald Kuchera, owners and managers
         months of incarceration, three years of supervised          of Kuchera Defense Systems, Inc., conspired and
         release, 250 hours of community service, and 500            committed major fraud against DoD. The investigation
         hours of alcohol abuse treatment. He was also               disclosed, from 2004 through 2009, the Kuchera
         ordered to pay a $25,000 fine.                              brothers submitted cost certifications to DoD that
                                                                     contained unallowable expenses. The Kucheras also
         Axway, Incorporated Agrees to pay                           conspired with Defense contractor Coherent Systems
         $6.2 Million to Settle Allegations of                       International, Inc., to submit a fraudulent invoice
         False Claims                                                and filed false tax returns. As a result, the costs
         O verview:                                                  for overhead and the general and administrative
                 A joint investigation with the General Services     expenses were inflated. Kuchera was also a
                 Administration (GSA) Office of Inspector            subcontractor to Coherent on a DoD contract for the
         General (OIG) and Naval Criminal Investigative              Ground Mobile Gateway Systems’ development of a
         Service (NCIS) revealed that Axway, Inc., and its           prototype for unmanned vehicles designed to prevent
         predecessors, including Tumbleweed Communications           friendly-fire incidents. Kuchera Defense Systems
         Corporation, allegedly provided GSA with defective          submitted a fraudulent invoice to Coherent, a prime
         pricing information. In September 2001, Valicert,           contractor, for a component never manufactured or
         Incorporated (Tumbleweed’s predecessor), applied            delivered to Coherent. The Kucheras’ paid Richard
         for placement on the GSA Multiple Awards Schedule.          Ianieri, owner of Coherent, approximately $200,000
         In the application, Valicert was required to disclose       as a kickback. The Kuchera brothers’ personal and
         its commercial pricing history. This requirement was        corporate tax returns failed to disclose some business
         to ensure Government customers received the same            deductions as personal income, and they claimed the
         prices as Valicert’s commercial customers. Allegedly,       kickback to Ianieri as a business expenses on their
         Valicert knowingly provided GSA with commercial             Kuchera Defense System taxes. The inflated interim
         pricing information that was inaccurate. Tumbleweed         billing rates and fraudulent invoice resulted in false
                                                                     tax returns.




22 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                             C o r e M i ss i o n A r e a s

   “William Kuchera was sentenced to                       was contracted to provide husbanding services to
     5 years of  probation, 18 months of  home             the U.S. Navy in Southeast Asia ports. Husbanding
                                                           services include providing items and services required
     detention...and ordered to pay $500,000               by ships and submarines when they arrive at a port.
     in criminal fines, $1.08 million                      Later, U.S. Navy Commander Jose Sanchez was also
     in restitution and a $200 special                     determined to have accepted bribes from Francis in
     assessment for major fraud against the                exchange for internal Navy information. Most recently,
     Government and conspiracy.”                           GDMA executive Alex Wisidagama was found to
                                                           have participated in a related scheme to overbill the
R esult :                                                  U.S. Navy for services provided in ports throughout
Previously, Richard Ianieri pleaded guilty to making       Southeast Asia. The estimated loss to the Government
false claims and soliciting and accepting kickbacks.       as a result of this scheme is approximately
Ianieri was sentenced to 5 years of probation and          $20 million.
ordered to pay a $200,000 criminal fine. On March
22, 2013, Currency, Inc., formerly known as Kuchera        R esult :
Defense Systems, entered into a civil settlement           On December 17, 2013, John Beliveau pleaded guilty
agreement with the Department of Justice and               to conspiracy and bribery. On March 18, 2014, Alex
agreed to pay $920,434 to the U.S. Government to           Wisidagama pleaded guilty to conspiracy to defraud
resolve allegations of fraud. On November 18, 2013,        the United States. This is an ongoing investigation.
a civil final order of forfeiture valued at $900,000 was
ordered. On December 17, 2013, William Kuchera             $3.5 Million Settlement by Sikorsky Aircraft
was sentenced to 5 years of probation, 18 months of        Corporation to Resolve Allegations of False
home detention, 1,000 hours of community service,          Claims
and ordered to pay $500,000 in criminal fines,             O verview:
$1.08 million in restitution and a $200 special                    A DCIS investigation examined allegations
assessment for major fraud against the Government                  that Sikorsky Aircraft Corporation violated the
and conspiracy. On the same date, Ronald Kuchera           False Claims Act by submitting inflated costs in the
was sentenced to 5 years of probation, 18 months           pricing of spare parts. The investigation found that in
home detention, 1,000 hours of community                   negotiating four contacts with the US. Army Aviation
service, and ordered to pay $500,000 in criminal
fines, $1.07 million in restitution and a $200 special
assessment for major fraud against the
Government and conspiracy.

Glenn Defense Marine Asia Executives and
U.S. Navy Officials Involved in International
Bribery Scheme
O verview:
        A joint investigation with Naval Criminal
        Investigative Service (NCIS) disclosed that
Glenn Defense Marine Asia, Ltd. (GDMA). Chief
Executive Officer Leonard Glenn Francis bribed
U.S. Navy Commander Michael Misiewicz and NCIS
Supervisory Special Agent John Beliveau II to obtain
confidential information and other assistance related
to hundreds of millions of dollars in U.S. Navy
contracts and sensitive information from an NCIS             A junction box cover for the U.S. Army Black Hawk
                                                             Helicopter—one of several spare parts that were allegedly
investigation into GDMA. The bribes included cash,
                                                             overpaid for by the U.S. Army.
paid travel, luxury hotel stays, and prostitutes. GDMA




                                                                                              OCTOBER 1, 2013 TO MARCH 31, 2014 │ 23
C o r e M i ss i o n A r e a s

         and Missile Life Cycle Management Command,                 stolen and took other steps to assist the conspiracy. At
         Sikorsky allegedly failed to disclose accurate,            the direction of Weaver and Charboneau, fuel truck
         complete, and current cost and pricing data for U.S.       drivers used the fraudulent documents to justify the
         Army Black Hawk helicopters. As a result of the            filled trucks’ departures from FOB Fenty. After the
         inaccurate pricing data, Sikorsky allegedly submitted      filled fuel truck left the base, the fuel was simply stolen
         claims to the Government with inflated prices from         by the trucking company that supplied the fuel trucks.
         February 7, 2008 to September 8, 2011.                     Weaver and Charboneau would receive cash from
                                                                    the trucking company representative, and the cash
         R esult :                                                  was split among the three conspirators. In addition,
         On March 31, 2014, Sikorsky entered into a civil           Hightower conspired with U.S. Army Staff Sergeant
         settlement with the Department of Justice and agreed       Bilal K. Abdullah in a related fuel theft scheme.
         to pay $3.5 million to resolve allegations that it
         violated the False Claims Act.                             R esult :
                                                                    Previously, Christopher Weaver, Stephanie
         Public Corruption                                          Charboneau, Jonathan Hightower, and Bilal Abdullah
         Corruption by public officials poses a fundamental         each pleaded guilty to charges of conspiracy and
         threat to the country’s national security and overall      bribery. On October 28, 2013, Weaver was sentenced
         safety and undermines the public trust in the              to serve 37 months in prison and Hightower was
         Government. Public corruption wastes billions of tax       sentenced to serve 27 months in prison for their roles
         dollars and negatively affects DoD and the mission         in the conspiracy. Weaver and Hightower were also
         of the warfighter. DCIS combats this issue with            ordered to pay $1.22 million in restitution, jointly
         the authority, resources and expertise to conduct          with Charboneau. Hightower was also ordered to
         undercover operations, court-authorized electronic         pay an additional $466,250 in restitution for the
         surveillance, and forensic audits. Using these tools,      related fuel theft scheme with Abdullah. On February
         DCIS pursues those who undermine the integrity of          3, 2014, Charboneau was sentenced to 60 months
         the DoD acquisition system. The entire procurement         imprisonment for conspiracy and up to 87 months
         system is based on the trust and integrity of the public   imprisonment for bribery to be served concurrently.
         officials who oversee the purchase, quality, safety,       Charboneau was also ordered to pay $1.22 million
         and security of the equipment, and the services that       in restitution, jointly and severally with Weaver and
         warfighters require to carry out the mission.              Hightower. Weaver, Hightower, and Charboneau were

         Four Sentenced on Bribery Charges for
         Facilitating Thefts of Fuel in Afghanistan
         O verview:
                 A joint investigation with U.S. Army Criminal
                 Investigation Command, Federal Bureau
         of Investigation and Special Inspector General for
         Afghanistan Reconstruction determined that three
         U.S. service members and one DoD contractor
         employee accepted bribes and conspired to facilitate
         the theft of approximately $1.25 million in fuel at
         a forward operating base (FOB) in Afghanistan.
         Between January 2010 and June 2010, former U.S.
         Army Sergeant Christopher Weaver and former soldier
         Stephanie Charboneau created fraudulent documents
         authorizing the transport of fuel from FOB Fenty
         to other military bases. Jonathan Hightower, a DoD
                                                                      One DoD contractor employee and 3 U.S. service members
         contractor employee who worked at the base’s fuel            conspired to steal $1.25 million in fuel n Afghanistan.
         point, occasionally filled the trucks with fuel to be




24 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                          C o r e M i ss i o n A r e a s

each ordered to serve 36 months of supervised release         “Eisner was sentenced to 12 months and
and to pay a $200 penalty assessment. On March                 one day of  imprisonment, two years
13, 2014, Abdullah was sentenced to 12 months
and a day imprisonment and 24 months supervised
                                                               supervised release, and ordered to
release. Abdullah was also ordered to pay $466,250 in          pay a $100 special assessment and a
restitution, jointly and severally with Hightower, and a       money judgment in the amount of
special assessment fee of $200.                                $2.2 million.”

Former Defense Contractor and Wife                         R esult :
Sentenced for Fraudulent Scheme Involving                  On October 8, 2013, John Eisner pleaded guilty to
Vehicle Parts for Afghan National Army                     conspiracy to commit wire fraud. On October 11,
O verview:                                                 2013, Jerry Kieffer pleaded guilty to conspiracy to
        A joint investigation with U.S. Army Criminal      commit wire fraud. On November 12, 2013, Keith
        Investigation Command, Special Inspector           and Angela Johnson pleaded guilty to conspiracy
General for Afghanistan Reconstruction, and the            to commit wire fraud. On December 18, 2013,
Federal Bureau of Investigation determined Keith           Eisner was sentenced to 12 months and one day
Johnson and his wife, Angela Johnson, conspired            of imprisonment, two years of supervised release,
to defraud the Government of millions of dollars           and ordered to pay a $100 special assessment and
related to contracts for vehicle parts for the Afghan      a money judgment in the amount of $2.2 million.
National Army. From 2007 to 2008, Keith Johnson was        Additionally, three vehicles were seized from Eisner,
involved in purchasing vehicle parts from vendors for      valued at $79,160, which went toward payment of
vehicles used by the Afghan National Army. As part         the money judgment. On the same day, Kieffer was
of the scheme, Keith and Angela Johnson formed a           sentenced to six months of imprisonment with credit
company, Military Logistics Support. When Military         for time served, two years of supervised release,
Logistics Support solicited quotes for different vehicle   including six months of home confinement, and
parts that were needed, Angela Johnson used her            was ordered to pay a $100 special assessment and
maiden name to conceal her relationship to Keith           a money judgment in the amount of $30,964. On
Johnson and responded with quotes based on parts           February 18, 2014, Keith Johnson was sentenced
that she was able to purchase from other vendors.          to 30 months of imprisonment, two years of
Keith Johnson used his position as program manager         supervised release, and ordered to pay a $100 special
to justify awards of purchase orders for parts to          assessment. Angela Johnson was sentenced to six
Military Logistics Support without seeking competitive     months of imprisonment, two years of supervised
quotes, and in instances in which there had been           release followed by six months of house confinement,
competitive quotes, approving recommendations that         and ordered to pay a $100 special assessment.
the awards be made to Military Logistics Support. The      Collectively, Keith and Angela Johnson were ordered
Johnsons also conspired with John Eisner and Jerry         to forfeit more than $2 million.
Kieffer, employees of RM Asia, the contractor who
operated the Central Maintenance Facility in Kabul,        Former U.S. Army Reserve Captain Sentenced
Afghanistan, and used them as subcontractors to            in Bribery Scheme
Johnson’s company. Keith Johnson steered purchase          O verview:
orders for vehicle parts to Eisner’s and Kieffer’s                 A joint investigation with U.S. Army Criminal
company, Taurus Holdings. Eisner and Kieffer paid                  Investigation Command and Special Inspector
kickbacks to the Johnsons and, on occasion, engaged        General for Afghanistan Reconstruction disclosed
in collusive bidding with the Johnsons, so that Military   that former U.S. Army Reserve Captain Edward
Logistics Support could win competitions for certain       Knotts III accepted more than $90,000 in bribes from
purchase orders.                                           contractors while deployed to Iraq. From December
                                                           2005 through December 2007, Knotts entered into
                                                           an agreement with a Kuwait-based corporation to
                                                           receive a monthly fee from the corporation in return




                                                                                        OCTOBER 1, 2013 TO MARCH 31, 2014 │ 25
C o r e M i ss i o n A r e a s

         for providing confidential bidding information about        money judgment of $11 million. Khan was also
         U.S. Army contracts. Knotts received approximately          ordered to forfeit $1.3 million in bank account funds;
         $91,500 from a representative of the corporation            13 properties in Virginia, Florida, and West Virginia;
         in return for his promise to provide confidential bid       and a vehicle. Michael Alexander was previously
         information and in anticipation of the corporation          sentenced to 72 months incarceration and 36 months
         hiring him.                                                 supervised release for bribery and conspiracy to
                                                                     commit money laundering. Alexander was also
         R esult :                                                   ordered to pay $1.25 million in restitution and agreed
         Previously, Captain Edward Knotts pleaded guilty            to a forfeiture money judgment of $1.25 million. In
         to bribery. On November 14, 2013, Knotts was                2013, Oh Sung Kwon pleaded guilty to bribery of a
         sentenced to 30 months of imprisonment, 24 months           public official, conspiracy to commit bank fraud, and
         of supervised release, and was ordered to pay a $100        willful failure to file a tax return. On January 27, 2014,
         special assessment. Additionally, a criminal forfeiture     Kwon was sentenced to 46 months incarceration, 36
         money judgment in the amount of $91,500 was                 months of supervised release, and ordered to pay
         ordered against Knotts.                                     $1.18 million in non-Government restitution, a $225
                                                                     penalty assessment, and $1.18 million in a forfeiture
         DoD Contractor Sentenced for his Role in Wide               money judgment.
         Spread Bribery Scheme
         O verview:                                                  Tinker AFB Employee Jailed for Accepting
                 A joint investigation with the Federal Bureau
                                                                     Bribes
                 of Investigation (FBI), Internal Revenue Service,   O verview:
         Small Business Administration, and U.S. Army                        A joint investigation with Federal Bureau
         Criminal Investigation Command disclosed that                       of Investigations, Air Force Office of Special
         several DoD contractors paid approximately $12              Investigation, and the Department of Transportation
         million in bribes, directly and indirectly, to U.S. Army    Office of Inspector General disclosed that James
         Corps of Engineers (USACE) Program Manager Kerry            Lee Loman, a former item manager, Tinker Air Force
         Khan and approximately $1.5 million in bribes to            Base, OK, accepted large cash payments in exchange
         USACE Program Director Michael Alexander. The               for favorable treatment in the Air Force’s purchasing
         bribes were paid in exchange for technology-related         of aircraft replacement parts. Loman drove to
         contracts and subcontracts and the planned steering         Florida on multiple occasions to pick up cash bribes
         of a Government contract potentially worth $1 billion       in increments of approximately $50,000 and sent
         to a particular contractor. Among those involved            facsimiles from his residence where he calculated
         in paying bribes was Oh Sung “Thomas” Kwon, a               the bribe payments based on a percentage of aircraft
         former DoD contractor and Chief Executive Officer of        sales to the Air Force and the amount of bribes due
         Avenciatech, Inc.                                           and the amount already paid to Loman. The faxes
                                                                     showed total cash bribes in the amount of $838,200.
         R esult :
         To date, more than a dozen defendants have pleaded          R esult :
         guilty to various charges in support of this scheme         On January 29, 2014, Loman was sentenced to 30
         to defraud the Government. Previously, Kerry Khan           months incarceration and ordered to pay restitution
         was sentenced to 235 months incarceration after             in the amount of $843,200 to the DoD, a penalty
         pleading guilty to receipt of bribes and conspiracy         assessment of $300 and a money forfeiture in the
         to commit money laundering. Khan was ordered to             amount of $838,200 after being found guilty of
         pay $32.5 million in restitution to USACE, to be paid       conspiring to commit wire fraud, accepting bribes and
         jointly and severally with seven previously convicted       conflict of interest. In addition, Loman was debarred
         codefendants. This amount included an FBI forfeiture        from Government contracting until January 28, 2019.




26 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                           C o r e M i ss i o n A r e a s

DoD Contractors Bribed Former Defense                      and honest services wire fraud and bribery, and
Logistics Agency Employees to Steal Military               Bradford Newell was charged with money, property
Equipment                                                  and honest services wire fraud, bribery, and theft
O verview:                                                 of Government property. Charged individuals are
        A joint investigation with Naval Criminal          presumed innocent until proven guilty. On February 5,
        Investigative Service disclosed that Christopher   2014, Carroll Wayne Smith pleaded guilty to theft of
Whitman, co-owner of United Industrial of Georgia          Government property. Sentencing is pending.
trucking company, and Kelli Durham, a former United
Logistics Corp employee and freight transportation         Product Substitution
broker, conspired to overcharge the DoD for                DCIS supports DoD and its warfighting mission
transportation services, resulting in the loss of          through timely, comprehensive investigations of
millions of dollars to the U.S. Government. Whitman        counterfeit, defective or substandard products,
also conspired to steal and sell surplus equipment         and substituted products that do not conform with
from Marine Corps Logistics Base (MCLB)-Albany,            the requirements of the contract. Nonconforming
GA. From 2008 to 2012, at the direction of Whitman,        products disrupt readiness and waste economic
Durham overbilled the U.S. Government for freight          resources. They also threaten the safety of military
transportation services the company falsely claimed        and Government personnel and other end users.
to have provided to Defense Logistics Agency (DLA)         When substituted products are deliberately provided
at MCLB-Albany. Whitman paid nearly $1 million             to DoD, mission critical processes and capabilities
in bribes to Mitchell Potts, the former traffic office     can be severely impacted until those products are
supervisor for DLA at MCLB-Albany; Jeff Philpot, the       removed from the DoD supply chain. DCIS works with
former lead transportation assistant in the traffic        Federal law enforcement partners, supply centers
office; Shawn McCarty, another transportation              and the defense industrial base to ensure that DoD
assistant in the traffic office; and Bradford Newell,      contractors provide the correct parts and components
also a former employee of MCLB-Albany to obtain            to meet DoD requirements. DCIS actively participates
commercial trucking business from DLA. Shelby              in the Defense Supply Center- Columbus Counterfeit
Janes, a former civilian control manager of the            Material/Unauthorized Product Substitution Team
distribution center at MCLB-Albany assisted Whitman        and partners at the national level with the Intellectual
in stealing heavy equipment, such as cranes, bull          Property Rights Coordination Center, to focus on
dozers and front-end loaders from the base. Janes          preventing the proliferation of counterfeit parts.
admitted to preparing false DoD forms authorizing          Pooling the member agencies’ resources allows for
Defense Logistics Agency to release the equipment          more effective detection and removal of inferior
to Whitman who would then arrange to sell the              goods that threaten the safety of America’s soldiers,
equipment to private purchasers. Carroll Wayne             sailors, airmen and Marines.
Smith, the owner of Smith Farms, in Moultrie, GA,
admitted to assisting Whitman in selling military          Florida Contractor Illegally Provides Chinese-
equipment stolen from MCLB-Albany.                         made Parts to DoD
                                                           O verview:
R esult :                                                            A Defense Criminal Investigative Service
Previously, Shelby Janes pleaded guilty to bribing a                 investigation disclosed that Component Source
public official. Both Mitchell Potts and Jeff Philpot      Florida, owned and operated by Luis Cantos, supplied
previously pleaded guilty to receiving bribes. On          the DoD with parts that did not meet the contract
October 10, 2013, Kelli Durham pleaded guilty to           specifications. The investigation showed Cantos was
conspiracy to commit wire fraud. On January 22,            buying Chinese-made parts and unlawfully using them
2014, Christopher Whitman was indicted for money,          to fill the DoD orders requiring original equipment
property and honest services wire fraud, bribery,          manufacturer parts. The contracts were for the
and theft of Government property. On the same day,         purchase of electrical engine starters, alternator
Shawn McCarty was charged with money, property             starter assemblies and generators associated with




                                                                                         OCTOBER 1, 2013 TO MARCH 31, 2014 │ 27
C o r e M i ss i o n A r e a s

         High Mobility Multipurpose Wheeled Vehicles,                $200 assessment. R&D Metals & Chemicals, Inc., was
         forklifts and aircraft. Cantos and co-conspirator Jeffrey   sentenced to 36 months of probation, held jointly and
         Perez were later identified as employees of Metro           severally liable for the restitution, and ordered to pay
         Enginetech, Inc., and Cantos was also identified as the     a special assessment fee of $800.
         owner of LEC Technologies. Both companies provided
         parts that did not meet DoD specifications and also
         submitted false traceability documentation to the
                                                                     Health Care Fraud
                                                                     The rising costs associated with health care continue
         Defense Supply Center Columbus and the Defense
                                                                     to be a national concern. DCIS has experienced
         Supply Center Richmond using email and facsimile.
                                                                     an increase in allegations of health care fraud,
                                                                     and combatting this crime is one of DoD IG’s top
         R esult :                                                   investigative priorities. Of particular concern are
         On December 16, 2013, Jeffrey Perez pleaded guilty to       allegations of potential harm to DoD military
         conspiracy to defraud the Government with respect           members and their dependents. In addition to patient
         to claims. On February 6, 2014, Luis Cantos pleaded         harm, typical investigations scrutinize health care
         guilty to conspiracy to defraud the Government              providers participating in corruption or kickback
         with respect to claims, false claims, and conspiracy        schemes, overcharging for medical goods and
         to commit mail fraud. On March 4, 2014, Perez was           services, marketing of drugs for uses not approved
         sentenced to five months imprisonment, three years          by the Food and Drug Administration, and approving
         supervised release, ordered to pay $23,300 jointly and      unauthorized individuals to receive TRICARE health
         severally with Cantos, and a $100 special assessment.       care benefits. DCIS continues to proactively target
         Sentencing for Cantos is scheduled for May 2014.            health care fraud through coordination with other
                                                                     Federal agencies and participation in Federal and state
         Contractor Sentenced to Jail for Providing                  task forces.
         Substituted Parts to the DoD
         O verview:                                                  Janssen Pharmaceutica Products Pays More
                 A Defense Criminal Investigative Service            Than a Billion Dollars to Settle Allegations of
                 investigation disclosed that Terrance Doody         Off-Label Marketing and Kickbacks
         and his company, R&D Metals & Chemicals, Inc.,              O verview:
         provided substituted/nonconforming parts to the                      A joint investigation with U.S. Health and
         DoD through purchase orders issued by the Defense                    Human Services Office of Inspector General,
         Logistics Agency Land & Maritime, Columbus, OH. The         Food and Drug Administration (FDA) Office of Criminal
         investigation showed for the orders requiring original      Investigation and the United States Postal Service
         equipment manufacturer parts, R&D Metals delivered          Office of Inspector General, disclosed Johnson &
         the parts to DoD with labels on the outer packaging         Johnson and its subsidiary Janssen Pharmaceutica,
         that identified the parts as the required original          Inc., introduced the antipsychotic drug Risperdal into
         equipment manufacturer parts. Upon examination,             interstate commerce for non-FDA approved use and
         the parts were determined to be unauthorized                allegedly provided incentives for this off-label use
         substituted parts. The parts supplied by R&D Metals         to health care providers. Between 2002 and 2003,
         include a variety of automotive type fittings of which      Janssen introduced Risperdal, approved by the FDA
         some are considered to be critical application items        to treat schizophrenia, into interstate commerce to
         used on a variety of military vehicles and weapons          physicians and prescribers for non-FDA approved
         systems including the Nuclear Reactor Programs.             treatment of psychotic symptoms and associated
                                                                     behavioral disturbances exhibited by elderly, non-
         R esult :                                                   schizophrenic dementia patients. The investigation
         Previously, Terrence Doody pleaded guilty to wire           revealed that Janssen allegedly provided incentives to
         fraud. On November 5, 2013, Doody was sentenced             sales representatives though bonuses based on total
         to 18 months of imprisonment, 36 months supervised          sales of Risperdal in their sales areas for approved and
         release, ordered to pay restitution of $628,444 and a       off-label uses.




28 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                          C o r e M i ss i o n A r e a s

R esult :                                                     “On November 7, 2013, Filyn
On November 1, 2013, Janssen Pharmaceutica,                     Corporation...entered into a civil
Inc. entered into a civil settlement agreement with             settlement agreement with the
the Department of Justice in which the company
agreed to pay the Government a total of $1.2 billion
                                                                Department of  Justice and agreed to pay
to settle allegations of off-label marketing and also           $3.05 million to the United States to
entered into a corporate integrity agreement. Of this           resolve allegations of  false claims.”
amount, TRICARE received $8.1 million. Additionally,
on November 7, 2013, Janssen pleaded guilty to a           Lynch Ambulance Pays More Than $3 Million
criminal information charging it with introducing          to Settle Allegations of Overbilling Federal
a misbranded drug, Risperdal, into interstate              Healthcare Programs
commerce. Janssen was sentenced to pay a criminal
                                                           O verview:
fine of $334 million and pay a special assessment of
                                                                   A joint investigation with Federal Bureau
$125. In addition, the company was ordered to forfeit
                                                                   of Investigation, Department of Health and
$66 million where FDA was the forfeiture lead.
                                                           Human Services (HHS) Office of Inspector General
                                                           (OIG), and Office of Personnel Management OIG,
CareFusion Agrees to Pay $40.1 Million to                  disclosed that from 2001 through 2007, Filyn
Settle Allegations of False Claims                         Corporation, doing business as Lynch Ambulance,
O verview:                                                 allegedly billed Federal health care programs for
        A joint investigation with the U.S. Health and     transporting patients who were not “bed-confined”
        Human Services Office of Inspector General         or whose transports otherwise were not medically
and the Food and Drug Administration (FDA)-Office          necessary. Medicare, TRICARE, and other Federal
of Criminal Investigation disclosed that CareFusion        employee Health Benefits Programs paid claims for
Corporation and HealthPoint Incorporated, two wholly       medically unnecessary transports.
owned subsidiaries of Cardinal Health Incorporated,
allegedly engaged in the unlawful marketing and            R esult :
selling of Surgicept and Triseptin for use as antiseptic   On November 7, 2013, Filyn Corporation, doing
health care products without FDA approval, allegedly       business as Lynch Ambulance, Walter M. Lynch
resulting in false claims paid by the Government.          and Walter J. Lynch entered into a civil settlement
From 2008 to 2011, CareFusion allegedly submitted          agreement with the Department of Justice and agreed
or caused to be submitted claims for payment               to pay $3.05 million to the United States to resolve
for a product named ChloraPrep to Medicare,                allegations of false claims. Lynch Ambulance also
Medicaid, and TRICARE and that CareFusion caused           entered into a corporate integrity agreement with
the Department of Veterans Affairs to purchase             HHS as a result of the settlement.
ChloraPrep. CareFusion allegedly knowingly promoted
the sale of ChloraPrep products for uses that were not
approved by the FDA.                                       Illegal Technology Transfer
                                                           DCIS serves a vital role in national security through
                                                           investigations of theft and illegal export or diversion
R esult :
                                                           of strategic technologies and U.S. Munitions List items
On January 7, 2014, CareFusion entered into a civil
                                                           to banned nations, criminal enterprises and terrorist
settlement agreement with the Department of Justice
                                                           organizations. This includes the illegal transfer or
in which the company agreed to pay the Government
                                                           theft of defense technology, weapon systems, and
and the Medicaid participating states, collectively,
                                                           other sensitive components and programs. Consistent
$40.1 million. Of this amount TRICARE will receive
                                                           with its role in protecting America’s warfighters, DCIS
$724,055, and the whistleblower will receive
                                                           is an integral participant in the President’s Export
$3.29 million.
                                                           Control Reform Initiative. DCIS is a charter member
                                                           of the Export Enforcement Coordination Center, a




                                                                                         OCTOBER 1, 2013 TO MARCH 31, 2014 │ 29
C o r e M i ss i o n A r e a s

         multiagency center established to serve as a focal
         point for the coordination and enhancement of
         Government export enforcement efforts.

         Former DoD Contractor Arrested After
         Allegedly Attempting to Illegally Ship
         Sensitive Military Documents to Iran
         O verview:
                 A joint investigation with Immigration and
                 Customs Enforcement-Homeland Security
         Investigations, Federal Bureau of Investigation, and
         Air Force Office of Special Investigations disclosed that
         Mozaffar Khazaee, a citizen of both the United States
         and Iran, allegedly attempted to ship numerous boxes
         of sensitive DoD technical manuals, specifications and
         other sensitive, proprietary, and export-controlled                View through night vision goggles of a U.S. soldier manning
         material to Iran. Formerly employed as an engineer                 an M240B machine gun in Afghanistan.

         with a DoD contractor, Khazaee allegedly attempted
         to ship the documents to Iran labeled as household               Slovakian National Arrested for Violating Arms
         goods. The investigation determined that much of                 Export Control Laws
         the material related to the Air Force F-35 Joint Strike
                                                                          O verview:
         Fighter program.
                                                                                  A joint investigation with Immigration and
                                                                                  Customs Enforcement Homeland Security
         R esult :                                                        Investigations disclosed that Martin Gula, a Slovakian
         On January 9, 2014, Mozaffar Khazaee was arrested at             citizen, allegedly purchased and illegally exported
         Newark Liberty Airport, NJ, as he attempted to board             over $250,000 worth of military equipment to include
         a flight to Germany with a final destination of Iran.            night vision goggles, rifle optics, and thermal imagery
         On January 21, 2014, Khazaee was indicted on two                 devices. Allegedly the items were intended for
         counts of interstate transportation of stolen property.          international clients and prospective European buyers
         Indicted individuals are presumed innocent until                 online. Many of the items Gula allegedly acquired
         proven guilty.                                                   were directly stolen from the U.S. military.

                                                                          R esult :
                                                                          On December 18, 2013, Martin Gula was arrested by
                                                                          the London Metropolitan Police Service based on a
                                                                          U.K. provisional arrest warrant obtained pursuant to
                                                                          a U.S. arrest warrant for smuggling goods from the
                                                                          United States, international money laundering and
                                                                          violations of the Arms Export Control Act. Gula was
                                                                          held in London pending his extradition hearings until
                                                                          January 16, 2014. On that date, Gula was granted bail
                                                                          by a U.K. magistrate under numerous conditions, to
                                                                          include electronic monitoring. Gula failed to appear
                                                                          in court on February 14, 2014, as ordered and is
                                                                          presumed to have fled the United Kingdom. An arrest
                                                                          warrant has been issued by the London Metropolitan
                                                                          Police Services. Indicted individuals are presumed
           Khazaee allegedly attempted to ship documents, related
                                                                          innocent until proven guilty.
           to the Air Force F-35 Joint Strike Fighter program, to Iran.




30 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                            C o r e M i ss i o n A r e a s


INSPECTIONS
The following summaries highlight inspections,
assessments and evaluations conducted by DoD IG in
the following categories:

  •	 Health and safety.
  •	 Joint warfighting and readiness.
  •	 Administrative readiness.
  •	 Compliance.
  •	 Nuclear enterprise.


Health and Safety
DoD IG has identified health care as one of the critical
management and performance challenges facing the             DoD IG examined the Arlington National Cemetery and the
Department. The military health care system provides         Soldiers’ and Airmen’s Home National Cemetery.
services to approximately 9.5 million beneficiaries,
including active duty personnel and their families. Of     agent, the Army has assumed full responsibility for
special concern is the proper care and support to the      providing oversight and addressing operational issues
thousands of soldiers, sailors, airmen, and marines        at both cemeteries.
wounded due to combat actions in Operations Iraqi
and Enduring Freedom.
                                                           R esult :
                                                           This report notes several examples where ANC has
Medical care required by military personnel is
                                                           made great progress in their overall operations
expected to increase in the next several years,
                                                           since the June 10, 2010, directive publication. These
especially in the areas of rehabilitation and transition
                                                           include the ANC Explorer, Mapper and Geographic
care. It is critical for DoD IG to maintain vigorous
                                                           Information System, which comprise up-to-date data
oversight of the health and safety challenges facing
                                                           for the public to use for information and visiting
the Department, not only to ensure that wounded
                                                           gravesites. Another improvement is the ANC grave
warriors receive high-quality health care but that DoD
                                                           accountability system. Areas needing attention
health care dollars are spent wisely and prudently.
                                                           included the ANC structure and processes which were
                                                           seen as being insufficiently mature, stable and funded
DoD IG supports this priority by focusing its oversight
                                                           to execute the complete Army National Military
efforts on preventing and detecting fraud, waste and
                                                           Cemeteries mission set.
abuse, and improving efficiency and effectiveness
                                                           Report No. DODIG-2014-026
of the programs affecting the health and safety of
service members and employees.
                                                           Assessment of DoD Wounded Warrior Matters:
                                                           Managing Risks of Multiple Medications
Assessment of Arlington and Soldiers’ and
Airmen’s Home National Cemeteries                          O verview:
                                                                  During the fieldwork for the assessment of
O verview:
                                                                  Wounded Warrior programs, the DoD IG
        This assessment examined the Arlington
                                                           assessment team identified challenges pertaining to
        National Cemetery (ANC) and the Soldiers’ and
                                                           medication management practices. This follow-on
Airmen’s Home National Cemetery (SAHNC), which
                                                           assessment focused on DoD and service policies and
together, support more than 415,000 former service
                                                           programs intended to manage the risks associated
members and their family members. Today, SAHNC
                                                           with Wounded Warriors who were prescribed
is used for burials of residents of the Armed Forces
                                                           multiple medications during the course of their
Retirement Home-Washington D.C. As the executive




                                                                                           OCTOBER 1, 2013 TO MARCH 31, 2014 │ 31
C o r e M i ss i o n A r e a s

         treatment and recovery. Specifically, the DoD IG team     Planning for the Effective Development
         examined the policies related to reducing adverse         and Transition of Critical ANSF Enablers to
         drug events such as unanticipated side effects,           Post-2014 Capabilities Part II – Cross-Cutting
         decreased drug effectiveness, accidental overdose,        Issues of Afghan National Army Enabler
         and death. The team also examined procedures              Development
         related to disposing of medications that are expired or   O verview:
         no longer needed for treatment. Misuse of unneeded                Based on observations from the Coalition
         medications can result in similar adverse drug events.            force, DoD IG was asked to review plans
                                                                   and activities that are in place to mature enabling
         R esult :                                                 capabilities (enablers) identified as being critical to
         The report made five recommendations: one to              the ability of the Afghan National Army to conduct
         the Secretary of Defense, three to the Assistant          and sustain independent operations. This is the
         Secretary of Defense for Health Affairs, and one to the   second of two reports in a series of analyses and
         Military Services’ Surgeons General. All stakeholders     described seven enabler-related systemic challenges
         concurred with the recommendations. The Acting            facing Coalition forces today This report also provided
         Under Secretary of Defense for Personnel and              recommendations for improving the continuing
         Readiness sent a letter to the U.S. Attorney General      development of the Afghan National Army.
         requesting authority for military pharmacies to
         conduct routine take-backs of unneeded medications.       R esult :
         The Office of the Assistant Secretary of Defense for      This report is classified.
         Health Affairs has met with the Drug Enforcement          Report No. DODIG-2014-027
         Agency on the issue of medication take-back, initiated
         reviews of policy for medication management, and          Assessment of Ministry of Interior Police Force
         intends to issue comprehensive policy on improving
                                                                   Metrics (April – September 2013)
         healthcare provider education on medication
         disposal. The Army recently updated its medication
                                                                   O verview:
                                                                           DoD IG selected, summarized, and concisely
         management policy (May 2013), the Air Force is
                                                                           presented 6 months of quantitative and
         currently reviewing and updating its policy, and the
                                                                   qualitative metrics deemed indicative of progress
         Navy has concurred with the recommendation to
                                                                   toward the goal of developing a sustainable Afghan
         review policy.
                                                                   National Security Force for transition to Afghan
         Report No. DODIG-2014-040
                                                                   control by 2014. Reports are produced separately
                                                                   for the Afghan National Police (ANP) and the Afghan
         Joint Warfighting and Readiness                           National Army.
         DoD IG has identified joint warfighting and               R esult :
         readiness, and training and equipping the Iraq and        This assessment provided indications of Afghan
         Afghan National Security Forces (ANSF) as critical        National Police development over the 6-month
         management and performance challenges facing the          period, April to September 2013. The selected metrics
         Department. While the Department is continuing to         tracked ANP/Ministry of Defense (MoD) development
         equip the Iraq Security Forces through the Office of      in the areas of sustainment, professionalization and
         Security Cooperation-Iraq, operating under Chief of       ANP/MoD transition to Afghan security lead. This
         Mission authority at the U.S. Mission-Iraq, it is also    report is classified.
         engaged in the mission to train, equip and mentor         Report No. DODIG-2012-034.7
         the ANSF.

         Between now and the completion of the scheduled
         drawdown of combat forces at the end of 2014, the
         DoD will continue training, equipping, partnering
         and mentoring the ANSF to enable it to assume the
         leading security operations role.




32 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                            C o r e M i ss i o n A r e a s


Administrative Readiness                                    R esult :
                                                            DoD did not retain all required section 847 records
Section 847 Ethics Requirements for Senior                  in its designated central repository, the After
Defense Officials Seeking Employment with                   Government Employment Advice Repository (AGEAR).
Defense Contractors                                         This occurred because the Department did not:

O verview:                                                    •	 implement the 2010 DoD Inspector General
        On January 28, 2008, Public Law 110-181,
                                                                 report recommendation to transfer historical
        “The National Defense Authorization Act
                                                                 records into AGEAR when the database became
for Fiscal Year 2008,” was enacted. Section 847 of
                                                                 operational,
the law, “Requirements for Senior Department of
                                                              •	 centrally supervise section 847 activities by its
Defense Officials Seeking Employment with Defense
                                                                 decentralized Components, and
Contractors,” required all officials covered by the
                                                              •	 comply with Deputy Secretary guidance making
law to request an ethics opinion from a DoD ethics
                                                                 AGEAR use mandatory as of January 1, 2012.
counselor before starting employment with a DoD
contractor.
                                                            As a result, the assessment team concluded that the
                                                            AGEAR database was not complete, that required
The objectives of this assessment were to:
                                                            section 847 records were located in multiple and
(1) address the central database and DoD IG oversight
                                                            decentralized locations, and that the records were not
provisions of Section 847 of this public law, (2)
                                                            readily available for examination.
address subsequent direction from the House Armed
                                                            Report No. DODIG-2014-050
Services Committee (HASC); and (3) accordingly
determine:
                                                            Compliance
  •	 Whether written legal opinions required by
     section 847 were “being provided and retained          Assessment of Voting Assistance Programs for
     in accordance with the requirements of this            Calendar Year 2013
     section.” (Public Law 110-181, section 847 [b][2]).    O verview:
  •	 “The Department of Defense’s record of                         United States law requires that the inspectors
     compliance with section 847 of Public Law 110-                 general of the Army, Navy, Air Force, and
     181.” (HASC Report on the National Defense             Marine Corps conduct an annual review of the
     Authorization Act For Fiscal Year 2013).               effectiveness of their voting assistance programs
  •	 Quantitative data specified by the HASC, as            and an annual review of the compliance with
     follows:                                               voting assistance programs of that Service. Upon
         ■■ “the total number of opinions issued;           completion of their annual reviews, each Service
         ■■ the total number of opinions retained in        inspector general is required to submit to the
            accordance with section 847;                    DoD Inspector General, a report on the results of
         ■■ any instances in which a request for a          each review. The statute requires that the DoD
            written opinion pursuant to section 847         Inspector General submit to Congress a report on
            lacked a corresponding written opinion; or      the effectiveness during the preceding calendar
         ■■ in which the written opinion was not            year of voting assistance programs and the level of
            provided to the requesting official or former   compliance during the preceding calendar year with
            official of the Department of Defense by the    voting assistance programs as reported by each of the
            appropriate ethics counselor within 30 days     Service inspectors general.
            after the request for a written opinion.”




                                                                                          OCTOBER 1, 2013 TO MARCH 31, 2014 │ 33
C o r e M i ss i o n A r e a s

         R esult :                                                  coverage gaps and a lack of sourced airlift plans to
         There are five compliance focus areas associated           deploy an RTF. Moreover, some organizations are
         with the Federal Voting Assistance Program: staffing,      executing the RTF mission based on draft guidance.
         training, material distribution, communication and         Finally, mechanisms do not exist to report RTF
         information, and commander- and installation-level         readiness to the Chairman of the Joint Chief of
         involvement. The Army, Navy, Air Force, and Marine         Staff, and Commander, U.S. Northern Command,
         Corps inspectors general reported that their Service       as required. These critical pieces are still absent
         voting assistance programs were compliant with             due to the lack of priority that tasked agencies give
         relevant policy, regulation, and public law. The Service   to the RTF mission. The lack of a mission analysis,
         inspectors general also identified areas where Service     Joint Mission Essential Task Lists, disparate planning
         voting assistance programs could be improved. In           efforts, and mission execution resulted in nonuniform
         addition, the DoD Federal Voting Assistance Program        standards, task conditions, and measures; no means
         Office was reviewed regarding its progress in              exist to determine if the level of the RTF readiness is
         enhancing its voting assistance program performance        effective or timely.
         goals and indicators for annual assessment of voting
         assistance activities to enable measurement of             R esult :
         program effectiveness.                                     DoD IG recommended that:
         Report No. DODIG-2014-051
                                                                      •	 The Commander, U.S. Northern Command,
         Nuclear Enterprise                                              coordinate developing RTF Mission Analysis,
                                                                         Joint Mission Essential Task Lists, Universal Joint
         The Department needs to sustain its focus on the
                                                                         Tasks change requests (new and modification to
         nuclear enterprise, even in the face of probable
                                                                         existing), associated measures and conditions,
         funding reductions, by continuing to foster an
                                                                         and performance standards. This effort should,
         environment that emphasizes the nuclear mission and
                                                                         at a minimum, include subject-matter experts
         promotes a reliable, safe, secure, and credible nuclear
                                                                         from the Services, the Defense Threat Reduction
         deterrent. DoD IG provides oversight for evaluating
                                                                         Agency, and Joint Staff J3 and J7. A flag or
         policies, procedures, plans, and capabilities of nuclear
                                                                         general officer should coordinate and have this
         weapons; nuclear weapon platforms; and nuclear
                                                                         process tracked, until completion, by the Nuclear
         command, control, and communications.
                                                                         Command and Control System Committee of
                                                                         Principals Nuclear Weapon Accident/Incident
         Assessment of Continental United States
                                                                         Response Subcommittee. These standards
         Based Nuclear Response Task Force Programs
                                                                         should include criteria to indicate the expected
         O verview:                                                      performance of a given task.
                 The assessment’s overall objective was to            •	 The Office of the Deputy Assistant Secretary of
                 examine the Department of Defense’s ability             Defense for Nuclear Matters update guidance to
         to provide, train, organize, and equip response task            reflect the Geographic Combatant Commander’s
         forces (RTF) to support necessary responses to a                responsibility in the mission analysis and Joint
         U.S. nuclear weapon accident or incident in the                 Mission Essential Task process and give priority to
         continental United States. The U.S. Nuclear Command             publishing DoD Manual 3150.08, Nuclear Weapon
         and Control System Support Staff recommended this               Accident Response Procedures, and providing an
         assessment topic.                                               estimated publication date.
                                                                      •	 The Headquarters Air Force and the Navy develop
         Findings:                                                       respective processes to certify RTF commanders
         DoD officials have not completed actions required to            and staffs as mission-ready to the Combatant
         fully carry out DoD guidance that it issued in 2002.            Command, in accordance with Chairman Joint
         Specifically, a mission analysis for the RTF was never          Chiefs of Staff policies.
         conducted, and Joint Mission Task Lists were never           •	 The Joint Staff and the U.S. Northern Command
         created. Disparate planning efforts caused geographic           immediately identify a reporting methodology




34 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                        C o r e M i ss i o n A r e a s

     and format for the RTF Commanders for Air               Defense for Nuclear Matters before they proceed
     Force Global Strike Command and Navy Regions            with the recommendation.
     Southeast and Northwest until such time as the
     Joint Mission Essential Task Lists can be used to   This report is classified.
     report through the Defense Readiness Reporting      Report No. DODIG-2014-019
     System, as prescribed.
  •	 The U.S. Northern Command, Air Force Global         Review of DoD Requirements for Nuclear
     Strike Command, and the Joint Staff determine       Gravity Weapon Delivery Parameters
     the appropriate method of supporting the            O verview:
     logistical and operational requirements to deploy            DoD IG reviewed current DoD nuclear gravity
     the Air Force Global Strike Command Response                 weapon delivery requirements to determine
     Task Force. Stakeholders should consider            whether these requirements are excessive given the
     drafting an “Execute Order” addressing the          current capability of delivery platforms. Specifically,
     necessary requirements, capabilities, resources,    DoD IG reviewed the extent of nuclear gravity weapon
     and procedures.                                     testing conducted and compared this to testing with
  •	 The Commander, U.S. Northern Command, in            current nuclear gravity weapon capabilities for both
     conjunction with the Commander, U.S. Pacific        bomber and fighter aircraft to determine if required
     Command, update the appropriate concept             nuclear gravity weapon testing was producing
     of operations plan and operations orders to         sufficient and relevant data for weapons employment
     identify clear authorities and a clear chain-       scenarios.
     of-command for nuclear weapon incidents or
     accidents occurring in U.S. Northern Command’s
                                                         R esult :
     geographic area of responsibility, but currently
                                                         This report is classified.
     outside U.S. Northern Command’s operational
                                                         Report No. DODIG-2014-031
     area of responsibility.

Management comments DoD IG received from the
Commander, U.S. Pacific Command agreed with
the recommendations.

As a result of management comments and additional
assessment work:

  •	 The Commander, U.S. Strategic Command, and
     the Commander, U.S. Transportation Command,
     provided comments on the final report which
     were responsive to the recommendations.
  •	 DoD IG requested Commander, U.S. Northern
     Command, provide additional comments on the
     final report by January 10, 2014. Currently U.S.
     Northern Command is waiting for guidance to
     be updated by the Deputy Assistant Secretary of




                                                                                       OCTOBER 1, 2013 TO MARCH 31, 2014 │ 35
C o r e M i ss i o n A r e a s


         ADMINISTRATIVE                                                      Whistleblower Reprisal
                                                                             Investigations
         INVESTIGATIONS                                                      The Whistleblower Reprisal Investigations Directorate
                                                                             investigates and conducts oversight reviews of
         The DoD IG Office of the Deputy Inspector General                   investigations conducted by the Military Services
         for Administrative Investigations consists of two                   and Defense agency inspectors general (IGs) into
         directorates: Whistleblower Reprisal Investigations                 allegations of whistleblower reprisal made by DoD
         (WRI) and Investigations of Senior Officials (ISO).                 military service members, nonappropriated fund
         The graphic, below, depicts our progress toward                     instrumentality employees, and DoD contractor
         achieving our vision of being the model administrative              employees under Title 10 of the United States Code.
         investigation organization in the Federal Government:               WRI investigates allegations that military members
                                                                             were restricted from communicating with a member

         Accomplishments This Reporting                                      of Congress or an IG. WRI also investigates, under the
                                                                             authority of the IG Act and on a discretionary basis,
         Period:                                                             allegations of reprisal filed by DoD appropriated fund
                                                                             civilian employees. Finally, WRI investigates, under
           •	 FY 2014 National Defense Authorization                         the authority of Presidential Policy Directive 19,
              Act amended both Title 10, United States                       “Protecting Whistleblowers with Access to Classified
              Code, sections 1034 and 1587 to enhance                        Information,” complaints of reprisal or retaliation
              whistleblower protections for military and                     by employees serving in Intelligence Community
              nonappropriated fund instrumentality employees.                elements and other employees who allege an action
              DoD IG is incorporating these enhancements                     was taken in reprisal affecting their eligibility for
              in its revisions to DoD Directive 7050.06,                     access to classified information.
              “Military Whistleblower Protection,” and DoD
              Directive 1401.03, “DoD Nonappropriated Fund                   DoD IG is committed to maintaining the Department’s
              Instrumentality (NAFI) Employee Whistleblower                  whistleblower protection program as a model for
              Protection.”                                                   the Federal Government by improving the timeliness
           •	 DoD IG is also preparing to staff a DoD directive              and quality of reprisal investigations. Significant
              implementing Presidential Policy Directive 19,                 accomplishments during the reporting period include:
              “Protecting Whistleblowers with Access to
              Classified Information” within the Department.                   •	 In late March 2014, the Government
                                                                                  Accountability Office (GAO) announced a
                                                                                  follow-up review (code 351918) of the DoD IG
                                                                                  whistleblower protection program scheduled to
                                                                                  begin in late April 2014. DoD IG provided updates
                                                                                  to GAO regarding recommendations made in the
                                                                                  previous review (GAO Report No. GA0-12-362,
                                                                                  “WHISTLEBLOWER PROTECTION: Actions Needed
                                                                                  to Improve DoD’s Military Whistleblower Reprisal
                                                                                  Program,” February 22, 2012, GAO Code 351599).
         Figure 2.1 Transformation to Model Agency




               2012 – “ T R A N S F O R M A T I O N T O M O D E L A G E N C Y ” – 2016

               O RGANIZATIONAL                                                                        M ODEL
                                                     L EVERAGING TECHNOLOGY
               TRANSFORMATION                                                                         A DMINISTRATIVE
                                          TRAINING   P ERFORMANCE M ETRICS       B EST P RACTICES
                - STAFFING                                                                            I NVESTIGATIONS
                                                     Q UALITY & TIMELINESS
                - R ESTRUCTURING                                                                      A GENCY



36 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                    C o r e M i ss i o n A r e a s

  •	 Completed a Lean Six Sigma review of internal                  The Department closed a total of 495 complaints.
     processes and began implementation of                          Table 2.1 shows the number and type of complaints
     recommendations.                                               closed by DoD IG and the Service/Defense agency IGs
  •	 Maintained the DoD IG whistleblower outreach                   during first half of FY 2014.
     program and provided robust whistleblower
     protection and reprisal training to DoD IG and                 Of the 495 complaints closed this period, 334 were
     Component IG staff.                                            dismissed due to insufficient evidence to warrant
  •	 Collaborated and shared best practices with other              an investigation, 20 were withdrawn, and 141
     members of DoD IG and Federal whistleblower                    were closed following full investigations. Of the
     protection community.                                          141 investigations closed, 20 involved procedurally
  •	 Implemented process improvements for oversight                 improper mental health evaluation referrals (11
     reviews and increased staffing on the oversight                substantiated [55 percent]); 4 involved restriction
     team.                                                          from communicating with a member of Congress/
  •	 Sponsored its second Basic Whistleblower                       inspector general (3 substantiated [75 percent]); and
     Reprisal Investigator Training Course. WRI                     117 involved whistleblower reprisal (11 substantiated
     offered the course to reprisal investigators                   [9 percent]).
     from the Service Components, Combatant
     Command IGs, and other Defense agencies.                       Substantiated Whistleblower Reprisal/
     Training topics included Whistleblower statutes,               Restriction/Procedurally Improper Mental
     intake processes, interviewing, investigative                  Health Evaluation Allegations
     planning, report writing, report quality assurance               •	 A Military Criminal Investigative Office (MCIO)
     processes, DoD IG oversight, and case closure                       civilian employee threatened to administer a
     procedures. Supervisory investigators received                      letter of caution to another MCIO employee in
     management training in personnel practices, the                     reprisal for that employee’s protected disclosures
     Merit Systems Protection Board, performance                         to agency officials. DoD IG recommended
     appraisals, and discipline programs.                                management officials take appropriate corrective
                                                                         action against the employee who threatened to
Reprisal Investigations                                                  administer the letter of caution. Management
                                                                         officials relieved the employee of leadership
During the reporting period, the Department received
a total of 577 complaints involving reprisal, restriction                duties and reassigned him to a nonmanagerial
from communicating with a member of Congress/                            position.
inspector general and procedurally improper mental                    •	 An active duty Air Force lieutenant colonel
health evaluation referrals.                                             locally suspended a Federal civilian employee’s
                                                                         access to classified information in reprisal
Figure 2.2 Total Complaints Received During FY 2014 (1st Half)           for that employee’s protected disclosures to
                                  13 (2%)                                agency officials. DoD IG recommended agency
                          Mental Health Procedural                       officials restore complainant’s access to classified
            8 (1%)
      Defense Intelligence            15 (3%)                            information, and take appropriate corrective
       (PPD-19) Reprisal              Military                           action against the colonel. Corrective action is
                         22 (4%)     Restriction 107 (18%)
                       NAFI Reprisal            Civilian Reprisal        pending.
         51 (9%)
    Defense Contractor                                                •	 A supervisor issued an Air Force sergeant a letter
         Reprisal                                                        of reprimand in reprisal for reporting that her
                                                                         flight commander engaged in unprofessional
    361 (63%)
                                                                         conduct. Corrective action is pending.
     Military
     Reprisal                                                         •	 A commander took several personnel actions
                                                                         against a Navy chief petty officer (change
                                                                         in duties; suspension of access to classified
                                                                         information; adverse evaluation; and initiation
                                                                         of detachment for cause proceedings) in reprisal

Total: 577 complaints



                                                                                                   OCTOBER 1, 2013 TO MARCH 31, 2014 │ 37
C o r e M i ss i o n A r e a s

         Table 2.1 Complaints Closed During FY 2014 (1st Half)


                                         Reprisal, Restriction, and Mental Health Procedural Complaints
                                                             Closed in FY2014 (1st Half)
                                                           Total     Dismissed      Withdrawn Investigated        Substantiated   Substantiation
                                                          Closed                                                     Cases            Rate
                      Type of Complaint                                                        Closed by DoD IG
           Civilian Reprisal                                 105           100                1              4              2             50%
           Defense Intelligence (PPD-19) Reprisal               4             4               0              0              0              0%
           Military Reprisal                                 112           104                1              7              0              0%
           Defense Contractor Reprisal                        53             45               4              4              0              0%
           NAFI Reprisal                                      16             11               1              4              0              0%
           Subtotal FY 14 (1st Half)                         290           264                7             19              2             11%
           Military Restriction                                 1             1               0              0              0              0%
           Mental Health Procedural                            2              2               0              0              0              0%
           Total FY 14 (1st Half)                            293           267                7             19              2             11%
                       Type Complaint                                 Closed by Component IG with Oversight Review by DoD IG
           Civilian Reprisal                                   3              2               0              1              0              0%
           Military Reprisal                                 168             59             12              97              9              9%
           Subtotal FY 14 (1st Half)                         171             61             12              98              9              9%
           Military Restriction                                6              1               1             4               3             75%
           Mental Health Procedural                           25              5               0             20             11             55%
           Total FY 14 (1st Half)                            202             67             13             122             23             19%
           Grand Total FY14 (1st Half)                       495           334              20             141             25             18%

         Note: Two of the nine military reprisal investigations WRI conducted involved senior officials.


              for providing testimony in two IG investigations.
              The commander received refresher training on
              prohibitions against reprisal.
           •	 An Army senior rater nonconcurred with a
              favorable performance evaluation of a sergeant
              in reprisal for an earlier complaint the sergeant
              made that resulted in a commander being
              relieved of duty. The senior rater retired before
              corrective action could be taken.
           •	 Army officials referred an Army major for a
              mental health evaluation and removed him from
              the unit battle roster in reprisal for reporting that
              soldiers had been consuming alcohol in violation
              of combatant command orders. Corrective action
              is pending.




38 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                           C o r e M i ss i o n A r e a s

Corrective Actions Taken during First Half                intelligence community and allegations not suitable
of FY2014 on Whistleblower Cases Closed in                for assignment to service IGs. ISO conducts oversight
Previous Reporting Periods                                reviews of all Service/Defense agency IG investigations
  •	 An Air Force major general received verbal           of misconduct involving senior officials.
     counseling for threatening to identify and fire
     four civilian employees who reported potential       During the period, the Department received
     wrongdoing by another civilian employee to a         384 complaints of senior official misconduct and
     defense agency inspector general.                    closed 382. Of the 382 complaints closed, 243
  •	 The Army Board for Corrections of Military           were dismissed due to lack of a credible allegation
     Records (ABCMR) granted relief to a National         of misconduct and 139 were closed following
     Guard noncommissioned officer (NCO). ABCMR           investigation. Of the 139 investigations closed, 12
     concurred with DoD IG that the NCO received a        were closed by DoD IG and 127 were closed by
     derogatory evaluation report in reprisal for his     service IGs with oversight by DoD IG. Of the 139
     protected communications. ABCMR declared             investigations closed, 41 (29 percent) contained
     the rating period as “nonrated” and placed a         substantiated allegations of misconduct. DoD IG
     nonprejudicial statement in the NCO’s official       processed 334 requests for records checks, totaling
     records explaining the nonrated period of service.   3,402 names for senior official pending nomination,
  •	 An Army Lieutenant General received a                promotion, retirement and reassignment.
     Memorandum of Concern for restricting two
     subordinate officers from communicating with a       DoD IG conducted several investigations with
     DoD IG team.                                         significant congressional and media interest.
  •	 An Army Major General received a Memorandum
     of Concern for restricting a subordinate officer     Examples of Significant Senior Official Cases
     from communicating with a DoD IG team by             The following is a list of significant senior official
     forwarding an email from his Commander and           cases closed:
     directing the subordinate officer to comply with
     the restrictive order contained therein.               •	 Conducted a review of the facts and
                                                               circumstances surrounding the loss of a Medal
Investigations of Senior Officials                             of Honor award recommendation packet and
                                                               determined there was no evidence of senior
To promote public confidence in the integrity of
                                                               official misconduct.
DoD leadership, Investigations of Senior Officials
                                                            •	 A Defense agency SES misused Government
investigates and conducts oversight reviews of
                                                               resources by improperly detailing contractors in
investigations conducted by the military service and
                                                               violation of the Federal Acquisition Regulation;
Defense agency IGs into alleged misconduct
                                                               improperly accounted for his time and
by senior DoD officials (brigadier general/rear
                                                               attendance; created the appearance of a conflict
admiral and above, members of the senior executive
                                                               of interest with a subcontractor and attempted
service (SES) and senior political appointees). The
                                                               to influence the contract for the benefit of
WRI Directorate investigates allegations of reprisal
                                                               the subcontractor; did not provide an honest
involving senior officials and oversees component
                                                               response to his supervisor; and misused official
investigations of same.
                                                               time, misused a rental vehicle, improperly
                                                               scheduled travel, improperly accounted for
Misconduct allegations are noncriminal in nature
                                                               his time and attendance, and failed to use his
and typically involve ethics or regulatory violations.
                                                               Government Travel Charge Card for all travel-
Specialized units within each military department
                                                               related expenses while in a temporary duty
office of inspector general conduct the majority
                                                               status. Corrective action is pending.
of senior official investigations. ISO investigates
                                                            •	 A major general misused a Government-owned
allegations against the most senior DoD officials
                                                               vehicle. The major general was given a letter of
(three-star and above general/flag officers and
                                                               counseling.
equivalents), senior officials in the joint or Defense




                                                                                           OCTOBER 1, 2013 TO MARCH 31, 2014 │ 39
C o r e M i ss i o n A r e a s

           •	 A Defense agency SES improperly directed                               Figure 2.3 Types of Substantiated Misconduct

              a contractor to hire up to 14 individuals as
                                                                                                                        2 (3%)
              subcontractors, approved a plan for a university
                                                                                                                     Government
              and a federally funded research and development                           2 (3%)                    Programs/Projects
              center (FFRDC) to hire individuals he selected                     Procurement/Contract
                                                                                                          8 (12%)                   9 (13%)
                                                                                     Administration
              expressly for the purpose of detailing them to                                          Travel Violations          Government
                                                                                                                                   Resources
              work for him, approved the use of contracts with
              the university and FFRDC to pay their salaries                            2 (3%)
                                                                                       Security                                                     2 (3%)
              while they waited to become eligible to be
                                                                                                                                                   Pay and
              detailed, improperly self-procured airline tickets,                                                                                  Benefits
              and failed to use a Government Travel Charge
              Card while on official travel. The senior official left
                                                                                 18 (26%)
              Government service prior to the completion of                      Personnel
              the investigation.                                                  Matters




                                                                                                                                          25 (37%)
                                                                                                                                    Personal Misconduct/
                                                                                                                                      Ethical Violations




         Table 2.1 Senior Official Complaints Closed During FY 2014 (1st Half)


                                                                Senior Official Complaints
                                                                Closed in FY2014 (1st Half)
                                                                                                                  Substantiated       Substantiation
                                                        Total Closed         Dismissed            Investigated
                                                                                                                     Cases                Rate
                       Service/Agency                                                        Closed by DoD IG
           Army                                                     69                 68                   1                 0                 0%
           Navy                                                     31                 29                   2                 0                 0%
           Air Force                                                41                 41                   0                 0                 0%
           Marine Corps                                             14                 13                   1                 0                 0%
           COCOM / Defense Agency                                   93                 86                   7                 3                43%
           Other                                                     7                   6                  1                 1               100%
           Subtotal FY2014 (1st Half)
                                                                  255                 243                  12                 4                33%
           Closed by DoD IG
                       Service/Agency                                Closed by Component IG with Oversight Review by DoD IG
           Army                                                     62                                     62                12                19%
           Navy                                                     11                                     11                 4                36%
           Air Force                                                45                                     45                15                33%
           Marine Corps                                              0                                      0                 0                 0%
           COCOM / DA                                                9                                      9                 6                67%
           Subtotal FY2014 (1st Half)
                                                                  127                                     127                37                29%
           Oversight Review by DoD IG
           Total FY2014 (1st Half)                                382                 243                 139                41                29%

         Note: These figures do not include the two military reprisal cases WRI conducted involving senior officials.




40 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                         C o r e M i ss i o n A r e a s


POLICY AND                                                the auditor did not obtain sufficient evidence to
                                                          conclude that 10 of them were corrected. As a

OVERSIGHT                                                 result, the contractor might not have corrected the
                                                          deficiencies and the Government could be incurring
                                                          unnecessary material costs. In addition, DoD IG found
DoD IG provides policy, guidance and oversight to         that the DCAA field audit office did not conduct a
audit and investigations within the Department.           second followup of the remaining deficiencies in a
DoD IG also provides analysis and comments on             timely manner. DoD IG did not substantiate a second
all proposed draft DoD policy issuances, as well as       allegation that DCAA reported the entire MMAS
conducts technical assessments of DoD programs and        system as adequate. DCAA reported the MMAS as
provides engineering support for other assessments.       “inadequate in part” based on two deficiencies which
                                                          the contractor had not adequately corrected.
Audit Policy and Oversight
DoD IG provides audit policy direction, guidance,         R ecommendations:
and oversight for its auditing component; the             DCAA should rescind the MMAS followup audit report
military departments’ audit organizations, the            because the auditor did not obtain sufficient evidence
Defense Contract Audit Agency, other Defense audit        in support of the reported opinion. In accordance
organizations and public accounting firms under the       with DCAA policy, DCAA needs to initiate a full audit
Single Audit Act of 1984 . As such, DoD IG provides       of the MMAS rather than a limited audit of the
guidance and oversight for more than 6,700 DoD            remaining MMAS deficiencies. Further, DCAA should
auditors in 22 DoD audit organizations, which is nearly   assess whether auditors agency-wide are conducting
40 percent of all auditors in Federal inspector general   followup audits of business system deficiencies in a
audit organizations.                                      timely manner.

Hotline Allegation Regarding the Follow-up                R esult :
Audit of a Contractor’s Material Management               The Director of the Defense Contract Audit Agency
and Accounting System                                     agreed with the findings and adequately responded
O verview:                                                to one of two recommendations. The Director did not
       DoD IG reviewed a DoD Hotline complaint            agree to conduct an agency-wide assessment on the
       alleging that during a followup audit of a DoD     timeliness of followup audits.
contractor’s Material Management and Accounting           Report No. DODIG-2014-002
System (MMAS), a Defense Contract Audit Agency
(DCAA) auditor:                                           Investigative Policy and
  •	 concluded that numerous outstanding
                                                          Oversight
                                                          DoD IG evaluates the performance of and develops
     deficiencies were corrected without obtaining
                                                          policy for the DoD criminal investigative and law
     sufficient evidence; and
                                                          enforcement community, as well as the non-Defense
  •	 reported the entire MMAS system adequate.
                                                          Criminal Investigative Organization offices of DoD.

Findings:                                                 Review of Deoxyribonucleic Acid (DNA)
DoD IG substantiated the allegation that DCAA             Collection Requirements for Criminal
reported several MMAS deficiencies as corrected           Investigations
without obtaining sufficient evidence to support
the opinion. The Gathering Sufficient, Appropriate
                                                          O verview:
                                                                 DoD IG evaluated whether DoD and the U.S.
Evidence section of generally accepted Government
                                                                 Coast Guard authorities collected DNA samples
auditing standards requires that auditors obtain
                                                          from service members convicted of certain offenses
sufficient evidence in support of their conclusions.
                                                          and submitted them to the U.S. Army Criminal
Of the 28 deficiencies, DCAA reported as corrected,




                                                                                       OCTOBER 1, 2013 TO MARCH 31, 2014 │ 41
C o r e M i ss i o n A r e a s

                                                                           regarding their jurisdictional and legal authority to
                                                                           collect samples from individuals no longer subject to
                                                                           the Uniform Code of Military Justice.
                                                                           Report No. DODIG-2014-029


                                                                           Criminal Investigative Policy
                                                                           During the reporting period, DoD IG issued three
                                                                           policies affecting the criminal investigative arena as
                                                                           follows:

                                                                             1.	 DoD Instruction O-5505.09, “Interception of
                                                                                 Wire, Electronic, and Oral Communications
                                                                                 for Law Enforcement,” November 27, 2013.
                                                                                 The Instruction establishes policy, assigns
                                                                                 responsibilities, and establishes procedures
           DoD IG evaluated whether properly collected DNA samples
                                                                                 governing the interception of wire, electronic,
           were submitted to USACIL for analysis and inclusion in CODIS.         and oral communications for law enforcement. It
                                                                                 incorporates and cancels DoD Directive 5505.09
                                                                                 and DoD Manual O-5505.09.
         Investigation Laboratory (USACIL) for analysis and
         subsequent inclusion in the Combined DNA Index
                                                                             2.	 DoD Instruction 5525.12, “Implementation
         System (CODIS) as Federal law and DoD Instruction
                                                                                 of the Law Enforcement Officers Safety Act
         mandate.
                                                                                 of 2004 (LEOSA)” February 13, 2014. The
                                                                                 Instruction updates established policy and
         Findings:                                                               assigns responsibilities for military and civilian
         DoD and Coast Guard authorities did not submit                          law enforcement personnel within the DoD. It
         282 of the 3,536 required DNA samples to USACIL                         implements the amended LEOSA of 2004 and
         for inclusion in CODIS during the evaluation sample                     section 1089 of Public Law 112-239.
         period of June 1, 2010, through October 31, 2012.
         The evaluated agencies had an overall 92 percent                    3.	 Directive-type Memorandum (DTM) 14-
         compliance rate.                                                        002, “The Establishment of Special Victim
                                                                                 Capability (SVC) Within the Military Criminal
         R ecommendations:                                                       Investigative Organizations” February 11,
         DoD IG recommended the Secretaries of the                               2014. The DTM directs the military criminal
         Military Departments and Commandant of the Coast                        investigative organizations (MCIOs) to establish
         Guard take prompt action to submit the missing                          the investigative portion of an SVC by providing
         282 DNA samples required to be in CODIS. DoD IG                         a distinct, recognizable group of appropriately
         also recommended the Secretaries of the Military                        trained investigators to investigate allegations
         Departments and Commandant of the Coast Guard                           of all designated SVC covered offenses. It
         take prompt action to ensure DNA sample collections                     establishes policy and assigns responsibilities
         for future arrestees conform to DoD Instruction                         for the MCIOs to investigate the following
         5505.14.                                                                designated SVC covered offenses: allegations of
                                                                                 adult sexual assault offenses, domestic violence
         R esult :                                                               involving sexual assault and/or aggravated
         Secretaries of the Military Departments and the                         assault with grievous bodily harm, and child
         Commandant of the Coast Guard concurred with the                        abuse involving sexual assault and/or grievous
         report and recommendations. They agreed with the                        bodily harm.
         recommendations to promptly submit any missing
         DNA samples to CODIS but expressed concern




42 │ SEMIANNUAL REPORT TO THE CONGRESS
           4
Services
Services


         ARMY
         U.S. Army Audit Agency
         To accomplish its mission, U.S. Army Audit Agency
         (USAAA) relies on a work force of highly trained
         professional auditors, many with advanced degrees
         and professional certifications. USAAA’s staff consists
         of approximately 580 employees and is organized into
         19 functional audit teams that provide audit support
         to all aspects of Army operations.

         USAAA also maintains a presence in the U.S. Central
         Command area of responsibility assisting Army
         commanders. At the end of March 2014, it had
                                                                     USAAA reviewed whether Shadow Unmanned Aircraft System
         five deployed auditors in Afghanistan. Overall, USAAA
                                                                     platoons had a sufficient number of instructor operators.
         has deployed over 215 auditors since 2002 and
         issued more than 209 reports on Operation Enduring
         Freedom/Operation Iraqi Freedom.                          IO-certified in two ways. The Directorate of Evaluation
                                                                   and Standardization can certify operators or operators
         USAAA’s goal is to be a highly sought after and an        must attend the UAS IO course at the 2-13th Aviation
         integral part of the Army by providing timely and         Regiment in Fort Huachuca, AZ. At the course,
         valued services that focus on the evolving needs of       candidates must pass a proficiency flight evaluation
         Army leadership. To ensure its audits are relevant        to demonstrate readiness level 1 for enrollment in
         to the needs of the Army, USAAA aligned their audit       the course. The course has two consecutive phases.
         coverage with the Army’s highest priorities and high-     Each phase is 2 weeks long and can accommodate
         risks areas as determined by its enterprise-level risk    144 students per year. Phase 1 provides base-level IO
         assessment and from input from Army senior leaders.       training for Shadow, Hunter, and Gray Eagle. Phase 2
                                                                   provides platform-specific IO training.
         During the first half of FY 2014, USAAA published
         53 reports, made more than 190 recommendations,           Findings:
         and identified about $342 million of potential            USAAA concluded that the Army had only 56
         monetary benefits. A few of USAAA’s significant           percent of the IOs required for the 74 of 82 platoons
         reports are described in the following paragraphs.        reviewed. This occurred because there was:

         Audit of Aviation Requirements—Shadow                       •	 High Shadow platoon IO attrition because of
         Platoon Instructor Operators                                   IOs being promoted, separating or retiring from
         O verview:                                                     Army, or serving in non-IO positions. The Army
         U.S. Army Audit Agency (USAAA) conducted this                  certified about 493 IOs between February 2005
         audit to verify that Shadow Unmanned Aircraft                  and November 2012. However, there were only
         System (UAS) platoons had a sufficient number of               about 124 (or 25 percent) soldiers serving as
         instructor operators (IOs) to maintain readiness. IOs          IOs in the 74 Shadow platoons reviewed, as of
         are necessary within a Shadow platoon because they             November 2012;
         progress operators from readiness level 3 to readiness      •	 a low number of operators graduating from the
         level 1. Shadow operators are at readiness level 3             IO course. For example, in FY 2012, only 39 of 96
         upon completing entry-level UAS training and must              Shadow IO candidates graduated.
         progress to readiness level 1 (mission ready) and
         retain readiness level 1 before flying Shadow systems     Additionally, IOs weren’t evenly distributed between
         without an IO present. An operator can become             platoons. Of the 74 platoons reviewed, 50 percent




44 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                            Services

had only 1 or no IOs, and 80 percent had fewer than      USAAA recommended U. S. Army Training and
the draft requirement of 3 IOs per platoon. This         Doctrine Command expedite the process for
occurred because the Army didn’t have a specialty        establishing an Additional Skill Identifier for IO’s and
code or Additional Skill Identifier to identify which    convert the UAS IO Common Core Course and the UAS
operators were IO certified.                             Unit Command and Staff Leader Course to distributive
                                                         learning by third quarter of FY 2014. By implementing
The IO shortage and imbalances of IOs among              these recommendations, the Army could improve
platoons affected mission readiness. Unit readiness is   Shadow platoon mission readiness and potentially
measured against the Modified Table of Organization      save about $4.9 million between FY 2014 and FY 2019.
and Equipment requirements; and since the Army            Report No. A-2014-0008-ALA
had no requirement for IOs, it didn’t have visibility
to ensure IOs were prioritized to units deployed or      FY 14 Mine Resistant Ambush Protected
preparing to deploy. Of the active component Shadow      (MRAP) Vehicle Reset Funding Request
platoons USAAA reviewed that were in the pre-            O verview:
deployment or deployment status, 50 percent had          U.S. Army Audit Agency (USAAA) reviewed the
only 1 or no IOs, and 38 percent had only two.           processes used by the MRAP Project Office, in
                                                         coordination with the TACOM Life Cycle Management
Further, the UAS Unit Command and Staff Leader           Command’s Integrated Logistics Support Center, to
Course didn’t reach key positions in charge of the       develop the funding request and the cost estimates
Shadow UAS because it wasn’t mandatory. The leader       for the reset of MRAP vehicles. USAAA recalculated
course was designed to provide unit leaders an           an updated funding request based on the current
overview of important UAS operations and to include      quantities of vehicles identified in the MRAP reset
safety and flight instructor and mission coordinator     production schedule using the Red River Army Depot
responsibilities. In FY 2012, about 63 percent of        and Leghorn Army Depot cost estimates.
students who attended the resident course at Fort
Huachuca, AZ, were local G-2 Intelligence students.
                                                         Findings:
                                                         USAAA found the MRAP Project Office had sufficient
   “By implementing these                                processes and procedures to develop a reasonable
     recommendations, the Army could                     FY 2014 MRAP reset funding request. The funding
     improve Shadow platoon mission                      request, of about $390 million, was properly
                                                         documented and based on reasonable planning
     readiness and potentially save about
     $4.9 million between FY 2014 and
     FY 2019.”

R esult :
USAAA recommended U.S. Army Forces Command:

  •	 ensure Shadow IO candidates are prepared
     for the UAS IO course by conducting a
     comprehensive review of IO candidates’ flight
     records and ensuring IO candidates receive
     and pass the proficiency flight evaluation and
     knowledge test within 60 days of attending the
     course; and
  •	 require that Shadow platoons request an
     extension of time on station for currently
     assigned IOs when the platoon has a shortage of       USAAA reviewed the processes to develop the funding
                                                           request and cost estimates for the reset of MRAP vehicles.
     IOs and is nearing pre-deployment status.




                                                                                            OCTOBER 1, 2013 TO MARCH 31, 2014 │ 45
Services

         assumptions. However, USAAA found the funding             to 100,000 tons and an increase in the Army’s funding
         request was developed before the Army’s approval of       for conventional ammunition demilitarization over
         the MRAP Strategy, which identified a lower quantity      the last 10 years, the conventional ammunition
         of vehicles the Army planned to retain. The strategy      demilitarization stockpile grew from approximately
         directed changes to scheduled quantities in the MRAP      382,000 tons in FY 2004 to approximately 556,000
         reset program.                                            tons in FY 2013, representing a $1 billion liability. U.S.
                                                                   Army Audit Agency (USAAA) conducted this audit to
         Further, the Army planned to reset MRAP vehicles at       verify that the Army was maximizing opportunities to
         both Red River Army Depot and Leghorn Army Depot          achieve efficiencies for conventional ammunition and
         when the FY 2014 funding request was submitted.           missile demilitarization.
         However, the Red River Army Depot cost estimate was
         used for all FY 2014 reset quantities in the submission   Findings:
         because the Leghorn Army Depot cost estimate was          USAAA reported that the Product Manager
         still being developed. Therefore, the request needed      Demilitarization (PM Demil), acting under delegated
         to be updated to reflect the lower Leghorn Army           authority, proactively initiated various efficiency
         Depot cost estimate when it became available. The         studies and projects for the Conventional Ammunition
         Project Office needed to apply the cost estimate to       Demilitarization Program. However, efforts to
         recalculate the funding request and reflect a more        implement recommended actions from these studies
         accurate cost.                                            were slow to nonexistent. PM Demil appropriately
                                                                   planned the Army’s research, development, test,
            “... the Army could save about                         and evaluation efforts to focus on execution
                                                                   priorities. The Army also had established policy to
              $244 million including a $70 million
                                                                   implement Design for Demilitarization requirements
              reduction of  the FY 2014 reset request...”          to consider demilitarization in designing or modifying
                                                                   conventional ammunition. However, Army personnel
         R esult :                                                 didn’t track or report the Army’s efforts and couldn’t
         USAAA recalculated the amount of funding the              provide the status of implementation efforts. Further,
         Army needed, to reset MRAP vehicles in FY 2014.           the Army needed to improve how it executed
         The calculation was based on the current number of        conventional ammunition demilitarization operations
         vehicles the Army planned to reset at both Red River      to maximize identified opportunities to achieve
         Army Depot and Leghorn Army Depot, and allowed            efficiencies. Specifically, the Army:
         for a cost increase at Leghorn Army Depot for battle
         damage. The recalculated funding requirement for            •	 didn’t have documented long-term plans
         FY 2014 reset was about $146 million. Therefore, the           or a standard methodology for distributing
         Army could save about $244 million including a                 demilitarization workload among organic facilities
          $70 million reduction of the FY 2014 reset request            or via contract vehicles to support stockpile-
         already taken by the Army during the audit.                    reduction goals;
         Report No. A-2014-0052-ALA                                  •	 had an insufficient focus on demilitarizing top
                                                                        stockpile munitions;
         Demilitarization Efficiencies—Conventional                  •	 didn’t use open detonation efficiently; and
         Ammunition                                                  •	 had reduced competition which resulted in de
         O verview:                                                     facto sole sourcing and limited flexibility for some
         The Secretary of the Army serves as the Single                 contracted demilitarization work.
         Manager for Conventional Ammunition. As a result,
         the Army is responsible for funding and executing         R esult :
         DoD’s conventional ammunition demilitarization            The audit, which contained two recommendations
         mission. Despite having a goal to reduce the stockpile    addressed to the Assistant Secretary of the Army




46 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                        Services

(Acquisition, Logistics and Technology) and five          Island personnel coordinated with the Newport
recommendations to the Program Executive Officer          systems contractor to reconcile DD Forms 1662 (DoD
Ammunition, provided the Army with assurance of           Property in the Custody of Contractors) to the systems
consistency and continuity for the Army conventional      contractor’s property records from the Document
ammunition demilitarization operations and that           Control Management System for FY 2004 through
the Army could effectively accomplish its mission         FY 2009. In addition, personnel at Anniston Army
to reduce the growing stockpile. Though with              Depot, Pine Bluff Arsenal, and Umatilla Chemical
comment, the Assistant Secretary and the Program          Depot properly accounted for procurement-funded
Executive Officer agreed with audit findings and          equipment and Government-furnished equipment.
recommendations.
Report No. A-2014-0007-IEE                                R esult :
                                                          The actions taken by command for the four
Followup Audit of Planning for Disposal                   recommendations corrected the conditions previously
of Chemical Demilitarization and                          reported. The report contained no recommendations,
Storage Facilities                                        and the Deputy Chief of Staff, G-4 agreed with the
O verview:                                                report and the conclusion.
In FY 2011, U.S. Army Audit Agency (USAAA) issued         Report No. A-2014-0013-IEE
Report A-2011-0177-IEE, Planning for Disposal of
Chemical Demilitarization and Storage Facilities, which   Followup Audit of Funding Requirements
addressed property accountability of real property        for the Conventional Ammunition
and equipment at Chemical Agent Disposal Facilities.      Demilitarization Program
Specifically, USAAA concluded that:                       O verview:
                                                          U.S. Army Audit Agency (USAAA) followed up on
  •	 The systems contractor at the Newport Chemical       Report A-2010-0134-FFE, Funding Requirements
     Agent Disposal Facility couldn’t account for         for the Conventional Ammunition Demilitarization
     contractor-acquired property purchased with          Program. The prior audit focused on determining
     research and development funds during the            whether the Army reasonably estimated the funding
     construction of the Newport facility.                required to dispose of the conventional ammunition
  •	 Anniston Army Depot, Pine Bluff Arsenal,             demilitarization stockpile and kept pace with annual
     and Umatilla Chemical Depot didn’t properly          additions. In this report, USAAA reported that due
     account for procurement-funded equipment             to growth rates and funding processes, the stockpile
     and Government-furnished equipment, valued           had grown to more than 557,000 tons as of March
     at about $996.1 million, acquired to construct       2009 and could exceed 1.1 million tons by FY 2025,
     demilitarization facilities in their installation    representing a $2.8-billion demilitarization liability.
     property books.                                      USAAA also:

USAAA conducted this followup audit at the                  •	 concluded that the Army could save about
request of the Deputy Chief of Staff, G-4 to verify            $749 million if it received funding to reduce
that applicable commands implemented four                      the conventional ammunition demilitarization
recommendations and the corrective actions fixed the           stockpile to 100,000 tons by FY 2025;
conditions previously reported.                             •	 recommended that Deputy Chief of Staff, G-4
                                                               coordinate with the Sustaining Program Executive
Findings:                                                      Group Executive to define the conventional
USAAA reported that Army Contracting Command-                  ammunition demilitarization program’s critical
Rock Island provided reasonable assurance that                 level of requirements for their program objective
it could account for contractor-acquired property              memorandum submission at a level that would
purchased with research and development funds                  reduce the program’s stockpile to 100,000 tons
during construction of the Newport Chemical Agent              by FY 2025; and
Disposal Facility. Army Contracting Command-Rock




                                                                                         OCTOBER 1, 2013 TO MARCH 31, 2014 │ 47
Services

            “USAAA estimated the alternative                         Army Hearing Program—Hearing
              actions should result in the Army                      Conservation
              avoiding about $461 million of  the                    O verview:
                                                                     U.S. Army Audit Agency (USAAA) conducted the
              $749 million in demilitarization and
                                                                     audit to verify that the Army identified corporate-
              storage costs over a 15-year period.”                  level hearing conservation initiatives and took
                                                                     sufficient actions to implement these initiatives at the
           •	 accepted Deputy Chief of Staff, G-4’s proposed
                                                                     installation and unit level. Generally, USAAA found
              alternative actions of coordinating with the
                                                                     that the Army identified these initiatives related to
              Program Executive Group to reinstate the critical
                                                                     noise-hazard identification, health education, and
              funding requirement of a 3-percent stockpile
                                                                     enforcement. However, USAAA’s review at five sites
              reduction for the FY 2012 through FY 2017
                                                                     showed that the Army could improve its strategy
              program objective memorandum submission.
                                                                     for these implementing initiatives at installations
              USAAA estimated the alternative actions should
                                                                     and units.
              result in the Army avoiding about $461 million of
              the $749 million in demilitarization and storage
              costs over a 15-year period.
                                                                     Findings:
                                                                     Installation personnel generally conducted surveys
                                                                     to identify noise-hazardous areas. However, one of
         Findings:                                                   five sites used a higher exchange rate of 5 decibels
         USAAA reported that Deputy Chief of Staff, G-4
                                                                     to calculate its average noise exposure instead of
         implemented the agreed-to actions by defining the
                                                                     the Army-required 3-decibel rate. The installation
         critical level of requirements at approximately
                                                                     received a waiver in 2002 (which expired in 2004) that
         $185 million for conventional ammunition
                                                                     allowed it to use standards from the Occupational
         demilitarization, which would allow the Army to
                                                                     Safety and Health Administration instead of the more
         keep pace with annual additions and achieve a
                                                                     stringent Army requirements. As a result, personnel at
         3-percent stockpile reduction. Although the Army only
                                                                     this site were potentially exposed to hazardous noise
         funded conventional ammunition demilitarization
                                                                     for longer periods than prescribed by Army policy. In
         at 58-percent of the defined critical funding
                                                                     addition, two sites didn’t identify all noise-hazardous
         requirements, it kept pace with the 64,461 tons in
                                                                     areas in the Defense Occupational and Environmental
         annual additions and achieved a 3.1-percent
                                                                     Health Readiness System–Industrial Hygiene primarily
         (17,490 tons) reduction to the stockpile in FY 2012. As
                                                                     because guidance was unclear as to whether military-
         a result of the reduction in FY 2012, the Army should
                                                                     unique noise-hazardous areas (such as live fire ranges)
         realize savings of about $32.8 million in FY 2012
                                                                     should be included. As a result, some soldiers and
         through 2017. However, because the Army funded
                                                                     civilians working in these areas may not have been
         only about half of the defined critical requirements,
                                                                     included in the Army’s Hearing Conservation Program.
         there’s no assurance of similar stockpile reductions or
         related cost avoidances for the future.
                                                                     Additionally, four of five sites effectively conducted
                                                                     hearing conservation training for civilian employees
         R esult :                                                   and basic trainees. However, some installations
         The report contained no recommendations but did             didn’t have processes to ensure active duty soldiers
         suggest two actions for the Product Manager for             received mandatory training or documented the
         Demilitarization to capitalize on identified efficiencies   completion of training. This occurred because Army
         and follow updated forecasting guidance to address          guidance didn’t require these things. Consequently,
         funding shortages and identified forecasting                the Army may not have met its statutory
         inaccuracies. The Director of Supply for the Deputy         requirements to provide this training to all noise-
         Chief of Staff, G-4 agreed with the report’s conclusion,    exposed personnel. In addition, most installations
         suggested actions, and monetary benefits.                   didn’t have processes to enforce hearing protection or
         Report No. A-2014-0023-IEE                                  inspection requirements. By not implementing proper
                                                                     enforcement mechanisms, soldiers and civilians
                                                                     weren’t held accountable for noncompliance with
                                                                     hearing conservation requirements.

48 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                      Services

R esult :                                                  •	 The Guard required unit commanders to review
If the Army’s implementation of the initiatives at the        attendance data after the unit administrator
installation and unit level don’t improve, costs the          electronically entered the data for payment.
Army reimburses the U.S. Department of Labor for           •	 The Reserve required soldiers’ signatures for each
hearing claims could continue to increase (thereby            unit training assembly attended.
further reducing scarce resources for Army use), and       •	 The Reserve’s regulatory guidance clearly defined
disability compensation claims for hearing loss at the        the requirement to maintain all attendance
U.S. Department of Veterans Affairs could continue            documentation for 6 years and 3 months.
to rise. The Deputy Assistant Secretary of the Army,
Military Personnel and Quality of Life agreed with our   While current regulatory guidance is sufficient,
conclusion and recommendations.                          adoption of these best practices within the
Report No. A-2014-0038-IEE                               Components would mitigate the opportunity for
                                                         attendance manipulation, place accountability on
Audit of Reserve Components Drill Pay                    the soldier for attendance, and provide a stronger
                                                         audit trail.
O verview:
                                                         Report No. A-2014-0053-IEF
U.S. Army Audit Agency (USAAA) conducted this
audit to verify that the Army Reserve and Army
National Guard had appropriate controls in place to      Army Emergency Relief Operations
mitigate potential fraudulent inactive duty training     O verview:
pay. The review included micro and macro fraud           U.S. Army Audit Agency (USAAA) audited whether
risk assessment tests. The micro tests compared          Army Emergency Relief (AER) had appropriate
selected units’ hardcopy attendance records to           internal controls in place and operating to ensure that
the Component’s electronic attendance data. The          personnel processed only legitimate grants.
electronic attendance data was then compared to
Defense Finance and Accounting Service pay data.            “Based on USAAA’s review of
USAAA’s macro tests analyzed all Army Reserve and
Army National Guard inactive
                                                              information in paper case files and
duty training pay transactions from October to                Samaritan, ... 160 grants totaling
December 2012.                                                about $223,000 didn’t have sufficient
                                                              documentation to support the financial
Findings:                                                     assistance requested and provided.”
USAAA analyzed nearly 12,000 unit-training
assemblies from four units in the Reserves and four      Findings:
units in the Guard. In addition, USAAA completed         AER needed to improve its internal controls to ensure
tests on 22 million pay records from October to          that personnel processed only legitimate grants. Army
December 2012. These tests identified no indicators      Community Service directors (or their equivalents),
of potential fraudulent activity, but did find a few     at the four section offices reviewed during the audit,
immaterial administrative errors. USAAA concluded        generally needed to strengthen their oversight of AER
that internal controls and separation of duties worked   operations. Based on USAAA’s review of information
well in minimizing opportunities for fraudulent pay      in paper case files and Samaritan, the software used
associated with inactive duty training attendance.       to process grants, 160 grants totaling about $223,000
                                                         didn’t have sufficient documentation to support
R esult :                                                the financial assistance requested and provided. As
Because the audit findings were positive, the report     a result, the Army and Headquarters AER had little
didn’t have any recommendations but identified best      assurance that personnel safeguarded and protected
practices in each Component. Specifically:               AER funds.




                                                                                       OCTOBER 1, 2013 TO MARCH 31, 2014 │ 49
Services

         R esult :                                                 pharmacy managers. Additionally, the Office of the
         By implementing USAAA’s recommendations, the              Surgeon General staff improved the utilization of
         Army and Headquarters AER strengthened their              funds credited for the turn-in of outdated medication.
         internal controls over AER operations. Headquarters       Specifically, they contacted individual medical
         AER improved its Section Audit Checklist so that it was   activities to ensure these funds were expended
         a more effective tool for evaluating internal controls    before expiration, which resulted in a dramatic drop
         and assessing AER operations. Headquarters AER            in reverted funds ranging from a high of more than
         incorporated additional functionality into their new      $500,000 in June 2011 to less than $8,000 in April
         software (netForum) to better document and monitor        2012 and $0 in June 2012.
         financial assistance requested by and provided to
         soldier and their families. These changes will ensure     R esult :
         AER can continue its mission of providing emergency       USAAA made three recommendations to improve the
         financial assistance to soldiers and family members.      processes to identify the most economical purchases
         Report No. A-2014-0042-IEI                                and improve transparency over turn-in credits in
                                                                   prime vendor accounts. USAAA recommended
         Pharmaceutical Purchases, U.S. Army                       U.S. Army Medical Command (MEDCOM) appoint
         Medical Command                                           a single, command-wide action officer to ensure
         O verview:                                                that price change information is distributed to
         The Defense Logistics Agency (DLA) reports about          ordering personnel at Army pharmacies, as well
         $895 million annually in prescription drug purchases      as to revise procedures to conduct monthly credit
         for Soldiers and family members, filling both Army        reconciliations and properly authorize payments from
         physician and civilian-provider prescriptions.            the prime vendor to reverse distributors. USAAA also
         Therefore, it is in the Army’s best interest to obtain    recommended that DLA Troop Support take action to
         the best value for its purchases. Army pharmacies         improve the accuracy of information reported in the
         also participated in DLA’s Pharmaceutical Reverse         Best Pharmacy Report. At a minimum, they needed to
         Distribution Program, which helps pharmacies return       revalidate software programming in the automated
         drugs that are at or near expiration for a possible       drug pricing comparison tool to address erroneous
         credit. During FY 2012, drug manufacturers issued         pricing and amounts.
         about $19.1 million of credits to the Army. U.S. Army
         Audit Agency (USAAA) conducted this audit to verify       MEDCOM agreed to appoint an Army pharmacy
         that medical treatment facilities made use of available   supply officer to work at DLA Troop Support and
         contracts for purchases and that those purchases
         were the most cost-effective. Additionally, USAAA
         verified that the facilities made use of vendor credits
         for returned and expired drugs.

         Findings:
         Army pharmacies generally made purchases at the
         lowest contracted price available. Pharmacy staff
         routinely researched the ordering system for updated
         prices on cost-effective drug alternatives when
         ordering name-brand and generic drugs from prime
         vendor contracts. As a result, the savings from their
         purchasing efforts was more than $12.9 million in
         FYs 2011 and 2012. Pharmacies made cost-effective
         purchases despite limitations in administrative
         tools used to evaluate best value. Specifically, some
         DLA reports used for performance management                 USAAA reviewed available contracts for cost-effective
                                                                     prescriptions purchases.
         had outdated information and weren’t useful to




50 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                      Services

revised Army Regulation 40-3, Medical, Dental, and       and a cost-benefit analysis to determine staffing
Veterinary Care, to support the procedural changes       authorizations for the FY 2015 through 2019 Program
to managing turn-in credits. The Assistant Secretary     Objective Memorandum.
of the Army, Manpower and Reserve Affairs, agreed
with the recommendations and felt that MEDCOM’s          Also, USAAA concluded that the current expedited
planned actions to appoint a pharmacy officer to         professional and engineering support services-BPA
work with DLA will improve communication and             wasn’t the most appropriate acquisition vehicle to
coordination between the two organizations. They         staff the training centers. Under the BPA, which was
also agreed with MEDCOM’s effort to revise the           in place prior to fully developing the CSF2 training
governing regulation.                                    center concept, contractors were required to provide
Report No. A-2014-0019-IEM                               systems engineering and support services, whereas
                                                         the CSF2 training center’s mission is to provide
Audit of the Implementation of                           performance enhancement and resilience training.
Comprehensive Soldier and Family Fitness                 U.S. Army Material Command legal personnel agreed
Program Training Centers                                 that using the BPA to staff the training centers was
O verview:                                               outside the BPA’s scope. Based on prior legal review
The Army Surgeon General asked U.S. Army Audit           in 2006, the use of the BPA had been considered the
Agency (USAAA) to review several of the programs         appropriate acquisition vehicle. The Army Center for
included in the Ready and Resilient Campaign,            Enhanced Performance requested services to acquire
which was signed by the Secretary of the Army in         systems engineering support to develop biometric
March 2013. Therefore, USAAA audited selected            diagnostics equipment to measure the way the mind
aspects of the Comprehensive Soldier and Family          and body work together to help soldiers with life
Fitness (CSF2) Program which focuses on helping          skills. However, the CSF2 program no longer required
build resilience and enhance performance of the          the systems engineering support services. Instead,
total force. USAAA focused on CSF2 training centers      the training centers were now staffed with sports
and verified that the program established guidance,      psychologists. As a result, the BPA was no longer the
funding, and standardized staffing levels before         appropriate acquisition vehicle.
establishing additional centers. Also, the CSF2
program director asked USAAA to review whether the       Additionally, USAAA concluded the contracting
U.S. Army Aviation and Missile Command’s Expedited       officer’s representative didn’t designate the
Professional and Engineering Support-Blanket             responsibilities of the technical monitor for providing
Purchase Agreement (BPA) was the appropriate             contract surveillance in writing. Although the
acquisition vehicle to staff the training centers.       technical monitor established controls to monitor the
                                                         contractors, the technical monitor didn’t maintain
                                                         documentation to support surveillance activities. As a
Findings:
                                                         result, the Army didn’t have full assurance the Army
USAAA concluded that for the CSF2 program training
                                                         received the services it paid for.
centers, command was in the process of solidifying
guidance, developing a concept plan to support
requesting funding for the training centers, and         R esult :
validating a staffing model to right-size existing and   USAAA recommended that CSF2 not establish six
future training centers. During the course of the        planned training centers using the BPA. Because of
audit, command was proactive and completed the           this, the Army was able to reallocate $1.4 million of
draft CSF2 Program regulation in July 2013, and it       the $4.9 million it received in FY 2013 for funding the
was staffing the regulation through Headquarters         expansion. USAAA also recommended that command
Department of the Army functional proponents. In         enhance contract oversight to ensure the Army
addition, command initiated a concept plan to request    receives the services it pays for, with which the
approval of the program’s organizational restructure.    Army agreed.
This included a change in staffing requirements          Report No. A-2014-0022-IEM




                                                                                       OCTOBER 1, 2013 TO MARCH 31, 2014 │ 51
Services

         Audit of Management of the e-Profile Process               no longer needed access to the system because
         O verview:                                                 responsibility for this function was decentralized and
         U.S. Army Audit Agency (USAAA) audited U.S. Army           no procedures were in place to address this issue.
         Medical Command’s (MEDCOM’s) Electronic Profiling          Without this control, users could have unauthorized
         System (e-Profile) to determine whether personnel          access to soldiers’ personal and medical information
         used e-Profile to document medical limitations for         once the users left the unit.
         soldiers and manage the overall physical profile
         process.                                                   R esult :
                                                                    USAAA made recommendations to both MEDCOM and
         Findings:                                                  U.S. Army Forces Command. USAAA recommended
         USAAA concluded that medical personnel used                that MEDCOM submit a system change request to
         e-Profile to manage the physical profile process.          determine the feasibility of e-Profile automatically
         The proactive approach that MEDCOM took to                 calculating the total elapsed days for a specific profile,
         implement e-Profile increased the ease with which          request funding for the change, and ensure the
         medical and unit personnel tracked physical profiles.      change is implemented. USAAA also recommended
         Medical personnel used e-Profile to write profiles and     that both MEDCOM and U.S. Army Forces Command
         document soldiers’ medical limitations. In addition,       issue guidance that directs unit commanders to
         medical personnel responsible for managing the             register in e-Profile. Lastly, USAAA recommended that
         medically-not-ready population used e-Profile as their     U.S. Army Forces Command develop procedures to
         primary source to get profile history information to       update access to the units’ e-Profile system when user
         determine how long a soldier had been on a specific        roles or positions change. Commands concurred with
         profile. This provided medical personnel more              the recommendations and began implementation.
         visibility over soldiers with medical conditions that      Report No. A-2014-0047-IEM
         could bar them from deploying, enabling medical
         personnel to recommend appropriate medical care.           Sexual Assault-Related Phone Numbers–First
         The e-Profile system also facilitated communication        Three Tests
         between medical providers and unit commanders              O verview:
         about the health and well-being of soldiers. The           U.S. Army Audit Agency (USAAA) verified that sexual
         emphasis MEDCOM placed on converting paper                 assault victims can successfully contact a sexual
         profiles into the electronic format helped it more         assault response coordinator or sexual assault victim
         readily identify the medically-not-ready population.       advocate using sexual assault-related phone numbers
                                                                    posted on Army websites. DoD Directive 6495.01,
         However, USAAA identified system improvements              Sexual Assault Prevention and Response Program,
         that can enhance medical personnel’s performance           requires Military Services to have available an
         and overall system administration. Specifically,           immediate, trained sexual assault response capability
         medical management center and unit personnel used          for each report of sexual assault in all locations.
         spreadsheets to calculate the total number of days         Though the response time may be affected by
         a soldier was on profile, because system-generated         operational necessities, sexual assault victims are to
         reports didn’t accurately reflect this number. As a        be treated as emergency cases.
         result, personnel expended a significant amount of
         time calculating this metric for each soldier. Secondly,
         unit commanders didn’t always register to be e-Profile
                                                                       “The first cold call test resulted in 67
         users because MEDCOM guidance didn’t specifically               of  105 numbers called were mostly
         require them to register. Consequently, MEDCOM                  not answered, forwarded to other
         wasn’t able to fully ensure that all unit commanders            unanswered numbers, didn’t result in a
         were fully aware of the health and welfare of their             return call when auditors left messages,
         soldiers. Lastly, e-Profile system administrators               or were to disconnected number.”
         didn’t have an effective way to identify when a user




52 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                          Services

Findings:                                                   R esult :
USAAA tested sexual assault-related phone numbers           During the audit, the SHARP Program Office
posted on Army websites to verify that sexual               established an aggressive oversight role to help
assault victims could successfully contact a sexual         ensure that it and Army subordinate commands
assault response coordinator or sexual assault victim       perform monthly testing and reporting on the success
advocate. The first cold calls to these numbers had a       of testing of 24/7 phone numbers. A summary of
very low rate of success (36 percent); two succeeding       overall Army test results are reported to the Deputy
rounds had higher success rates at 84 percent and 80        Chief of Staff, G-1 and to the Secretary of the Army.
percent, respectively.
                                                            The capability for sexual assault victims to contact
The first cold call test resulted in 67 of 105 numbers      a sexual assault response coordinator or sexual
called were mostly not answered, forwarded to other         assault victim advocate using phone numbers
unanswered numbers, didn’t result in a return call          posted on Army Websites has improved. However,
when auditors left messages, or were to disconnected        consistent and persistent actions are still required at
numbers. Other unsuccessful calls went to offices or        all Army levels to ensure phone numbers posted on
persons not associated with a sexual assault response       Websites are correct and that a sexual assault victim
coordinator or sexual assault victim advocate.              can successfully reach a sexual assault response
                                                            coordinator or sexual assault victim advocate for
USAAA quickly notified the Offices of the Assistant         needed support.
Secretary of the Army, Manpower and Reserve                 Report No. A-2014-0046-MTH
Affairs; Deputy Chief of Staff, G-1; and the Army’s
Sexual Harassment/Assault Response and Prevention           Army National Guard Operating Tempo
(SHARP) Program of the results. The Vice Chief of           Funds Use
Staff, Army, and Deputy Chief of Staff, G-1 promptly        O verview:
issued directives, instructions and policy guidance         U.S. Army Audit Agency (USAAA) reviewed the use
to commands, Service Component commands, and                of Army National Guard (ARNG) operating tempo
direct reporting units to begin correcting for the          (OPTEMPO) funds in the Army due to concern
unsuccessful calls and the problems found with sexual       about the amount of OPTEMPO funds that were
assault-related phone numbers posted on websites.           being migrated for non-OPTEMPO requirements,
Of the unsuccessful calls, 58 of the 82 numbers taken       particularly for base operations and information
from the Department of the Army SHARP website               technology equipment and services. The purpose of
were unsuccessful. When USAAA informed personnel            OPTEMPO funds is to support home station training.
at the SHARP Program Office, they said they hadn’t          USAAA reviewed FYs 2011 and 2012 ARNG OPTEMPO
updated numbers for several months. The office              funds use at the ARNG Directorate level, California
immediately established a process and checklist for         ARNG, and Pennsylvania ARNG to verify whether
updating these numbers.                                     these activities used OPTEMPO funds for OPTEMPO
Due to Headquarters’ Department of the Army                 requirements.
actions after the first test of calls, the next two tests
had better results. On April 6, 2013, USAAA called
55 24/7 sexual assault hotline numbers, and 46 calls           “ In addition, ARNG didn’t ensure
(84 percent) were successful. On May 10, 2013,                   that activities obtained the appropriate
USAAA called 88 24/7 hotline numbers, and 70 calls               waivers before migrating OPTEMPO
(80 percent) were successful. The reasons for the                funds for non-OPTEMPO
unsuccessful calls in these two tests were similar to
                                                                 requirements.”
the first test. Responsible installation and command
sexual assault response coordinator personnel
informed USAAA of actions taken or planned to               Findings:
correct for these unsuccessful calls.                       USAAA determined that ARNG generally used
                                                            OPTEMPO funds for OPTEMPO requirements during
                                                            FY 2011 and FY 2012. However, USAAA identified




                                                                                           OCTOBER 1, 2013 TO MARCH 31, 2014 │ 53
Services

         that various ARNG activities migrated $25.7 million      Support System standards. In 2011, the Army awarded
         (about 16.5 percent) of $155.3 million of OPTEMPO        an enterprise-level contract to four prime vendors to
         funds for non-OPTEMPO requirements, primarily            provide an integrated support solution for acquiring
         for base operations support and information              training support contracted services. The contract,
         technology requirements. This occurred because           valued at an estimated $290 million over a 5-year
         Headquarters Department of the Army guidance was         period, was expected to minimize redundancies and
         unclear regarding OPTEMPO migrations and ARNG’s          leverage Army requirements and economies of scale
         responsibilities related to the approval process for     by consolidating common requirements.
         OPTEMPO migration waivers. In addition, ARNG
         didn’t ensure that activities obtained the appropriate
         waivers before migrating OPTEMPO funds for non-
                                                                     “Since 2011, the Army had reported
         OPTEMPO requirements. This happened because                   about $9.5 million of  cost savings and
         it issued unclear guidance, issued guidance that              improved management controls.”
         contradicted Headquarters Department of the Army
         guidance, or didn’t issue guidance annually to its       Findings:
         states and territories.                                  USAAA determined that the Training Support
                                                                  System-Enterprise contract was an effective tool for
         R esult :                                                obtaining high quality training support in a cost-
         As a result, the Army and ARNG didn’t have full          efficient manner. Since 2011, the Army had reported
         oversight of OPTEMPO funds used for non-OPTEMPO          about $9.5 million of cost savings and improved
         requirements for planning and decision making            management controls because of the Training
         purposes. This potentially exposed ARNG activities       Support System-Enterprise contract. However, the
         to increased risk that commanders would be unable        Army continued to use other contract mechanisms
         to accomplish their training mission in the event of     to acquire Training Support System services because
         budget constraints. Therefore, USAAA recommended         it didn’t require that all activities use the enterprise-
         that the Army update the OPTEMPO management              level contract to satisfy their training support
         instructions and ARNG develop a migration waiver-        requirements. Additionally, USAAA determined that
         approval process for the directorate, states, and        the Army generally awarded and administered the
         territories that requires an approved waiver before      Training Support System-Enterprise contract in a
         migrating OPTEMPO funds for non-OPTEMPO                  manner consistent with sound business practices and
         requirements. These actions should strengthen            regulatory guidance. However, USAAA identified a few
         oversight of OPTEMPO migrations and provide a more       areas needing improvement. Specifically, although
         accurate reflection of ARNG OPTEMPO fund use for         contracting personnel completed independent
         budgetary decisions.                                     Government cost estimates, the estimates didn’t
         Report No. A-2014-0048-MTT                               fully comply with prescribed guidance. Also, two task
                                                                  orders managed at higher command levels didn’t have
         Training Support System-Contracting                      contracting officer’s representatives appointed at the
         O verview:                                               installation level to provide daily contract surveillance;
         U.S. Army Audit Agency (USAAA) audited the Training      and Government personnel didn’t verify the accuracy
         Support System-Enterprise Mission Support Services       of labor hours contractors entered in the Contractor
         contract to verify that the contract was an effective    Manpower Reporting Application system.
         tool for obtaining high quality training support in a
         cost-efficient manner at continental United States       R esult :
         (CONUS) installations. Historically, the Army executed   As a result, the Army may not have maximized the
         redundant training support contracts, which had          benefits associated with using the Training Support
         limited potential for use across the Training Support    System-Enterprise contract to obtain training support
         System spectrum. This resulted in many separate          services. Also, the Army’s assurance that award
         contracts, managed by many separate agencies, which      amounts were fair and reasonable, goods and services
         made it very difficult to adhere to Army Training        were received in full accordance with performance




54 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                      Services

work statements, and labor hours were accurately         a juvenile female in a sexual manner; and spoke in a
reported by vendors was hindered. USAAA made             sexually explicit manner to another juvenile female.
recommendations that will provide more assurance
that the Army acquires Training Support System           R esult :
services in the most cost efficient manner at CONUS      On January 10, 2014, during a general court-martial,
installations and will allow the Army to maintain        at Fort Hood, Guardado was convicted of aggravated
better control and visibility over Training Support      sexual contact with a child, sexual assault of a child,
System contract operations.                              indecent liberty with a child, indecent acts upon a
Report No. A-2014-0025-MTT                               child, and indecent assault. Guardado was sentenced
                                                         to eight years confinement, reduction in rank to E-1,
U.S. Army Criminal Investigation                         forfeiture of all pay and allowances and sex offender
                                                         registration.
Command
                                                         Production and Distribution of Child
Significant Activities                                   Pornography and Rape and Sodomy of a Child
                                                         O verview:
Rape of a Child                                          Criminal Investigation Division at Fort Leavenworth,
O verview:                                               KS, was notified by a soldier, who had purchased a
Criminal Investigation Division at Schofield Barracks,   laptop computer from Sergeant Jacky D. Freeman’s
HI, was notified that a 17-year-old girl was being       wife, that the computer contained suspected child
treated for injuries she sustained when she was raped    pornography. Freeman was interviewed and admitted
by her stepfather, identified as Sergeant 1st Class      to possessing and distributing child pornography as
Charles Bonilla. Investigation determined Bonilla had    well as indecent pictures of a four-year-old girl whom
performed unlawful sexual acts with his stepdaughter     he babysat. Coordination with the Federal Bureau of
on multiple occasions since she was eight years old.     Investigations (FBI), Kansas City, MO, was made as
                                                         the investigation determined Freeman distributed
R esult :                                                child pornography to individuals believed to be
On December 19, 2013, during a general court             civilians. Forensic examination of Freeman’s digital
martial, at Schofield Barracks, Bonilla was convicted    media devices by the FBI revealed indecent behavior
of rape of a child, carnal knowledge with a child, and   involving Freeman’s one-year-old daughter in images,
sodomy with a child. He was sentenced to 35 years        which he distributed via the internet. Other images
confinement, reduction in rank to E-1, sex offender      were also found depicting sexually explicit conduct
registration, and a dishonorable discharge.              with a four-year-old girl Freeman babysat.

                                                         R esult :
Indecent Assault involving Children                      On November 12, 2013, during a general court-
O verview:                                               martial, at Fort Leavenworth, Freeman pleaded guilty
Criminal Investigation Division at Fort Hood, TX,        and was convicted of possession, production, and
received information that Master Sergeant Alan S.        distribution of child pornography; rape and sodomy
Guardado had sexually assaulted his daughter. During     of a child; and sexual assault of a child. Freeman was
the course of the investigation, three additional        sentenced to life in prison without the possibility
victims were discovered at various military bases        of parole (restricted to 45 years under a pretrial
where Guardado had served as a youth soccer coach        agreement), reduction in rank to E-1, forfeiture of all
dating back to 1994. The investigation determined        pay and allowances, sex offender registration, and a
that Guardado sexually assaulted his daughter; forced    dishonorable discharge.
a juvenile female to expose herself to him; touched




                                                                                       OCTOBER 1, 2013 TO MARCH 31, 2014 │ 55
Services

            “Bennett concealed the stolen items in a               the Federal Bureau of Investigation. Both of Halpine’s
              military shipping container...In total,              stepdaughters were forensically interviewed and
                                                                   both revealed they had been sexually assaulted for
              Bennett stole nearly $1.3 million worth              approximately six years. During the interviews of
              of  U.S. Government property.”                       the stepdaughters, two additional juvenile females
                                                                   (one age 8 to 9 and one age 2 to 3 at the time) were
         Conspiracy and Theft of Government Property               identified as friends who regularly visited the family’s
         O verview:                                                residences in Arkansas and Maryland. Interviews
         While deployed and assigned to Contingency                of these juvenile females revealed Halpine sexually
         Operating Base Speicher, Iraq, between October            assaulted them on various separate occasions.
         2008 and October 2009, Chief Warrant Officer 3            Additionally, a CID digital forensic examiner conducted
         Kurt A. Bennett was alleged to have conspired and         a forensic analysis of 44 items of digital evidence
         stolen Government property. Criminal Investigation        collected during the investigation. The analysis
         Division at Fort Bragg, NC, in a joint investigation      revealed 31 images and 3 videos depicting child
         with Defense Criminal Investigation Service, the          pornography, and 1,069 file fragments depicting
         Federal Bureau of Investigation, and the Defense          suspected child pornographic images and videos.
         Logistics Agency, revealed Bennett, along with other      One of the videos and 18 of the images depicted
         members of his unit, conspired and stole Government       Halpine’s stepdaughters.
         property. Bennett concealed the stolen items in a
         military shipping container and then shipped them         R esult :
         back to Fort Drum, NY. After Bennett returned to the      On February 11, 2014, Halpine pleaded guilty during
         United States from Iraq, he traveled to Fort Drum and     a judge-only general court-martial at Fort Campbell
         transported the shipping container of stolen items        and was convicted of several counts of rape of a child,
         to Georgia. In total, Bennett stole nearly $1.3 million   forcible sodomy of a child, aggravated sexual contact
         worth of U.S. Government property.                        of a child, sexual assault of a child, sexual abuse of a
                                                                   child, indecent liberty with a child, and production,
         R esult :                                                 distribution, and possession of child pornography.
         Bennett pleaded guilty to and on November 14,             Halpine was sentenced to 100 years of confinement
         2103, was convicted in the Federal District Court for     (restricted to 40 years under a pretrial agreement),
         the Eastern District of North Carolina of conspiracy      reduction in rank to E-1, sex offender registration and
         to steal and convert U.S. Government property and         a dishonorable discharge.
         theft and conversion of Government property. He was
         sentenced to 3 years imprisonment followed by             Rape of Current and Former Spouse
         3 years of supervised release.                            O verview:
                                                                   Criminal Investigation Division at Fort Hood, TX, was
         Rape of Multiple Children and Possession of               notified that Sergeant 1st Class Michael J. Rosado-
         Child Pornography                                         DeJesus raped his wife. The investigation not only
         O verview:                                                disclosed that Rosado-DeJesus sexually assaulted his
         Sergeant Christopher M. Halpine’s wife discovered         current wife, but it also established that while his
         one of her daughters viewing pornographic images          ex-wife never reported to law enforcement, he raped
         on a cell phone. While questioning her daughter           and forcibly sodomized her numerous times.
         about the images, the daughter informed her mother
         that she had been sexually assaulted by Halpine, her
                                                                   R esult :
         stepfather, since 2007. Halpine’s wife then questioned
                                                                   On January 27, 2014, during a judge-only general
         her other daughter who confirmed Halpine had also
                                                                   court-martial, at Fort Hood, Rosado-DeJesus was
         been sexually assaulting her since 2011. Criminal
                                                                   convicted of multiple counts of rape, multiple counts
         Investigation Division (CID) at Fort Campbell, KY, was
                                                                   of assault, assault consummated by battery, and child
         notified and investigated the allegations jointly with
                                                                   endangerment. He was sentenced to




56 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                      Services

25 years confinement, total forfeiture of all pay and    R esult :
allowances, reduction in rank to E-1, sex offender       On January 9, 2014, during a judge-only general court-
registration, and a dishonorable discharge.              martial at Fort Knox, Jacobs pleaded guilty and was
                                                         convicted of premeditated murder and aggravated
Lieutenant Colonel Sexually Assaults his                 assault. Jacobs was sentenced to confinement for life
Stepdaughter                                             with the eligibility of parole (restricted to 30 years
O verview:                                               under a pretrial agreement), reduction in rank to
The Maryland State Police (MSP) notified Criminal        E-1; total forfeiture of all pay and allowances, and a
Investigation Division (CID) at Fort Meade, MD, that     dishonorable discharge.
Lieutenant Colonel Sean M. Ahern had allegedly
sexually abused his stepdaughter multiple times
when she was between the ages of 11 and 17. The
investigation began as a joint investigation with MSP
until they terminated their investigation after the      NAVY
state attorney’s office declined to pursue prosecution
due to weak evidence. However, CID continued the
investigation. The investigation concluded Ahern
                                                         Naval Audit Service
                                                         The Naval Audit Service (NAVAUDSVC) mission is to
sexually assaulted his stepdaughter over the span of
                                                         provide independent and objective audit services to
seven years.
                                                         assist Department of the Navy (DON) leadership in
                                                         assessing risk to improve efficiency, accountability,
R esult :                                                and program effectiveness. The NAVAUDSVC works
On September 20, 2013, during a general court-           with DON leadership to develop an annual risk-
martial at Fort Myer, VA, Ahern was convicted            based audit plan addressing critical areas and also
of sexual assault of a child, indecent assault of a      responds to requests from senior DON officials to
child, and committing an indecent act upon a child.      provide audit work on emergent issues. In the past
Ahern was sentenced to 17 years and 6 months             6 months, NAVAUDSVC audits have addressed such
confinement, sex offender registration, and dismissal    important issues as acquisition, administration of
from the U.S. Army.                                      service contracts–“Contract Management – Service
                                                         Contracts” was included as a material weakness in the
Murder and Aggravated Assault                            DON’s FY 2013 Statement of Assurance–and more.
O verview:                                               The NAVAUDSVC’s audit of military construction
Criminal Investigation Division (CID), Fort Knox, KY,    projects identified $13.16 million in funds that
responded to the murder of a civilian. The subsequent    could be put to other use through reducing over-
investigation disclosed Sergeant Marquinta E. Jacobs     scopings in projects. Further, our assist reports for
approached Lloyd R. Gibert, Human Resources              the Naval Criminal Investigative Service identified
Command (HRC), Fort Knox, in the parking lot of          approximately $5.2 million in potential fraud. The
the HRC building, where Gibert worked. Jacobs            NAVAUDSVC will continue to work with senior DON
used a pistol to shoot Gibert multiple times. Gibert     officials to provide them with an expert and impartial
subsequently died as a result of his wounds. A witness   assessment of critical issues, and, if necessary, make
was in close proximity to Gibert, and Jacobs pointed     recommendations that strengthen and improve the
the weapon at him; afterward Jacobs fled the scene.      Department’s operations.
Due to expeditious coordination by CID with the
Federal Bureau of Investigation and various local        During this period, NAVAUDSVC issued 14 final
law enforcement agencies, Jacobs was located and         reports, which identified over $13 million of potential
apprehended in Portland, TN.                             funds to be put to other use. To date, management
                                                         has agreed to over $13 million.




                                                                                       OCTOBER 1, 2013 TO MARCH 31, 2014 │ 57
Services

         Major Sources of Coverage Requirements. NAVAUDSVC                                                     Substantial Audit Benefits Obtained. Exhibit 3 shows
         provided performance and financial audit coverage                                                     the funds identified for potential other use through
         in areas with significant impact. The sources of work                                                 audit reports issued by NAVAUDSVC over the past
         for reports published in this period are shown in                                                     3 years.
         Exhibit 1.
                                                                                                               Exhibit 3. Funds Identified For Potential Other Use
                                                                                                               ($ in thousands)
         Exhibit 1. Workload by Source Published Reports October 1, 2013
         – March 31, 2014                                                                                                      Program                          Past 3 Years            Past 6 Months
                                                                                                                 Acquisition Programs                                           $0                   $0
                                                        EXHIBIT 1
                                               WORKLOAD BY SOURCE                                                Construction Programs                                621,300                     13,158
                                                PUBLISHED REPORTS
                                      O CTOBER 1, 2013 – MARCH 31, 2014                                          Logistics Programs                                             0                     0
                                                                                                                 Other Programs                                           7,075                       0
                                                                            8
          8
                                                                                                                   Total                                             $628,375                 $13,158
                                                                                      Total: 14 Reports
          7
                                                    6
          6
                                                                                                               Civilian Staff Strength. Exhibit 4 shows the authorized
          5                                                                                                    and actual civilian year-end strengths for FYs 2011
          4                                                                                                    through 2014.
          3
                                                                                                               Exhibit 4. Civilian Year-End Strength
          2                                                                                                    (Includes audit, other professional, administrative and support
                                                                                                               personnel)
          1
                          0                                                                                            Fiscal Year                     Authorized                        Actual
          0
                  Congressional            Management                  Risk Benefit
               Requests and Statutory       Requests                   Assessments
                                                                                                                             2011                         398                             370
                                                                                                                             2012                         398                             373
         Issue Area Coverage. Exhibit 2 shows the number of                                                                  2013                         383                             366
         final reports published by issue area.                                                                              2014                         358                             353

         Exhibit 2. Number of Reports by Issue Area October 1, 2013 –
         March 31, 2014


                                                                                                         E XHIBIT 2
                                                                                             NUMBER OF REPORTS BY ISSUE AREA
                                                                                           O CTOBER 1, 2013 – MARCH 31, 2014

                                                                                                                                                                                 Total: 14 Reports

                                                                                                      5
           5




           4



                                                                                 3                                                         3
           3




           2



                         1                                                                                         1                                                                          1
           1



                                            0                   0                                                                                           0               0
           0
                                          Human                             Acquisition                        Health Care                               Nuclear                            Other
                                          Capital                          Processes and                                                                Enterprise
                  Joint Warfighting                         Information Contract Management      Financial                            Infrastructure                    Equipping
                   and Readiness                         Assurance, Security                    Management                          and Environment                    and Training
                                                            and Privacy                                                                                              Iraqi and Afghan
                                                                                                                                                                      Security Forces




58 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                       Services

   “Four of  the 13 programs reviewed did                 programs that had information in Dashboard did not
    not input program information into                    update program information quarterly as required.
                                                          One program out of the 13 reviewed exceeded the
    Dashboard, while 4 of  the 9 programs                 ACAT III program cost thresholds.
    that had information in Dashboard
    did not update program information                    R esult :
    quarterly as required.”                               Recommendations were made to improve oversight
                                                          by ASN (RD&A) for Milestone Decision Authority
Acquisition Processes and Contract                        responsibilities delegated to Naval Sea Systems
Management                                                Command and its affiliated PEOs for ACAT III and IV
                                                          programs. In addition, a recommendation was made
Naval Sea Systems Command and Affiliated                  to update Naval Sea Systems Command Instruction to
Program Executive Offices’ Management                     reflect the current acquisition environment to include
Oversight for Select Acquisition Category III             organizational roles and responsibilities, and current
                                                          DoD and DON acquisition policies and procedures.
and IV Programs
                                                          Report No: N2014-0005
O verview:
Naval Audit Service analyzed whether Naval Sea
                                                          Service Contracts and Military
Systems Command (NAVSEA) and its affiliated
                                                          Interdepartmental Purchase Requests at
Program Executive Offices (PEOs) were providing
                                                          Norfolk Ship Support Activity
oversight of Acquisition Category (ACAT) III and ACAT
IV programs in accordance with Secretary of the Navy      O verview:
and DoD acquisition policy.                               Naval Audit Service (NAVAUDSVC) determined
                                                          whether Norfolk Ship Support Activity (NSSA)
                                                          policies, procedures, and internal controls for
Findings:                                                 issuing and administering service contracts and
NAVSEA and its affiliated PEOs were not providing
                                                          Military Interdepartmental Purchase Requests were
adequate oversight of ACAT III and ACAT IV programs
                                                          sufficient. The audit reviewed two interagency task
in accordance with Secretary of the Navy and DoD
                                                          orders, valued at a combined total of approximately
acquisition policy. This occurred because the Office
                                                          $78 million, one Seaport-e task order, valued at
of the Assistant Secretary of the Navy (Research,
                                                          approximately $67.3 million, and 20 task orders
Development, and Acquisition) (ASN (RD&A)) had not
                                                          procured on 4 Fleet Logistic Center contracts, valued
issued any formal policy or procedures for the Deputy
                                                          at approximately $29.4 million. The audit was
Secretaries’ of the Navy oversight and management
                                                          conducted at the request of the Commanding Officer
responsibilities for ACAT III and IV programs;
                                                          and Executive Director.
ASN (RD&A) has not developed formal policy or
procedures for the use of Dashboard as a program
management tool to manage all ACAT programs; and          Findings:
NAVSEA Instruction for program reviews and reporting      NSSA did not establish sufficient policies, procedures,
did not reflect the current operating environment for     or internal controls for issuing and administering
ACAT III and IV programs. As a result, NAVSEA and         Military Interdepartmental Purchase Requests
its affiliated PEOs were not properly executing their     and service contracts. Also, NSSA did not maintain
delegated responsibilities for ACAT III and IV programs   sufficient documentation to create a clear audit
in full compliance with acquisition regulations.          trail. The NSSA comptroller directed interagency
Naval Sea Systems Command and its affiliated PEOs         contracts without proper authorization or adequate
approved 8 of 13 programs reviewed before either          separation of duties. Additionally, NAVAUDSVC found
obtaining all required documentation or before            subcontracted employees performing duties closely
acquisition documentation was properly approved.          related to inherently governmental functions.
Four of the 13 programs reviewed did not input            These issues resulted in a potential Anti-Deficiency
program information into Dashboard, while 4 of the 9      Act violation by inappropriately charging and
                                                          collecting approximately $3.4 million in fees.




                                                                                        OCTOBER 1, 2013 TO MARCH 31, 2014 │ 59
Services

            “The excessive use of  subcontractors                 other purchase transactions (such as husbanding and
              resulted in NSSA paying                             medical expenses) were selected for FYs 2010 and
                                                                  2011 from three selected ships for review.
              approximately $19.5 million, or
              33 percent more than using the prime
                                                                  Findings:
              contractor at the negotiated rates.”                The audit found that the U.S. Fleet Forces Command
                                                                  did not have sufficient management oversight and
         Responsible contracting officer’s representatives        monitoring over the invoice management process.
         were not sufficiently involved in the administration     Specifically, the U.S. Fleet Forces Command did not:
         of task orders and did not provide adequate
         surveillance of contractor performance or invoice          •	 Record purchase card transactions on the
         review. NAVAUDSVC found that approximately 90                 purchase logs;
         percent of the work under the Seaport-e task order         •	 Maintain supporting documentation;
         was subcontracted and then further subcontracted           •	 Have legible signatures on invoice
         to 26 second-tier contractors. The excessive use of           documentation;
         subcontractors resulted in NSSA paying approximately       •	 Show evidence of receipt and acceptance;
         $19.5 million, or 33 percent more than using the           •	 Ensure that approving officials’ signatures were
         prime contractor at the negotiated rates. As a result,        on invoice documentation;
         leadership did not have reasonable assurance that the      •	 Establish segregation of duties;
         use and administration of contracts were in the best       •	 Record document numbers on purchase requests;
         interest of the command or that services billed for           and
         were valid. The weaknesses identified increased the        •	 Ensure DD Forms 577 were prepared and retained
         risk of fraud, waste, and abuse.                              on file for the agency program coordinators,
                                                                       approving officials, and cardholders.
         R esult :
         NAVAUDSVC recommended that NSSA management               R esult :
         establish and implement controls and guidelines,         NAVAUDSVC made eight recommendations to the
         and provide oversight to improve: documentation;         U.S. Fleet Forces Command to establish controls
         separation of duties; contract administration; and       and implement oversight and monitoring in the
         contracting officer’s representative functions.          areas reviewed. Not having sufficient management
         In addition, U.S. Fleet Forces Command should            oversight and monitoring over the invoice process
         determine the need for an Anti-Deficiency Act            increases the risk of overpayments and potential
         investigation related to fees collected that may have    fraudulent activity, and lessens the Navy’s assurance
         violated the Miscellaneous Receipts Statute.             that it is paying only for goods and services ordered
         Report No. N2014-0011                                    and received.
                                                                  Report No. N2014-0004
         Financial Management
                                                                  Infrastructure and Environment
         Invoice Management on Selected Ships of
         Commander, U.S. Fleet Forces Command                     Reporting of Environmental Liabilities
         O verview:                                               O verview:
         Naval Audit Service (NAVAUDSVC) determined               Naval Audit Service (NAVAUDSVC) determined
         whether internal controls and procedures were in         whether the Navy had accurately identified and
         place for the invoice approval process to ensure         recorded the Environmental Restoration Liabilities and
         that selected U.S. Fleet Forces Command ships            Other Accrued Environmental Liabilities (OEL) related
         were paying for goods and services ordered and           to Navy fuel storage tank units and that cost estimates
         received. Specifically, 225 ($2.0M) statistically        were documented.
         selected Government commercial purchase card
         transactions and 80 ($11.2M) judgmentally selected




60 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                     Services

Findings:                                                   “The audit found 11 of  the 13 proposed
NAVAUDSVC identified areas for improvement in                MILCON projects were over-scoped
the processes the Navy uses to develop and support           by $13.158 million and 9 of  the 13
OEL cost estimates. DoD and DON guidance requires
that a future liability cost estimate be recorded in
                                                             proposed projects were under-scoped by
the accounting system for Navy fuel storage tanks.           $4.809 million.”
NAVAUDSVC reviewed 235 fuel storage tanks (out of
1,821) at 11 selected Navy installations and projected   Findings:
that 1,544 of the 1,821 tanks were required to have      The audit reviewed 16 (7 U.S. Navy and 9 U.S.
an OEL cost estimate recorded in the accounting          Marine Corps) proposed MILCON projects valued at
system and reflected in the FY 2012 financial report.    $656.490 million. All 16 MILCON projects audited
Of the 1,544 tanks, NAVAUDSVC projected that             were needed; however, during the audit, one of the
79 percent had an OEL cost estimate recorded, as         projects, valued at $7.310 million, was removed
required, while 21 percent did not. When OEL costs       from the Future Years Defense Program and was
are not recorded in a timely manner, the Navy’s          not included in the FY 2015 funding. Two of the
estimated future environmental cleanup costs could       proposed projects (1 Navy and 1 Marine Corps),
be misstated, possibly hindering the achievement of      valued at $78.440 million, were found to be properly
audit readiness by 2017 as directed by the Secretary     scoped. The remaining 13 projects were not sized in
of Defense.                                              accordance with appropriate criteria and/or included
                                                         items that were not required or authorized. The
R esult :                                                audit found 11 of the 13 proposed MILCON projects
NAVAUDSVC recommended that Naval Facilities               were over-scoped by $13.158 million and 9 of
Engineering Command: (1) perform a periodic              the 13 proposed projects were under-scoped by
reconciliation of the environmental tank listings        $4.809 million.
with the OEL universe; (2) establish communication
and coordination among facility tank managers and        R esult :
OEL program managers; (3) update OEL Enterprise          NAVAUDSVC recommended that Navy and Marine
System reports and manuals to include additional         Corps management direct reductions in scope for the
detail; (4) record the OEL cost estimates for the        over-scoped and unsupported line items in military
46 unrecorded tanks for inclusion in the current         construction projects and review the under-scoped
annual OEL reporting period; and (5) include the         line items and make appropriate adjustments as
Environmental Liabilities Program as an assessable       supporting documentation dictates. Management
unit in the Managers’ Internal Control Program. Navy     took appropriate corrective actions on all 4 of the
management concurred with all five of the report         reported recommendations, and concurred with the
recommendations.                                         audit-identified $13.158 million in funds potentially
Report No. N2014-0007                                    available for other use.
                                                         Report No. N2014-0008
Department of the Navy’s Military
Construction Projects Proposed for
Fiscal Year 2015
O verview:
Navy Audit Service (NAVAUDSVC) determined
whether the project scope requirements were
sufficiently supported for selected military
construction (MILCON) projects contained in the
Department of the Navy’s proposed FY 2015
MILCON Program.




                                                                                      OCTOBER 1, 2013 TO MARCH 31, 2014 │ 61
Services


         Naval Criminal Investigative                                C&S received inflated subcontracts from Advanced
                                                                     Solutions and Paramount Solutions and then paid
         Service                                                     bribes or kickbacks to himself, Duttagupta, Mariano,
                                                                     Mary O’Rourke (an employee of Advanced Solutions
         Significant Investigative Cases                             whose position was funded through the bribery
                                                                     scheme). Spencer billed the Navy about $200,000 a
         Qui Tam Suit Leads to $17 Million Restitution               month for work that was never performed. Patrick
         O verview:                                                  Nagle, chief financial officer of Advanced Solutions,
         This joint investigation with the Naval Criminal            processed the fraudulent invoices for payment.
         Investigative Service, Defense Criminal Investigative       Mariano also directed that payments were provided
         Service, U.S. Army Criminal Investigation Division,         to his father, Ralph Mariano Jr.
         Small Business Administration Office of the Inspector
         General, and the Federal Bureau of Investigation was           “Additionally, Mariano, Duttagupta,
         initiated in May 2006 as a result of a qui tam suit filed        Spencer, Nagle, and O’Rourke were
         in the Northern District of Georgia. The suit detailed
                                                                          each sentenced to joint restitution
         five allegations of fraud and bid rigging that:
                                                                          of  $17,957,000 (the amount of
           •	 Anjan Duttagupta, owner of Advanced Solutions               Government money falsely obtained and
              for Tomorrow was paying bribes to U.S. Navy                 paid to Spencer as part of the scheme).”
              Program Officer Ralph Mariano;
           •	 Ralph Mariano was accepting bribes for U.S.            R esult :
              Navy contracts from other companies providing          All defendants pleaded guilty. On November 1, 2013,
              services to Naval Sea Systems Command                  Mariano was convicted and sentenced to 10 years
              (NAVSEA);                                              confinement for theft of Government property and
           •	 Paramount Solutions was submitting false claims        5 years (concurrently) for conspiracy and tax evasion,
              under a U.S. Navy contract for work that was           and was fined $10,000. On December 4, 2013,
              not performed;                                         Duttagupta was convicted and sentenced to 3 years
           •	 Paramount Solutions was engaging in a bid-             confinement and 3 years supervised release for
              rigging scheme; and                                    bribery of a public official. On August 13, 2013, Ralph
           •	 Paramount Solutions was a fraudulently                 Mariano Jr. was convicted and sentenced to 4 years
              created business.                                      of probation with 2 years of home confinement for
                                                                     three counts of tax evasion. On October 4, 2011, he
         At the time, Advanced Solutions provided engineering        forfeited $337, 950. On December 5, 2013, Spencer
         and technical services for submarine combat systems         was convicted and sentenced to 3 years confinement
         and command and control systems support to Naval            and 3 years of probation for making false statements.
         Undersea Warfare Center Newport Division and                On November 19, 2013, Nagle was convicted and
         held more than $100 million in Navy contracts. The          sentenced to 30 months of probation, 300 hours of
         investigation revealed that Mariano controlled an           community service, and a $25,000 fine for conspiracy
         annual budget of $6 million to $7 million with little       to commit bribery. On December 11, 2013, O’Rourke
         oversight. Money was being placed on the Advanced           was convicted and sentenced to 9 months of home
         Solutions contracts at Mariano’s direction without          confinement, 5 years of probation, 1,000 hours of
         any technical instruction describing what work was          community service, a $4,000 fine, and immediate
         to be completed. Mariano first solicited Duttagupta         restitution of $478,800 to NAVSEA for theft of
         for a bribe of $6,000 per week in 1987. Duttagupta          Government property.
         admitted his involvement in the bribery scheme
         and stated Mariano threatened to end U.S. Navy              Additionally, Mariano, Duttagupta, Spencer, Nagle,
         funding to Advanced Solutions if the bribes were not        and O’Rourke were each sentenced to joint restitution
         paid. Russell Spencer, owner and president of C&S           of $17,957,000 (the amount of Government money
         Technology, an Advanced Solutions subcontractor,            falsely obtained and paid to Spencer as part of the
         admitted complicity in a bribery scheme wherein             scheme).



62 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                      Services

Fraudulent Workers Compensation Claim                    Vector Planning and Vo were temporarily suspended
O verview:                                               from Federal Government contracting, as well as
On June 24, 2013, at Marine Depot Maintenance,           prohibited from receiving the benefits of Federal
Albany, GA, a U.S. Navy civilian employee submitted      assistance. Vo relinquished all management and
a suspected fraudulent claim for Office of Workers       oversight responsibilities at Vector Planning. He died
Compensation Program benefits. Abel F. Martin            in a car accident in May 2013.
asserted that on May 13, 2013, he was injured on the
job while turning over a 100-pound piece of armor;       R esult :
on May 28, 2013, Martin filed a claim for the injury,    On January 14, 2014, the United States and Vector
which did not have any witnesses. Naval Criminal         Planning entered into a deferred prosecution
Investigative Service conducted surveillances on         agreement in the U.S. District Court, Southern District
numerous occasions and on both June 27 and 28,           of California. As part of the agreement, attorneys
2013, Martin was observed involved in activities that    representing Vector Planning admitted that its former
contradicted his claimed medical condition and in        CEO and majority owner submitted five years’ worth
violation of physician’s order.                          of false cost claims to the Defense Department,
                                                         resulting in losses of more than $3.6 million. Vector
                                                         Planning agreed to pay $6,500,000 to the U.S.
   “...investigative efforts saved the                   Government and to maintain a compliance and ethics
    program and the U.S. Government                      program. In exchange, the U.S. Attorney’s Office
    $1,628,158 in lifetime cost avoidance                agreed to postpone a prosecution for felony false
    for medical and salary compensation                  claims for three years.
    costs...”
                                                         Child Sexual Abuse
R esult :                                                O verview:
On July 18, 2013, Martin’s Workers’ Compensation         In July 2013, Petty Officer 2nd Class Jeremy Dale
claim was denied. Martin appealed the decision and       McMurry’s wife contacted Naval Criminal Investigative
on December 13, 2013, after an additional review,        Service (NCIS) and reported that McMurry had been
the Office of Workers Compensation Program again         having a sexual relationship with her 15-year-old
denied the injury claim. As a result, investigative      daughter for more than a year. McMurry had just
efforts saved the program and the U.S. Government        been sentenced in a court-martial to confinement
$1,628,158 in lifetime cost avoidance for medical and    and a dishonorable discharge for possession of child
salary compensation costs according to calculations      pornography. McMurry’s wife said he threatened
provided by the implementation guidance for              that she would lose access to her children if she
worker’s compensation under the Federal Employee         reported the relationship. During an investigation
Compensation Act.                                        conducted unilaterally by NCIS, McMurry’s
                                                         stepdaughter initially denied any sexual contact, but
Cost Mischarging                                         after a second forensic interview, she admitted that
                                                         McMurry had been forcing her to have sex with him
O verview:
                                                         since she was 13 years old; her younger brother was
In June 2011, a joint investigation with Defense
                                                         forced to watch her have sex with McMurry; and
Criminal Investigative Service and Defense Contract
                                                         that she had been forced to perform sexual acts on
Audit Agency (DCAA) was initiated based on an
                                                         her brother. The stepdaughter also said the sexual
allegation that Vihn Vo, Chief Executive Officer (CEO)
                                                         abuse led to a pregnancy, and McMurry forced her
of Vector Planning and Services had been mischarging
                                                         to have an abortion in February 2012. The brother
U.S. Navy contracts since 2005. Vo allegedly
                                                         corroborated this information and claimed McMurry
misdirected and deceived DCAA auditors by altering
                                                         had also sexually abused him. The conclusions of this
transaction records and creating false supporting
                                                         investigation were presented to the Kings County, CA,
documentation. A search warrant was executed on
                                                         Superior Court for prosecution.
the business and on Vo’s home in September 2012.




                                                                                       OCTOBER 1, 2013 TO MARCH 31, 2014 │ 63
Services

         R esult :                                                actively producing and trading child pornography and
         On February 3, 2014, McMurry pleaded guilty in Kings     sexually molesting male juveniles. Mastrogiovanni
         County, CA, Superior Court to two counts of lewd or      was arrested pursuant to a Federal warrant in Las
         lascivious acts with a child under the age of 14, and    Vegas, NV, where he was temporarily assigned with
         three counts of aggravated sexual assault of a child     Electronic Attack Squadron 209. Mastrogiovanni
         under the age of 14 years and seven years younger        admitted to possession, distribution, and production
         than the defendant. On February 28, 2014, McMurry        of child pornography. A search warrant was executed
         was sentenced to serve 105 years to life in prison and   at his Crofton, MD residence, which yielded hidden
         fined $10,000.                                           video and transmitter equipment and digital media.
                                                                  Examination of the media revealed 34 male juvenile
         Sexual Assault of Multiple Minors                        victims and more than 30,000 digital images and
                                                                  video of child pornography. During interviews,
         O verview:
                                                                  numerous victims identified themselves in sanitized
         This joint investigation with the Groton, CT, Town
                                                                  versions of seized video footage taken from hidden
         Police Department (GPD) was initiated in January
                                                                  cameras in bathrooms in Mastrogiovanni’s on- and
         2013 upon notification by a registered source that
                                                                  off-base homes. Several victims additionally reported
         Petty Officer 1st Class Tristan James Thomas, Naval
                                                                  Mastrogiovanni sexually assaulted them.
         Submarine Base, New London, CT, was allegedly
         engaging in sexual intercourse with girls ages 13 to
         15. A victim was forensically interviewed by the GPD     R esult :
         and confirmed the allegation. Items of evidentiary       On May 29, 2013, Mastrogiovanni pleaded guilty in
         value were seized during a search of Thomas’ off-        U.S. District Court for the District of Maryland and
         base home. The investigation ultimately determined       was convicted to one count of sexual exploitation of
         that Thomas was having electronic communications         minors for the purpose of producing a visual depiction
         through a social media website with eleven underage      of a minor engaged in sexually explicit conduct. On
         girls across several states.                             September 13, 2013, Mastrogiovanni was sentenced
                                                                  to serve 25 years in prison, sex offender registration,
                                                                  and supervised release for life.
         R esult :
         On October 22, 2013, during a judge-alone general
         court-martial at Naval Submarine Base New London,        Child Abuse
         CT, Thomas pleaded guilty and was convicted of           O verview:
         attempted production of child pornography, false         This investigation was initiated in August 2012, upon
         official statement, rape, sexual assault, indecent       notification from the Federal Healthcare Center in
         conduct, multiple counts of a sexual act upon a child    Great Lakes, IL, that the 19-month-old daughter of
         between 12 and 16 years of age, indecent exposure,       Seaman Apprentice Kody James Madson was treated
         sodomy, providing alcohol to minors, creating child      in the emergency room for a fractured skull and facial
         pornography, and multiple counts of possessing child     bruising. Madson and his wife were unable to explain
         pornography. Thomas was sentenced to 70 years            the cause of the injuries. A child abuse specialist
         confinement, forfeiture of all pay and allowances,       assessed that the victim was incapable of causing
         reduction to E-1, sex offender registration, and a       the head injuries to herself, as well as identified
         dishonorable discharge.                                  additional, previously healed, injuries of a suspicious
                                                                  nature. During subsequent interrogation by Naval
         Sexual Exploitation of Multiple Minors                   Criminal Investigative Service, Madson admitted
                                                                  to forcefully throwing his daughter to the ground
         O verview:
                                                                  because she would not stop screaming.
         This joint Federal Bureau of Investigation and U.S.
         Postal Inspection Service investigation was initiated
         in July 2012, upon notification that Petty Officer       R esult :
         2nd Class Anthony Kenneth Mastrogiovanni, an             On September 26, 2013, during a judge-alone special
         activated U.S. Navy Reserve petty officer, was           court-martial in Great Lakes, Madson pleaded guilty




64 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                        Services

and was convicted of assault upon a child under the
age of 16 years with a force likely to produce grievous    AIR FORCE
bodily harm. He was subsequently sentenced to
one year confinement, forfeiture of two-thirds pay
while confined, reduction to E-1, and a bad conduct
                                                           Air Force Audit Agency
                                                           The Air Force Audit Agency (AFAA) mission is to
discharge.
                                                           provide to all levels of Air Force management timely,
                                                           relevant, and quality audit services by reviewing and
Child Pornography
                                                           promoting the economy, effectiveness, and efficiency
O verview:                                                 of operations; assessing and improving Air Force
This investigation was initiated pursuant to               fiduciary stewardship and the accuracy of financial
information from the National Center for Missing and       reporting; and evaluating programs and activities and
Exploited Children (NCMEC). On September 24, 2009,         assisting management in achieving intended results.
suspected child pornography images were uploaded           The AFAA is committed to reaching out to Air Force
to a website by the user information attributed to         customers at all levels. To support Air Force decision
Petty Officer 3rd Class Jeremiah D. Neidert, who was       makers, the AFAA has approximately 615 personnel
interviewed and admitted using a particular email          at more than 50 worldwide locations. The AFAA
address to download nude images of young boys.             conducts centrally directed, Air Force-wide audits
Neidert consented to Naval Criminal Investigative          in numerous functional areas to support Air Force
Service’s examination of the Web address associated        senior leaders. Installation-level audit teams provide
with his email account, which yielded numerous             additional audit services to installation commanders.
images of suspected child pornography in the “Sent”
folder. During a search of Neidert’s residence,            To provide Air Force officials timely, responsive,
multiple electronic storage devices and media were         balanced, and value-added audit services, AFAA audit
seized. Forensic examination of the items yielded          planning methods include frequent contact with Air
numerous pictures and videos suspected to be child         Force senior leaders and Joint Audit Planning Groups.
pornography. Analysis by NCMEC determined several          The FY 2014 Audit Plan was prepared in partnership
of the files contained child pornography.                  with Air Force decision-makers to address the most
                                                           significant areas of management concern. As such,
R esult :                                                  AFAA ongoing and planned audits address many of
On October 2, 2013, during a judge-alone general           the Air Force’s most critical programs and initiatives,
court-martial at Naval Submarine Base, New London,         including topics such as personnel, training, cyber
CT, Neidert pleaded guilty and was convicted of            systems, environmental management, systems
attempt to create child pornography, and multiple          acquisition, health initiatives, and Afghanistan base
counts of possession and distribution of child             closure planning.
pornography. He was subsequently sentenced to
15 years confinement, forfeiture of all pay and
allowances, reduction to E-1, sex offender registration,      “Overall, during the first half of
and a dishonorable discharge.                                   FY 2014, AFAA published 32 centrally
                                                                directed audit reports, provided more
                                                                than 54 recommendations to Air Force
                                                                senior officials, and identified
                                                                $1.38 billion in potential
                                                                monetary benefits.”

                                                           In 2013, the Secretary of Defense called for the
                                                           Department to achieve audit readiness of the
                                                           Statement of Budgetary Resources by the end
                                                           of calendar year 2014 and of all Department




                                                                                         OCTOBER 1, 2013 TO MARCH 31, 2014 │ 65
Services

         financial statements by 2017. The Secretary also              Command personnel identified nonfuel savings in the
         called for personnel to increase emphasis on asset            Business Case Analysis and considered opportunities
         accountability and execute a full review over financial       to apply coke cleaning to engines within the
         controls. Consequently, during the first half of              command, Air Force personnel did not implement
         FY 2014, AFAA issued 13 reports directly supporting           identified nonfuel savings related to the coke cleaning
         Air Force Financial Improvement and Audit                     process or properly evaluate opportunities to apply
         Readiness efforts.                                            coke cleaning to other Air Force engines.

         Overall, during the first half of FY 2014, AFAA               R esult :
         published 32 centrally directed audit reports,                Implementing nonfuel savings will allow the Air Force
         provided more than 54 recommendations to Air Force            to reduce engine overhauls for FY 2014 through
         senior officials, and identified $1.38 billion in potential   FY 2019 making approximately $62 million available
         monetary benefits. The following paragraphs provide           for other Air Force requirements. Disseminating
         and synopsize a few examples of AFAA audit coverage           opportunities to apply coke cleaning to other
         related to specific DoD Management Challenge areas.           Air Force engines may reduce fuel consumption by
                                                                       31 million gallons valued at approximately $78 million
         Joint Warfighting and Readiness                               for FY 2014 through FY 2019. AFAA made three
                                                                       recommendations to improve KC-10 Coke Cleaning
         KC-10 Coke Cleaning Initiative                                Initiative management.
         O verview:                                                    Report No. F-2014-0001-L20000
         Air Force Audit Agency (AFAA) determined whether
         Air Force personnel effectively managed the KC-10             Automated Budget Compilation System
         Coke Cleaning Initiative.                                     Directed Program Additives
                                                                       O verview:
         Findings:                                                     Air Force Audit Agency (AFAA) determined whether
         Air Force personnel properly estimated coke cleaning          logistics personnel effectively managed Automated
         fuel savings and implemented coke cleaning. As a              Budget Compilation System directed program
         result, Air Mobility Command should achieve the               additives.
         anticipated $24.6 million savings. While Air Mobility
                                                                       Findings:
                                                                       Logistics budget personnel did not accurately compute
                                                                       or adequately support the internally generated
                                                                       readiness spares packages directed program additives.
                                                                       As a result, buy and repair budgets were overstated
                                                                       $386 million. In addition, personnel changed system-
                                                                       computed requirements by file maintaining inaccurate
                                                                       and unsupported externally generated directed
                                                                       program additives. Consequently, the repair budget
                                                                       was overstated approximately $64 million.

                                                                       R esult :
                                                                       Reducing the overstatements and correcting the
                                                                       two conditions would allow the Air Force to put
                                                                       $933 million to better use over the next 6 years.
                                                                       AFAA made two recommendations to improve
           AFAA reviewed the Air Force’s coke cleaning process for
                                                                       directed program additives management.
           KC-10 engines.                                              Report No. F-2014-0001-L40000




66 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                                  Services

Remotely Piloted Aircraft Maintenance and
Support Equipment Accountability
O verview:
Air Force Audit Agency (AFAA) determined whether
Air Force officials effectively managed the remotely
piloted aircraft program.

Findings:
Personnel timely accomplished maintenance actions,
but they did not accurately determine more than
$16 million of RQ-4 Global Hawk support equipment
requirements and correctly establish associated
authorizations. In addition, personnel misstated
MQ-1 and MQ-9 authorizations by more than 3,700
assets valued at more than $65.2 million. Finally,
personnel did not properly account for remotely              AFAA reviewed the Air Force’s projection of initial skills
piloted aircraft support equipment and information           technical training requirements.
technology assets.
                                                           Technical Training Requirements
R esult :                                                  O verview:
Establishing accurate remotely piloted aircraft
                                                           Air Force Audit Agency (AFAA) determined whether
authorizations would allow the Air Force to reduce
                                                           Air Force officials accurately projected initial skills
buy requirements and put $7.4 million to better use
                                                           technical training requirements.
over the next 6 years (execution year and the Future
Years Defense Program). Effective asset accountability
provides contingency planners readiness status             Findings:
visibility helping assure required quantities of mission   Air Force officials can more accurately project initial
critical assets are available when needed. AFAA made       skills technical training requirements. Specifically,
two recommendations to improve remotely piloted            officials underutilized officer and enlisted training
aircraft management.                                       requirements by more than 18 and 11 percent,
Report No. F-2014-0001-O30000                              respectively.

                                                           R esult :
                                                           Accurately determining requirements will allow the
                                                           Air Force to provide required training and reduce
                                                           initial skills training funding by $13.1 million. AFAA
                                                           made one recommendation to improve technical
                                                           training requirements management.
                                                           Report No. F-2014-0005-O40000

                                                           Acquisition Processes and Contract
                                                           Management
                                                           MQ-1 Predator and MQ-9 Reaper Ground
                                                           Control Stations
                                                           O verview:
                                                           Air Force Audit Agency determined if Air Force
  AFAA reviewed the Air Force’s management of the
  remotely piloted aircraft program.
                                                           officials effectively managed the acquisition of ground
                                                           control stations.



                                                                                                OCTOBER 1, 2013 TO MARCH 31, 2014 │ 67
Services

                                                                    Findings:
                                                                    Air Force personnel did not adequately accomplish
                                                                    acquisition planning, pre-award contract
                                                                    management, or quality assurance evaluations.

                                                                    R esult :
                                                                    Accomplishing adequate acquisition planning and
                                                                    establishing achievable contract requirements
                                                                    improves opportunities to identify and avoid part
                                                                    shortages across weapon systems. Adequate pre-
                                                                    award contract management and source selection
                                                                    evaluation criteria are essential to maintain a
                                                                    level playing field and accomplish a meaningful
                                                                    comparison between proposals. Finally, quality
                                                                    assurance evaluations help ensure contractors
           AFAA reviewed the management of the acquisition of
                                                                    meet performance requirements. AFAA made three
           MQ-1 Predator and MQ-9 Reaper ground control stations.   recommendations to improve future diminishing
                                                                    manufacturing sources and material shortages tool
                                                                    contract competition.
         Findings:                                                  Report No. F-2014-0002-L30000
         Air Force officials developed an effective acquisition
         strategy for upgrading ground control stations but
         did not adequately manage Block 30 ground control
                                                                    Financial Management
         stations technical system requirements or establish
         accurate Block 50 ground control stations budget           Civilian Pay – Automated Time, Attendance,
         requirements.                                              and Production System
                                                                    O verview:
         R esult :                                                  Air Force Audit Agency (AFAA) determined if Air Force
         As a result, Block 30 program officials significantly      personnel implemented effective time and attendance
         reduced contract requirements because software             procedures using the Automated Time, Attendance,
         and technical performance problems contributed             and Production System (ATAAPS).
         to schedule delays and cost growth. In addition,
         Block 50 program officials included quantities in the
         FY 2013 budget that exceeded user requirements.
         Corrective actions taken during the audit to reduce
         ground control stations quantities in the FY 2014
         budget allowed program officials to put $322 million
         to better use. Management completed five corrective
         actions during the audit, and the report contained no
         recommendations requiring further action.
         Report No. F-2014-0001-L30000

         Diminishing Manufacturing Sources and
         Material Shortages Tool Acquisition
         O verview:
         Air Force Audit Agency (AFAA) determined if Air
         Force personnel adequately managed diminishing
         manufacturing sources and material shortages                 AFAA determined if Air Force personnel implemented
                                                                      effective time and attendance procedures using ATAAPS.
         tool acquisitions.




68 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                          Services

Findings:                                                   R esult :
Personnel correctly recorded civilian time and              Effectively implementing system controls enhances
attendance information but did not properly certify         data integrity safeguards, application program
and timely correct ATAAPS time and attendance               protection, and continued computer operations in
records. In addition, ATAAPS did not have the               case of unexpected interruptions. AFAA made two
capability to record all Type Hour Codes used by Air        recommendations to strengthen system general and
Force organizations.                                        selected application controls.
                                                            Report No. F-2014-0005-O10000
R esult :
Proper certification and timely correction of ATAAPS
time and attendance records are key controls to             Energy Project Management
prevent improper payments and provide assurance             O verview:
civilian payroll data reported in Air Force records are     Air Force Audit Agency determined whether Air Force
complete, accurate, and supported. Further, including       personnel adequately supported energy project
all relevant Type Hour codes in ATAAPS will create a        estimates and developed feasible measurement and
more efficient process, avoid manual reporting, and         verification plans and conducted cost-effective
facilitate the Air Force efforts to automate the civilian   energy audits.
time and attendance process. In turn, the system will
produce adequate support for all payroll information        Findings:
recorded in the accounting records and financial            Personnel did not adequately support any of the
statements. AFAA made two recommendations to                25 FY 2013 energy project estimates reviewed or
improve ATAAPS time and attendance procedures.              develop feasible measurement and verification
Report No. F-2014-0003-L10000                               plans for 22 projects to validate savings. In addition,
                                                            personnel conducted unnecessary audits on
Standard Procurement System General and                     42 percent and 47 percent of low-consuming
Selected Application Controls                               installations and buildings, respectively.
O verview:
Air Force Audit Agency (AFAA) determined if Standard
Procurement System Program Management Office
                                                               “Canceling unneeded contracted audits
and operations personnel effectively implemented                 scheduled for FY 2013 and FY 2014
general and selected application controls in                     at low-consuming installations will
accordance with National Institute of Standards and              allow the Air Force to use $2.1 million
Technology standards.                                            to audit high-consuming installations
                                                                 or fund additional energy projects.”
Findings:
Standard Procurement System Program Management              R esult :
Office and operations personnel did not effectively         Canceling funding for 25 FY 2013 energy projects will
implement general and application-level general             allow the Air Force to use the $21 million investment
controls in accordance with National Institute of           cost for other projects shown to reduce energy
Standards and Technology standards. Specifically,           and costs. Canceling unneeded contracted audits
security management, access, and contingency                scheduled for FY 2013 and FY 2014 at low-consuming
planning require improvement at general and                 installations will allow the Air Force to use $2.1 million
application control levels. In addition, segregation        to audit high-consuming installations or fund
of duties was not effectively implemented at the            additional energy projects. The Air Force can save
application level.                                          an additional $1.5 million by not exercising the
                                                            current contract’s FY 2015 option at low-consuming
                                                            installations.
                                                            Report No. F-2014-0003-O20000




                                                                                           OCTOBER 1, 2013 TO MARCH 31, 2014 │ 69
Services

            “Eliminating unjustified retention                     Air Force Office of Special
              incentives and recouping incentives                  Investigations
              for unfulfilled service requirements
              will provide $1.2 million for                        Significant Activities
              other requirements over 6 years...”
                                                                   Fraudulent Claims
         Civilian Hiring Incentives
                                                                   O verview:
         O verview:                                                This investigation was initiated after the 647th
         Air Force Audit Agency (AFAA) determined whether          Contracting Squadron, Joint Base Pearl Harbor
         Air Force officials properly justify, validate, and       Hickam, HI, reported a possible violation of the False
         support superior qualification appointments               Claims Act after J.M. Waller Associates, Inc. submitted
         and civilian recruitment, relocation, and                 false or fraudulent claims for payment. A Defense
         retention incentives.                                     Contract Audit Agency investigative audit determined
                                                                   that during the time period of October 1, 2008
         Findings:                                                 through November 30, 2010, J.M. Waller Associates,
         Air Force personnel did not properly justify, validate,   Inc. used inappropriate labor categories and billing
         and support superior qualification appointments and       rates for certain tasks; billed for inspection services on
         associated salary amounts awarded for 43 percent of       days when no construction had been performed; and
         employees reviewed. In addition, they did not justify,    billed for time charged to tasks outside the scope of
         validate, and support recruitment, relocation, and        the contract.
         retention incentives valued at $7.5 million for
         75 percent of employees reviewed.                         R esult :
                                                                   On December 6, 2013, J.M. Waller Associates entered
         R esult :                                                 into an agreement with the U.S. Attorney’s Office
         Eliminating unjustified superior qualification            for the District of Hawaii to pay $229,060 to resolve
         appointments will provide $33.7 million for other         these allegations.
         requirements over 6 years (execution year and the
         Future Years Defense Program). Eliminating unjustified    Air Force Senior Airman Kills Son
         retention incentives and recouping incentives for         O verview:
         unfulfilled service requirements will provide             This investigation was initiated on March 12, 2013,
         $1.2 million for other requirements over 6 years          after Senior Airman Matthew Allen Theurer’s
         (execution year and the Future Years Defense              leadership at Seymour Johnson Air Force Base (AFB),
         Program). AFAA made two recommendations to                NC, reported the death of Theurer’s 14-month-
         improve management of civilian hiring incentives.         old son. During subsequent interviews, Theurer
         Report No. F-2014-0002-O40000                             confessed that on February 13, 2013, he left his
                                                                   son alone at home while running errands. After
                                                                   returning home, Theurer found the child unresponsive
                                                                   and unsuccessfully attempted cardio pulmonary
                                                                   resuscitation. After concluding the child would not
                                                                   respond, Theurer placed the child in a trash bag and
                                                                   departed his residence driving towards Myrtle Beach,
                                                                   SC. While traveling, Theurer stopped and discarded
                                                                   the body along the road. Theurer later admitted the
                                                                   child’s death was not accidental but the result of
                                                                   malnutrition and neglect.




70 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                       Services

R esult :                                                 threat. He was sentenced to 34 years (restricted to
On January 28, 2014, during a judge-alone general         20 years under a pretrial agreement), forfeiture of all
court-martial at Langley AFB, VA, Theurer pleaded         pay and allowances, reduction to E-1, sex offender
guilty and was convicted of false official statement,     registration, and a dishonorable discharge.
murder, and obstruction of justice. He was sentenced
to life in prison (restricted to 40 years under a pre-    Air Force Airman Involved with Sexual
trial agreement), forfeiture of all pay and allowances,   Exploitation of Children and Child
reduction to E-1, and a dishonorable discharge.           Pornography
                                                          O verview:
Rape of Dependent Spouse                                  This investigation was initiated on July 6, 2012, based
O verview:                                                upon information received from the Fayetteville Police
This investigation was initiated in August 2013, when     Department, Fayetteville, NC, that Staff Sergeant
a dependent spouse reported an unknown male, later        Aleksey N. Starovoytov sexually assaulted a non-DoD
identified as Senior Airman Jory D. Hodge, broke into     affiliated minor at his off-installation residence. The
her installation residence through a window, struck       Cumberland County Department of Social Services
her in the face, threatened to kill her, and raped her.   reported to the Fayetteville Police Department
During the assault, the assailant told the victim that    that a juvenile had disclosed that Starovoytov,
assaulting her was the last item on his “bucket list”     while serving as a youth mentor in a local youth
before committing suicide. The victim reported she        mentoring program, had sodomized him on numerous
could potentially identify the subject if she heard his   occasions prior to March 2011. The victim also
voice again. Interviews conducted in base housing         reported that on numerous occasions they viewed
led to the identification of potential suspects. Agents   child pornography together on Starovoytov’s laptop
administered an audio lineup for the victim by having     computer. Interviews conducted with other juveniles
five males say a particular phrase the assailant used     associated with the mentoring program revealed
the night of the assault. After the victim listened to    that between March 2007 and October 2010,
the recordings, she identified Hodge as the assailant.    Starovoytov sexually assaulted two other youths.
The U.S Army Criminal Investigation Laboratory            The seizure and subsequent analysis of Starovoytov’s
analyzed DNA obtained from potential subjects and         electronic media revealed Starovoytov was in
matched Hodge’s DNA to DNA collected from the             possession of 9,261 confirmed child pornographic
victim. The decisive actions by agents conducting         images and 117 confirmed child pornographic videos.
neighborhood interviews, audio line ups, and              The strong relationship between the Fayetteville
collecting DNA proved pivotal in identifying Hodge        Police Department and Air Force Office of Special
and restoring safety to the base populace.                Investigation allowed for a seamless transfer of
                                                          information and the removal of a child predator from
                                                          the local community.
   “Hodge pleaded guilty and was...
     sentenced to 34 years,... forfeiture of              R esult :
     all pay and allowances, reduction to                 On January 22, 2014, during a judge-alone general
     E-1, sex offender registration, and a                court-martial at Pope Air Force Base, NC, Starovoytov
     dishonorable discharge.”                             pleaded guilty and was convicted of lewd acts with a
                                                          child, sodomy, and possession of child pornography.
R esult :                                                 He was subsequently sentenced to 50 years
On January 13, 2014, during a judge-alone general         confinement in a military prison, forfeiture of all
court-martial at Grand Forks Air Force Base, ND,          pay and allowances, reduction to E-1, sex offender
Hodge pleaded guilty and was convicted of rape,           registration, and a dishonorable discharge.
sodomy, assault, burglary, and communicating a




                                                                                        OCTOBER 1, 2013 TO MARCH 31, 2014 │ 71
Services

         Rape, Possession and Distribution of Child
         Pornography
         O verview:
         In January 2013 Senior Airman Czachery T. Rike’s
         spouse reported to Air Force Office of Special
         Investigation (AFOSI) she had found more than 100
         images of child pornography on his cell phone. After
         AFOSI seized and executed a search of Rike’s digital
         media, AFOSI, in a joint investigation with Colorado
         Springs Police Department, transferred the electronic
         media to the Internet Crimes against Children (ICAC)
         Task Force, Colorado Springs, CO. Analysis conducted
         by the ICAC’s computer forensics laboratory identified
         approximately 425 child pornographic images on
         Rike’s cell phone. ICAC detectives interviewed
         Rike, during which he confessed to owning child
         pornography and provided them his login information
         for the websites and email he used. While reviewing
         Rike’s email, detectives found evidence that Rike
         distributed child pornography. Additionally, during
         an examination of Rike’s cellular phone, AFOSI
         identified a 14-year-old female that Rike had been
         communicating with. Examination of the text
         messages revealed he sent and received numerous
         sexually explicit photographs during his conversations
         with the 14-year-old female victim.


         R esult :
         On January 21, 2014, during a judge-alone general
         court-martial at Peterson Air Force Base, CO, Rike
         pleaded guilty and was convicted of lewd acts with
         a child, assault, and possession and distribution of
         child pornography. He was subsequently sentenced to
         12 years confinement, reduction to E-1, sex offender
         registration, and a dishonorable discharge.




72 │ SEMIANNUAL REPORT TO THE CONGRESS
                     3
Enabling Mission Areas
E n a b l i n g M i ss i o n A r e a s


         CONGRESSIONAL                                            DOD HOTLINE
         TESTIMONY AND                                            The mission of the DoD Hotline is to provide a
         BRIEFINGS                                                confidential, reliable means to report violations
                                                                  of Federal law, rule or regulation involving
                                                                  mismanagement, gross waste of funds, abuse of
         Section 4(a) of the Inspector General Act requires the   authority, and classified information leaks involving
         Inspector General “to review existing and proposed       the Department of Defense as well as the detection
         legislation and regulations relating to the programs     and prevention of threats and danger to the public
         and operations of [the Department of Defense]” and       health and safety of the Department and our nation.
         to make recommendations “concerning the impact
         of such legislation or regulations on the economy        The Hotline aims to become the recognized leader
         and efficiency in the administration of programs         within the Federal Government on Hotline programs.
         and operations administered or financed by [the          The Hotline established a number of ambitious
         Department] or the prevention and detection of fraud     steps to achieve this goal to include operating within
         and abuse in such programs and operations.” DoD          established metrics.
         IG is given the opportunity to provide information to
         Congress by participating in congressional hearings        •	 Established metrics - Priority 1, 2 and 3 complaint
         and briefings. During the reporting period, the               metrics processes for more effective and
         Office of the Inspector General did not testify at any        efficient triage:
         congressional hearings.                                           ■■ Priority 1 complaints involve significant and
                                                                              imminent threats to national and public
         The Office of Communications and Congressional                       safety, homeland defense, intelligence
         Liaison (OCCL) supports DoD IG by serving as the                     community, DoD nuclear enterprise,
         contact for communications to and from Congress,                     terrorism
         and by serving as the DoD IG public affairs office.                      ◊◊ Metric: processed same workday (1)
         From October 1, 2013, through March 31, 2014,                               as received
         OCCL received 85 new congressional inquiries and                  ■■ Priority 2 complaints involve Whistleblower
         closed 126.                                                          reprisal complaints, misconduct of DoD
                                                                              senior officials, DoD law enforcement and
         Legislative and Congressional                                        Offices of Inspector General personnel,
         Requests                                                             audit misconduct and complaints, criminal
                                                                              allegations, fraud and GAO Fraudnet
         DoD IG had six new legislative reporting requirements
                                                                              complaints.
         in the FY 2014 National Defense Authorization Act
                                                                                  ◊◊ Metric: processed within 3 days
         and Committee report language for the FY 2014 DoD
                                                                                     of receipt
         Appropriations bill. These reporting requirements
                                                                           ■■ Priority 3 complaints involve routine
         include periodic audits of contracting compliance
                                                                              allegations/complaints
         with (the Berry Amendment )(section 2533a of title
         10, United States Code), an assessment of planned
                                                                  DoD IG is committed to maintaining the Department’s
         testing of the Ground Based Interceptors program, a
                                                                  whistleblower protection program as a model for
         review of the Permanent Change of Station program
                                                                  the federal government. DoD Hotline is the primary
         efficiencies, and an assessment of the time it takes
                                                                  means for whistleblowers to report wrongdoing
         for Service treatment records to be transmitted from
                                                                  within the Department and directly supports this
         DoD to the Department Veterans Affairs. DoD IG also
                                                                  commitment by continuously analyzing and improving
         received requests for reviews directly from members
                                                                  its processes for handling whistleblower complaints.
         of Congress and congressional committees.




74 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                               E n a b l i n g M i ss i o n A r e a s


Hotline Contacts and Case                                                                          DoD IG (cont.)
                                                                         Investigations                                          154
initiation
During this reporting period the DoD Hotline received                    Administration and Management (A&M)                      3

5,596 contacts. The contacts were received in the                        Intelligence & Special Program Assessments               43
                                                                         (ISPA)
following methods in Figure 3.1.
                                                                         Office of Professional Responsibility (OPR)              12
                                                                         Special Plans & Operations (SPO)                         1
Open Cases                                                               Audit Policy and Oversight (APO)                         71
The DoD Hotline initiated and referred 3,149 cases to
                                                                         Investigative Policy and Oversight (IPO)                 21
the following activities:
                                                                         Office of General Counsel (OGC)                          8
                          Military Services
 Air Force                                              326
 Army                                                   778                             Defense Agencies/DoD Field Activities

 U.S. Army Criminal Investigation Command               114              Defense Advanced Research Projects Agency                3
                                                                         (DARPA)
 Navy                                                   329
                                                                         Defense Contract Management Agency                      59
 Marine Corps                                           102              (DCMA)
 Joint Staff                                             80              Department of Defense Education Activity                40
                                                                         (DODEA)
                                                                         Defense Contract Audit Agency (DCAA)                    33
                               DoD IG
                                                                         Defense Commissary Agency (DECA)                        23
 Investigation of Senior Officials (ISO)                257
                                                                         Defense Finance and Accounting Services                 34
 Whistleblower Reprisal Investigations (WRI)            342              (DFAS)

 Hotline                                                 12              Defense Intelligence Agency (DIA)                       12

 Audits                                                  25              Defense Information Systems Agency (DISA)               10



Figure 3.1 Total Contacts Received by Type of Method



                                                    TOTAL CONTACTS RECEIVED BY TYPE
        2500
                                                              2,241
                                                                                                       Total: 5,596 contacts

        2000




        1500

                                                                             1,162                1,211


        1000
                        813



          500

                                              168
                                                                                                                         1
             0

                    InterAgency               GAO             Internet     Letter/fax           Telephone              Walk-In




                                                                                                             OCTOBER 1, 2013 TO MARCH 31, 2014 │ 75
E n a b l i n g M i ss i o n A r e a s

                      Defense Agencies/DoD Field Activities (cont.)                                   DoD IG (cont.)
          Defense Logistics Agency (DLA)                               38   Investigations                                         105
          Defense Media Activity (DMA)                                  3   ISPA                                                    50
          Defense Security Service (DSS)                               15   OPR                                                     3
          Defense Threat Reduction Agency (DTRA)                        1   SPO                                                     2
          Missile Defense Agency (MDA)                                  6   P&O                                                     3
          National Geospatial Intelligence Agency (NGA)                 5   APO                                                     72
          National Security Agency (NGA)                                8   IPO                                                     26
          Pentagon Force Protection Agency (PFPA)                      11   A&M                                                     3
          Defense Health Agency (DHA)                                  35   OGC                                                     9
          Washington Headquarters Services (WHS)                       15

                                                                                           Defense Agencies/DoD Field Activities
                           Office of the Secretary of Defense               DARPA                                                   2
          AAFES                                                         6   DCAA                                                   32
          Administration and Management                                 1   DCMA                                                   38
          Acquisition, Technology, and Logistics                       10   DODEA                                                  24
          Comptroller                                                   4   DECA                                                   30
          Health Affairs                                                3   DFAS                                                   60
          Intelligence                                                  1   DIA                                                    14
          Military Entrance Processing Command                         15   DISA                                                   10
          Non-DoD                                                      24   DLA                                                    42
          Office of General Counsel                                     4   DMA                                                     3
          Personnel and Readiness                                      43   DSS                                                    16
          Policy                                                        8   DTRA                                                    1
          Public Affairs                                                1   MDA                                                     7
                                                                            NGA                                                     9

         Closed Cases                                                       NSA                                                     3

         The DoD Hotline closed 4,368 cases previously                      PFPA                                                   10
         referred to the following activities:                              DHA                                                    32
                                    Military Services                       WHS                                                    12
          Air Force                                                   271
          Army                                                   1,011                       Office of the Secretary of Defense
          Army CID                                                    145   AAFES                                                  14
          Navy                                                        383   Administration                                          1
          Marine Corps                                                108   AT&L                                                    4
          Joint Staff                                                 132   Comptroller                                             2
                                                                            Health Affairs                                          2
                                        DoD IG                              Intelligence                                            2
          ISO                                                         421   Military Entrance                                      14
          WRI                                                         876
          Hotline                                                     215
          Audits                                                       35




76 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                  E n a b l i n g M i ss i o n A r e a s

                      Processing Command                    Whistleblower Protection
 OGC                                              5
                                                            Ombudsman
 P&R                                             34
 Policy                                           7         In accordance with the Whistleblower Protection
 Special Inspector General for Iraq               2         Enhancement Act of 2012, the DoD inspector
 Reconstruction
                                                            general designated a DoD Whistleblower Protection
 Non-DoD                                         64         Ombudsman (WPO), currently the DoD Hotline
                                                            director. The WPO’s role is to educate agency
Closed Cases with significant results                       employees about the prohibitions, rights and
An anonymous complaint alleged a DoD contractor             remedies related to retaliation against protected
stored unclassified and classified telecommunications       disclosures.
room combinations on his cell phone and digital
notebook and passed them to personnel who did               To ensure the widest dissemination of whistleblower
not have authorization or access. The violations were       protection information and to facilitate easy access
reported immediately and corrective action was              to the WPO, a Whistleblower Protection Ombudsman
immediately implemented to change all suspected             page is maintained on the DoD IG website providing:
compromised combinations, which affected 400
classified facilities. The individual responsible for the     •	 Training slides for appropriated fund and military
breach was terminated.                                           personnel.
                                                                     ■■ The WPO continues to develop training
An anonymous complaint to the DoD Hotline alleged a                     slides for the remaining categories of
subcontractor submitted fraudulent invoices claiming                    DoD employees: non- appropriated fund,
to have worked more hours than he actually worked.                      intelligence community, and contractors.
An investigation determined there was probable                •	 Hyperlinks to the U.S. Office of Special Counsel.
cause to believe the subcontractor defrauded                  •	 Direct email contact to the WPO.
the Government of $167,000. The individual was
debarred from Government contracting until July             The DoD WPO is an active member of the Federal
2017. The Department of Army is in the process of           Whistleblower Protection Ombudsman Working
recouping monies lost.                                      Group, established following the enactment of
                                                            the Whistleblower Protection Enhancement Act of
A complaint to the Hotline resulted in a service            2012. The group helps ombudsmen implement the
member found guilty of fraud when he claimed to be          Act’s requirements to educate Federal employees
married and received unauthorized basic allowance           on prohibitions against retaliation for protected
for housing, dislocation allowance, and travel pay          disclosures of fraud, waste, and abuse, and their
after his divorce was finalized. The approximate loss       rights and remedies if retaliation does occur. In this
to the Government was $59,000. He was sentenced to          forum, participants share knowledge by addressing
eight months confinement, reduced in grade from E4          common issues and discussing best practices within
to E1, and received a bad conduct discharge.                our community of practice.

An anonymous complaint to the Hotline alleged the           The dual-hatted DoD WPO/Hotline Director takes
U.S. Marine Corps received motors, in the Multi-            advantage of an active speaking engagement schedule
Terrain Loader, that were exposed to saltwater and          to address his role as WPO during conferences of
other environmental elements during transit from            Government, contractor, and military personnel. This
a plant in Japan from contractor Caterpillar. The           personal approach in an informative setting proves to
complaint claimed the contractor took steps to hide         be of special benefit to those in attendance.
the extent of the damage, which compromised the
integrity of the engines, and failed to notify the U.S.
Marine Corps.




                                                                                           OCTOBER 1, 2013 TO MARCH 31, 2014 │ 77
E n a b l i n g M i ss i o n A r e a s

         The WPO is able to quickly address questions posed          communications, primarily emails, to the
         by potential or actual whistleblowers, via personal         DoD WPO over the last six months. It is anticipated
         contact or email, and provide needed information.           those numbers will continue to increase as the
         The DoD WPO is a popular point of contact for those         DoD WPO/Hotline Director continues to inform
         seeking guidance related to whistleblowing within           and educate.
         the DoD. There has been a marked increase of
         Figure 3.2 Categories of Hotline Allegations

                                                CATEGORIES OF HOTLINE ALLEGATIONS
                         Recovery Act

                 Intelligence Matters

                        Civil Liberties

                                    TIP

                       Mental Health

                              Medical

                       Safety Matters

                                 Travel

                                 Other

                              Security

                        Pay & benefits

                       Gov Resources

              Gov Programs/Projects

                 Criminal Allegations

                   Personnel Matters

                         Procurement

       Reprisal related Matters/MHE

       Misconduct/Ethics violations

                                          0             500   1000   1500         2000        2500        3000         3500




78 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                 E n a b l i n g M i ss i o n A r e a s


PROGRAMS                                                                  Figure 3.4 DoD IG Subpoenas Issued - FY 2014
                                                                          October 1, 2013 – March 31, 2014

                                                                                                     50 (14%)
                                                                                                                         32 (9%)
Subpoena Program                                                                                       DCIS
                                                                                                                          NCIS
The DoD IG authority to issue subpoenas is based
                                                                                52 (15%)
on the Inspector General Act of 1978, as amended.                                AFOSI
The Act authorizes the IG to issue subpoenas in the
performance of his duties under the Act relative to
the Department programs and operations. Historically,
most DoD IG subpoenas were issued on fraud-
                                                                          15 (4%)
related matters. During 2005, DoD IG began issuing                         Other
subpoenas in support of nonfraud related “general
crime” investigations such as various violent crimes
against persons, arson, bomb threats, and sexual
assaults, on a trial basis. During 2008, DoD IG made                                                                          206 (58%)
the issuance of subpoenas for certain specifically                                     Total: 355                             USACIDC
enumerated general crimes a permanent part of
the DoD IG Subpoena Program. A DoD IG subpoena                            business, personnel, financial, and state and local
must meet three criteria (1) the subpoena can only                        Government records. Records obtained by DoD IG
be issued for investigations, audits, inspections, or                     subpoenas may also be used to locate witnesses,
evaluations within the statutory authority of the                         confirm statements made by witnesses or subjects,
IG, (2) the information sought must be reasonably                         and provide other relevant information. DoD IG issued
relevant to the IG investigation, audit, inspection,                      more than 500 subpoenas each year during the past
or evaluation, and (3) the subpoena cannot be                             three years in support of DoD criminal investigations,
unreasonably broad or burdensome. Using DoD IG                            audits, and evaluations. During this reporting period,
subpoenas is a useful procedure for legally obtaining                     355 subpoenas were issued.

Figure 3.3 Subpoenas Requests by Type of Investigation - FY 2014
October 1, 2013 – March 31, 2014
                                                                        1 (0%)
                                                 33 (9%)           National Security       49 (14%)
                                                  Other                                 Computer Related
                        78 (22%)                                                            Crime
                    Theft/Larceny of
                  Government Property
                        or Funds


                                                                                                                   68 (19%)
                                                                                                                Crimes Against
                                                                                                                   Persons




               7 (2%)
         Public Corruption




                               38 (11%)
                          Pay, Allowance &
                          Entitlement Fraud                                         81 (23%)
                                                     Total: 355                Procurement Fraud


                                                                                                             OCTOBER 1, 2013 TO MARCH 31, 2014 │ 79
E n a b l i n g M i ss i o n A r e a s

         Figure 3.5 Contractor Disclosure Received By Type

                                                             4 (3%)                          1 (1%)
                                                             Other                      Conﬂict of Interest
                                     1 (1%)
                                                                      2 (2%)                          1 (1%)
                             Procurement Integrity Act
                                                                      Bribery                   Buy American Act
                                            2 (2%)                          1 (1%)                    1 (1%)
                                         False Testing                     Defective            Anti-Kickback Act
                                      1 (1%)                                Pricing                1 (1%)
                                 Cost Mischarging                                               False Claims
                                                                                                                3 (3%)
                             5 (5%)                                                                      False Certiﬁcations
                     Signiﬁcant Overpayment

                           8 (7%)
                       Non-Conforming
                            Parts


                           75 (71%)
                       Labor Mischarging




                                 Total: 106




         Contractor Disclosure Program                                          agreements when warranted by the evidence. The
                                                                                program has successfully met its goal to deter criminal
         All contractor disclosures affecting the Department
                                                                                activity by depriving criminals of property used or
         of Defense, made pursuant to the Federal Acquisition
                                                                                acquired through illegal activity both in the United
         Regulation, shall be reported to DoD IG in accordance
                                                                                States and in Southwest Asia. Since 2007, DCIS has
         with the Defense Federal Acquisition Regulation.
                                                                                seized $57.87 million, had final orders of forfeiture
         A contractor disclosure is a written disclosure by a
                                                                                totaling $34.77 million and money judgments in the
         DoD contractor or subcontractor to the DoD IG that
                                                                                amount of $102.95 million. During this six-month
         addresses credible evidence that the contractor or
                                                                                reporting period, DCIS seized assets totaling
         subcontractor has committed a violation of Title 18,
                                                                                $1.2 million, had final orders of forfeiture totaling
         or Section 3729 of Title 31, United States Code, in
                                                                                $1.5 million, and money judgments in the amount
         connection with the award, performance or closeout
                                                                                of $5.48 million. Assets that have been seized or
         of a contract or any subcontract. During this reporting
                                                                                forfeited include financial instruments, a watercraft,
         period, 106 contractor disclosures were received.
                                                                                a vehicle, and firearms.

         Asset Forfeiture Program                                               Investigative Examples:
         The Defense Criminal Investigative Service (DCIS) asset                During the reporting period, two consent orders
         forfeiture program continues to effectively provide                    of forfeiture were signed in the Eastern District of
         forfeiture support to DCIS investigations involving                    Virginia totaling $2.27 million–a $2.24 million money
         fraud, waste and abuse by including forfeiture counts                  judgment against a defendant who pleaded guilty
         in all indictments, criminal informations and consent                  to a single-count criminal information charging him




80 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                               E n a b l i n g M i ss i o n A r e a s

Figure 3.6 Seized Assets By Type                                                     Also during this reporting period a consent order
                                                                                     of forfeiture was signed in the Western District of
                      $229,950.00 (19%)            $856,686.71 (72%)                 Arkansas valued at $600,000. The forfeited amount
                           Vessels                Financial Instrument
                                                                                     was in lieu of a real property—the residence of the
                                                                                     defendant who is a physician. The defendant was an
$111,535.00 (9%)
    Vehicles                                                                         authorized TRICARE provider who subjected patients
                                                                                     unnecessarily to thorax, abdomen and pelvis scan
                                                                                     procedures and billed TRICARE for such.

                                                                                     Finally in this reporting period, a 2005 Lagoon 440
                                                                                     Sailing Catamaran was seized via a civil forfeiture
                                                                                     action in Christiansted Harbor, St. Croix, U.S. Virgin
                                                                                     Islands, from a defendant who had fled the United
                                                                                     States to avoid prosecution. The seizure warrant
                                                                                     issued in the Central District of California was based
  Total: $1,198,171.71
                                                                                     on tracing the source of funds, which were used
                                                                                     to purchase the $400,000 vessel, to proceeds from
with conspiracy to commit wire fraud and a $30,964                                   the sale of alleged counterfeit parts to DoD. The
money judgment against a second defendant. Three                                     defendant was indicted on charges he allegedly
vehicles were seized from one of the defendants at                                   provided counterfeit/unauthorized substitute parts in
a value of $79,160 used for partial payment of the                                   lieu of original equipment manufacturer parts under
judgment. Additionally, two other defendants were                                    a DoD contract. The items in question were batteries
jointly liable for a $2.03 million money judgment. The                               used in critical applications aboard U.S. Navy vessels.
investigation involved Government contracts                                          Indicted individuals are presumed innocent until
in Afghanistan.                                                                      proven guilty.
Figure 3.7 Contractor Disclosure Received By Type


                                                         ASSET FORFEITURE P ROGRAM
             $40.00



             $35.00



             $30.00



             $25.00
  Millions




             $20.00



             $15.00



             $10.00



              $5.00



                 0
                        FY 07             FY 08        FY 09             FY 10                 FY 11              FY 12     FY 13          FY 14


                                                    LEGEND
                                                          Judgments              Forfeitures           Seizures




                                                                                                                          OCTOBER 1, 2013 TO MARCH 31, 2014 │ 81
E n a b l i n g M i ss i o n A r e a s


         OUTREACH                                                     Council of the Inspectors General for Integrity
                                                                      and Efficiency
                                                                      The Council of Inspectors General for Integrity and
         Interagency Initiatives                                      Efficiency (CIGIE) was statutorily established as an
                                                                      independent entity within the Executive branch by the
                                                                      The Inspector General Reform Act of 2008. Its purpose
         Southwest Asia Joint Planning Group
                                                                      is to address integrity, economy, and effectiveness
         The Southwest Asia Joint Planning Group is the
                                                                      issues that transcend individual Government agencies;
         coordinating body for U.S. Government organizations
                                                                      and increase the professionalism and effectiveness
         conducting oversight of U.S. military and civilian
                                                                      of personnel by developing policies, standards, and
         activities in Southwest Asia. The group meets
                                                                      approaches to aid in the establishment of a well-
         quarterly to coordinate and de-conflict oversight
                                                                      trained and highly skilled workforce in the offices of
         activities. The group last met in January 2014, with
                                                                      the inspectors general. DoD IG is an active participant
         participants located in the continental United States
                                                                      in CIGIE, serving on the Executive Council and as Chair
         and Kabul, Afghanistan. DoD Inspector General
                                                                      of the Audit Committee. Areas of focus during the
         Jon Rymer provided opening remarks from Kabul,
                                                                      reporting period included an exchange of information
         followed by the introduction of the distinguished
                                                                      with the Inspectors General of Iraq during a
         guest speaker by DoD IG Deputy Inspector General for
                                                                      two-week study tour; establishing the Audit Peer
         Southwest Asia and the Chairman of the Southwest
                                                                      Review Schedule for 2014 to 2016; and updating
         Asia Joint Planning Group, Michael Child. Lieutenant
                                                                      the Guide for Conducting External Peer Reviews
         General Mark Milley, Commander, International
                                                                      of the Audit Organizations of Federal Offices of
         Security Assistance Force Joint Command/Deputy
                                                                      Inspector General. DoD IG also serves as a member
         Commander, U.S. Forces-Afghanistan, provided a
                                                                      of the Comptroller General’s Advisory Council on
         timely situational awareness briefing of ongoing
                                                                      Government Auditing Standards and as the Chair of
         and planned military activities in Afghanistan. The
                                                                      the Green Book Advisory Council.
         distinguished guest speaker at the November 2013
         meeting was Major General Michael E. Williamson,
                                                                      Defense Council on Integrity and Efficiency
         Deputy Commanding General, Combined Security
                                                                      The Defense Council on Integrity and Efficiency is
         Transition Command-Afghanistan, who addressed
                                                                      chaired by DoD IG and meets on a quarterly basis to
         budgetary controls related to the Government of the
                                                                      discuss issues of common interest, share information
         Islamic Republic of Afghanistan.
                                                                      and best practices, and build closer working
                                                                      relationships among members of the oversight
                                                                      community within the Department of Defense.
                                                                      Key areas of focus during the reporting period
                                                                      included Combatting Trafficking in Persons, DoD
                                                                      Hotline Operations, and the Defense Case Activity
                                                                      Tracking System.

                                                                      Recovery, Accountability and Transparency
                                                                      Board
                                                                      The Recovery Accountability and Transparency Board
                                                                      is a nonpartisan, nonpolitical agency created by the
                                                                      American Recovery and Reinvestment Act of 2009
                                                                      with the goal of providing transparency, detecting
                                                                      and preventing fraud, waste, and mismanagement of
                                                                      Recovery-related funds. DoD IG is an active
                                                                      participant in the Recovery, Accountability and
                                                                      Transparency Board. Key area of focus during the
           Southwest Asia Joint Planning Group met in November 2013
           with participants located in the U.S and Afghanistan.
                                                                      reporting period included Hurricane Sandy relief
                                                                      spending transparency.



82 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                 E n a b l i n g M i ss i o n A r e a s

Intelligence Community Inspectors General                  were held to share best practices and to ensure the
Forum                                                      Services and Agencies were aware of recent changes
DoD IG participates in the Intelligence Community          to policies and laws. Additionally, coordination with
Inspector General Forum, which promotes and                the Defense Media Activity led to the creation of two
furthers collaboration, cooperation, and coordination      new public service announcements being aired on the
among the inspectors general of the intelligence           Armed Forces Network overseas and the Pentagon
community. The forum meets quarterly to discuss            Channel stateside. The first of the public service
issues of common concern and to plan how to address        announcements is designed to raise awareness
them collaboratively. The Intelligence Community           among members of the Armed Forces that they can
Inspectors General Conference was March 19, 2014.          seek whistleblower protections from the IG if they
DoD Inspector General Jon Rymer participated in the        are reprised against for reporting a rape or sexual
inspector general (IG) roundtable panel, and DoD           assault. The second video focuses on whistleblower
Hotline Director Patrick Gookin participated as a          protections for individuals who report fraud,
panel member of the IG hotline management                  waste, and abuse.
breakout session.
                                                           Hotline Outreach Initiatives
Joint Intelligence Oversight Coordination
Group                                                      DoD Hotline Establishes Federal Hotline
The Deputy Inspector General for Intelligence              Working Group
and Special Program Assessments chairs the Joint           The DoD Hotline hosted a “Federal Working Group”
Intelligence Oversight Coordination Group, which           meeting for sharing processes and best practices
meets quarterly. The group promotes and furthers           across Government agencies. Hotline Director Patrick
collaboration, cooperation, coordination, and              Gookin highlighted the improvements made within
information sharing among the inspectors general and       the DoD Hotline during the past year. He emphasized
auditors general of the Department of Defense. The         the improvements which resulted in the most
group’s objectives are to support the DoD inspectors       “found” time by:
general and auditors general in the performance
of audits, inspections, and evaluations within their         •	 eliminating acceptance of emailed complaints;
respective departments and agencies as well as               •	 using a telephone tree to enhance customer
strengthen their collective role and effectiveness to           service and reduce the number of misdirected
enhance their support of the National Intelligence              complaints; and
Strategy. Finally, the group seeks to optimize the use
of resources, increase efficiency, and avoid duplication
of effort among DoD inspectors and auditors general.
The group can also explore opportunities for joint
and interagency training and education, as well
as examine defense programs and operations and
identify those requiring coverage from more than one
member of the group.


Administrative Investigations
Outreach Initiatives
During the reporting period, Administrative
Investigations personnel conducted more than 62
hours of instruction, training, and orientation for 455
people during 20 events. These sessions included
training on whistleblower reprisal and senior official
investigations for new inspectors general (IG) assigned      DoD Hotline hosted a ‘Federal Working Group’ meeting for
to Joint, Army, Navy, Air Force and Marine Corps IG          sharing processes and best practices.
billets. Services and Defense agency IG roundtables


                                                                                             OCTOBER 1, 2013 TO MARCH 31, 2014 │ 83
E n a b l i n g M i ss i o n A r e a s

           •	 implementing the Hotline’s new case
              management system that populates information
              from the online complaint form.

         These improvements resulted in a 66 percent
         reduction in contacts and shifted the focus from
         sifting through irrelevant information to processing
         appropriate and relevant complaints. Many of
         the attendees were interested in the Hotline case
         management system and establishing their own
         interactive online complaint forms.

         Department-wide Hotline Working Group
         The Hotline hosted the DoD-wide Hotline Working
         Group in November and March of this reporting
         period. The Working Group was established to create
                                                                     The DoD Hotline Director briefed reporters at the Pentagon
         a forum for cooperation and participation among
                                                                     in November 2013 on the DoD Hotline Program.
         Hotline offices within the department, establish a
         common vision for the DoD Hotline community, and
         to develop and implement a strategic plan to achieve      Pentagon Media Briefing
         the vision. The DoD-wide Hotline Working Group is         The DoD Hotline Director briefed reporters and
         continuing their focus on updating DoD Instruction        Office of the Secretary of Defense Public Affairs
         7050.01—Defense Hotline Program. In addition,             representatives in November 2013 about the DoD
         the group is refining the requirements of Hotline         Hotline Program. Topics included the challenges and
         completion reports and defining the role of Hotline       improvements made within the Hotline during the
         coordinators. The March meeting included a                past year. The briefing was positively received with
         briefing and demonstration of the DoD IG’s Defense        followup questions focusing on alternate avenues for
         Case Activity Tracking System case management             reporting classified information. Articles covering the
         system and the possibility of making it a DoD             press briefing were published by both the Washington
         enterprise application.                                   Times and Armed Forces Press Service.

                                                                   Federal News Radio Interview
                                                                   The DoD Hotline Director was interviewed by WTOP,
                                                                   a news radio station, in February about the DoD
                                                                   Hotline program. Topics included the challenges and
                                                                   improvements made within the Hotline during the
                                                                   past year.

                                                                   Red Dart Conference
                                                                   This conference was a collaborative effort to
                                                                   provide full spectrum of counterintelligence,
                                                                   counterespionage, and law enforcement services
                                                                   to cleared industry. The Hotline Director briefed
                                                                   attendees of a February 2014 conference on the
                                                                   Hotline Program and Whistleblower Ombudsmen role
                                                                   to educate employees about prohibitions, rights, and
                                                                   remedies for retaliation for protected disclosures.
           The DoD-wide Hotline Working Group was established to
           create a forum for cooperation and participation.




84 │ SEMIANNUAL REPORT TO THE CONGRESS
             5
Appendixes
Appendix A


         AUDIT, INSPECTION, AND EVALUATION
         REPORTS ISSUED
                                                                                DoD IG            Military Departments            Total
           Acquisition Processes and Contract Management                           14                        11                       25
           Administrative Readiness                                                  2                        0                        2
           Cyber Security                                                            1                       10                       11
           Equipping and Training Afghan National Security Forces                    2                        0                        2
           Financial Management                                                    21                        34                       55
           Health Care                                                               1                        7                        8
           Infrastructure and Environment                                            0                        3                        3
           Investigative Oversight                                                   1                        0                        1
           Joint Warfighting and Readiness                                           7                       33                       40
           Nuclear Enterprise                                                        2                        0                        2
           Other                                                                     1                        1                       2
           Total                                                                   52                        99                      151



         Acquisition Processes and Contract Management
          Agency         Report Number        Report Title                                                                    Date
          DoD IG         DODIG-2014-002       Hotline Allegation Regarding the Follow-up Audit of a Contractor’s Material     10/17/2013
                                              Management and Accounting System
          DoD IG         DODIG-2014-006       Program Management Office Provided Adequate Oversight of Two Contracts          10/25/2013
                                              Supporting the Defense Enterprise Accounting and Management System
          DoD IG         DODIG-2014-010       U.S. Army Corps of Engineers Transatlantic District-North Needs to Improve      11/22/2013
                                              Oversight of Construction Contractors in Afghanistan
          DoD IG         DODIG-2014-011       Missile Defense Agency and Defense Microelectronics Activity Use of             11/22/2013
                                              Cost-Reimbursement Contracts
          DoD IG         DODIG-2014-020       U.S. Army Contracting Command Did Not Obtain Fair and Reasonable Prices for     12/05/2013
                                              Communications Equipment (For Official Use Only)
          DoD IG         DODIG-2014-034       Followup Audit: Army Discontinued the Concept Next Generation Expanded          01/31/2014
                                              Capacity Vehicle as Agreed
          DoD IG         DODIG-2014-038       Air Force Life Cycle Management Center Could Not Identify Actual Cost of F119   02/10/2014
                                              Engine Spare Parts Purchased from Pratt and Whitney (For Official Use Only)
          DoD IG         DODIG-2014-041       Audit of the Defense Advanced Research Projects Agency Contracts (Classified)   02/18/2014
          DoD IG         DODIG-2014-042       Naval Facilities Engineering Command Washington Properly Awarded Task           02/28/2014
                                              Orders for Services
          DoD IG         DODIG-2014-043       The Army Needs to Improve Property Accountability and Contractor Oversight      03/04/2014
                                              at Redistribution Property Assistance Team Yards In Afghanistan
          DoD IG         DODIG-2014-044       Improvements Are Needed in Contractor Oversight, Mission Security, and          03/11/2014
                                              Personnel Safety for the Afghanistan Rotary Wing Program Contracts
                                              (For Official Use Only)
          DoD IG         DODIG-2014-045       Shindand Pilot Training Contracts (For Official Use Only)                       03/10/2014
          DoD IG         DODIG-2014-048       XM25 Program Management for the Initial Production Decision Needs               03/21/2014
                                              Improvement (For Official Use Only)
          DoD IG         DODIG-2014-049       DoD Considered Small Business Innovation Research Intellectual Property         03/27/2014
                                              Protections in Phase III Contracts, but Program Improvements Are Needed




86 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                                  Appendix A

Agency      Report Number        Report Title                                                                     Date
USAAA       A-2014-0028-ALC      Administration of the Rivanna Station Base Operations Contract, National         12/23/2013
                                 Ground Intelligence Center
USAAA       A-2014-0033-ALA      Audit of Anti-Armor Munitions Requirements (For Official Use Only)               01/14/2014
USAAA       A-2014-0052-ALA      FY 14 Mine Resistant Ambush Protected Reset Funding Request                      03/12/2014
                                 (For Official Use Only)
USAAA       A-2014-0056-ALE      Property Accountability in the Warfighter Field Operations Customer              03/27/2014
                                 Support Contract
NAVAUDSVC   N2014-0005           Naval Sea Systems Command and Affiliated Program Executive Offices’              12/19/2013
                                 Management Oversight for Select Acquisition Category III and IV Programs
NAVAUDSVC   N2014-0011           Service Contracts and Military Interdepartmental Purchase Requests at Norfolk    02/28/2014
                                 Ship Support Activity
NAVAUDSVC   N2014-0014           Internal Controls over the Tire Purchasing Processes at the San Diego Area       03/20/2014
                                 Navy Exchange Car Care Centers
AFAA        F-2014-0001-L30000   MQ-1 Predator and MQ-9 Reaper Ground Control Stations                            11/08/2013
AFAA        F-2014-0002-L20000   Contractor Logistics Support Contract Cost Tracking and Reporting                01/10/2014
AFAA        F-2014-0002-L30000   Diminishing Manufacturing Sources and Material Shortages Tool Acquisition        01/21/2014
AFAA        F-2014-0003-L30000   Quick Reaction Capability Process                                                03/04/2014



Administrative Readiness
Agency      Report Number        Report Title                                                                     Date
DoD IG      DODIG-2014-026       Assessment of Arlington and Soldiers’ and Airmen’s Home National Cemeteries      12/20/2013
DoD IG      DODIG-2014-050       Section 847 Ethics Requirements for Senior Defense Officials Seeking             03/31/2014
                                 Employment with Defense Contractors



Cyber Security
Agency      Report Number        Report Title                                                                     Date
DoD IG      DODIG-2014-037       Systemic Physical and Cyber Security Weaknesses Within the U.S. Army Corps       02/10/2014
                                 of Engineers (For Official Use Only)
USAAA       A-2014-0005-MTP      Followup Audit of Force Protection Requirements for New Construction             10/29/2013
                                 (For Official Use Only)
USAAA       A-2014-0006-FMT      Followup Audit of Energy Management for Information Technology                   10/30/2013
USAAA       A-2014-0010-MTP      Command Development, Prioritization, and Execution of Protection-Funding         11/05/2013
                                 Requirements (For Official Use Only)
USAAA       A-2014-0014-FMT      Current Telephony Capabilities                                                   11/14/2013
USAAA       A-2014-0020-MTP      Followup Audit of Physical Security of Privatized Base Operations                12/04/2013
                                 Infrastructure, Assistant Chief of Staff for Installation Management
                                 (For Official Use Only)
USAAA       A-2014-0027-FMT      Network Enterprise Center Reimbursable Services                                  12/20/2013
USAAA       A-2014-0034-FMT      Data Spillage (For Official Use Only)                                            01/07/2014
USAAA       A-2014-0035-FMI      Foreign Language Proficiency Bonus, Military Intelligence Civilian Excepted      01/09/2014
                                 Career Program
USAAA       A-2014-0044-MTP      Followup Audit of Contracts for Intrusion Detection Systems-Monitoring and       02/11/2014
                                 Maintenance (For Official Use Only)
AFAA        F-2014-0002-O30000   Distributed Common Ground System (Classified)                                    12/13/2013




                                                                                                          OCTOBER 1, 2013 TO MARCH 31, 2014 │ 87
Appendix A


         Equipping and Training Afghan National Security Forces
          Agency        Report Number      Report Title                                                                       Date
          DoD IG        DODIG-2014-027     Planning for the Effective Development and Transition of Critical ANSF Enablers    12/23/2013
                                           to Post-2014 Capabilities Part II – Cross Cutting Issues of Afghan National Army
                                           Enabler Development (Classified)
          DoD IG        DODIG-2012-034.7   Ministry of Interior Police Force Metrics (April – September 2013) (Classified)    03/05/2014



         Financial Management
          Agency        Report Number      Report Title                                                                       Date
          DoD IG        DODIG-2014-003     Independent Auditor’s Report of Department of State Global Health and              10/22/2013
                                           Child Survival Funds Transferred to DoD for Human Immunodeficiency Virus /
                                           Acquired Immune Deficiency Syndrome Prevention
          DoD IG        DODIG-2014-004     Audit of the Intelligence Community Centers of Academic Excellence Program’s       10/22/2013
                                           Use of Grant Funds
          DoD IG        DODIG-2014-012     Independent Auditor’s Report on the Army General Fund FY 2013 and FY 2012          12/09/2013
                                           Basic Financial Statements
          DoD IG        DODIG-2014-013     Independent Auditor’s Report on the Department of the Navy Working Capital         12/09/2013
                                           Fund FY 2013 and FY 2012 Basic Financial Statements
          DoD IG        DODIG-2014-014     Independent Auditor’s Report on the Department of the Navy General Fund            12/09/2013
                                           FY 2013 and FY 2012 Basic Financial Statements
          DoD IG        DODIG-2014-015     Independent Auditor’s Report on the Army Working Capital Fund FY 2013 and          12/09/2013
                                           FY 2012 Basic Financial Statements
          DoD IG        DODIG-2014-016     Independent Auditor’s Report on the Air Force General Fund FY 2013 and             12/09/2013
                                           FY 2012 Basic Financial Statements
          DoD IG        DODIG-2014-017     Independent Auditor’s Report on the Air Force Working Capital Fund FY 2013         12/09/2013
                                           and FY 2012 Basic Financial Statements
          DoD IG        DODIG-2014-018     Endorsement of the Unmodified Opinion on the DoD Military Retirement Fund          12/09/2013
                                           FY 2013 Basic Financial Statements
          DoD IG        DODIG-2014-021     Independent Auditor’s Report on the DoD Medicare-Eligible Retiree Health           12/09/2013
                                           Care Fund FY 2013 Basic Financial Statements
          DoD IG        DODIG-2014-022     Independent Auditor’s Report on the DoD Contract Resource Management               12/09/2013
                                           FY 2013 Basic Financial Statements
          DoD IG        DODIG-2014-023     Independent Auditor’s Report on the U.S. Army Corps of Engineers, Civil Works,     12/13/2013
                                           FY 2013 and FY 2012 Basic Financial Statements
          DoD IG        DODIG-2014-024     Independent Auditor’s Report on the Department of Defense FY 2013 and              12/16/2013
                                           FY 2012 Basic Financial Statements
          DoD IG        DODIG-2014-025     Independent Auditor’s Report on the Department of Defense FY 2013 and              12/16/2013
                                           FY 2012 Closing Package Financial Statements
          DoD IG        DODIG-2014-028     Independent Auditor’s Report on the United States Marine Corps Schedule of         12/20/2013
                                           Current Year Budgetary Activity for FY 2012
          DoD IG        DODIG-2014-030     Navy Needs to Improve Contract Oversight of Its Financial Improvement and          01/13/2014
                                           Audit Readiness Program Contracts
          DoD IG        DODIG-2014-035     Independent Auditor's Report on the FY 2013 DoD Detailed Accounting Report         01/31/2014
                                           of the Funds Obligated for National Drug Control Program Activities
          DoD IG        DODIG-2014-036     Independent Auditor's Report on the FY 2013 DoD Performance Summary                01/31/2014
                                           Report of the Funds Obligated for National Drug Control Program Activities
          DoD IG        DODIG-2014-039     Authorization of DoD Progress Payments for Ground Combat Vehicle Contracts         02/12/2014
                                           Needs Improvement
          DoD IG        DODIG-2014-046     Independent Auditor’s Report on the Examination of DoD Execution of North          03/24/2014
                                           Atlantic Treaty Organization-Contributing Countries’ Donations to Afghan
                                           National Army Trust Fund




88 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                                   Appendix A

Agency      Report Number        Report Title                                                                      Date
DoD IG      DODIG-2014-047       Independent Auditor’s Report on the Attestation of the Existence,                 03/25/2014
                                 Completeness, Rights and Obligations, and Presentation and Disclosure of the
                                 Department of the Navy’s Ordnance
USAAA       A-2014-0004-FMF      Memorandum Report, Audit of Government-Provided Meals for Soldiers                10/24/2013
                                 Attending Institutional Training
USAAA       A-2014-0011-FMF      Audit of Special Pay–Aviation Pay                                                 11/04/2013
USAAA       A-2014-0015-FMF      U.S. Army Audit Agency Review of the Independent Auditor's Report                 11/26/2013
USAAA       A-2014-0017-FMF      Nontemporary Storage Costs                                                        12/02/2013
USAAA       A-2014-0018-FMF      Review of Incentives in the Missouri Army National Guard, Followup Audit of       12/06/2013
                                 Controls of the Incentive Program in the Army National Guard
USAAA       A-2014-0024-FMF      Followup Audit of Controls Over the Incentive Program in the Army                 12/10/2013
                                 National Guard
USAAA       A-2014-0036-FMF      Government-Provided Meals for Soldiers Attending Institutional Training           01/13/2014
USAAA       A-2014-0040-FMF      Followup Audit of Controls Over the Unemployment Compensation Program             01/27/2014
                                 for Ex-Servicemembers
USAAA       A-2014-0042-IEI      Army Emergency Relief Operations                                                  02/11/2014
USAAA       A-2014-0055-FMR      Review of Accounting Procedures for In-Kind Consideration From Leases             03/18/2014
NAVAUDSVC   N2014-0001           Government Commercial Purchase Card Transactions at Marine Aviation               10/30/2013
                                 Logistics Squadron 11
NAVAUDSVC   N2014-0003           Independent Attestation–Agreed-Upon Procedures Attestation Engagement             12/02/2013
                                 of Department of the Navy Audit Readiness Sustainment–Transportation
                                 of People
NAVAUDSVC   N2014-0004           Invoice Management on Selected Ships of Commander, U.S. Fleet Forces              12/06/2013
                                 Command
NAVAUDSVC   N2014-0010           Independent Attestation–Agreed-Upon Procedures Attestation Engagement of          02/19/2014
                                 Assessing Internal Controls over Financial Reporting in the Department of the
                                 Navy, Phase 5
NAVAUDSVC   N2014-0013           Fiscal Year 2012 Implementation of the Federal Managers’ Financial Integrity      03/14/2014
                                 Act at Selected Commander, Navy Installations Command Activities
AFAA        F-2014-0001-L10000   Military Pay Supporting Documentation Phase II                                    02/06/2014
AFAA        F-2014-0002-L10000   Follow-up Audit, Defense Travel System Segregation of Duties                      02/18/2014
AFAA        F-2014-0003-L10000   Civilian Pay - Automated Time, Attendance, and Production System                  03/03/2014
AFAA        F-2014-0003-L20000   Memorandum Report of Audit, Automated Business Services System                    01/10/2014
                                 General Controls
AFAA        F-2014-0004-L20000   Memorandum Report of Audit, Job Order Cost Accounting System II                   02/06/2014
                                 General Controls
AFAA        F-2014-0002-L40000   Secondary Item Inventory Cost Data                                                02/24/2014
AFAA        F-2014-0001-O10000   Memorandum Report of Audit, Air National Guard Reserve Order Writing              10/18/2013
                                 System Application Controls
AFAA        F-2014-0002-O10000   Memorandum Report of Audit, Defense Enterprise Accounting and                     10/18/2013
                                 Management System–Accounting Conformance Test Documentation
AFAA        F-2014-0003-O10000   Memorandum Report of Audit, Integrated Logistics System-Supply                    11/01/2013
                                 Application Controls
AFAA        F-2014-0004-O10000   Memorandum Report of Audit, Automated Contract Preparation System                 11/01/2013
                                 General and Application-Level General Controls
AFAA        F-2014-0005-O10000   Standard Procurement System General and Selected Application Controls             12/03/2013
AFAA        F-2014-0006-O10000   Contract Writing System General Controls                                          12/13/2013
AFAA        F-2014-0002-O20000   Utility Services Management                                                       01/10/2014
AFAA        F-2014-0003-O20000   Energy Project Management                                                         01/13/2014
AFAA        F-2014-0003-O30000   Intelligence Contingency Funds Fiscal Year 2012                                   03/05/2014




                                                                                                           OCTOBER 1, 2013 TO MARCH 31, 2014 │ 89
Appendix A

          Agency        Report Number        Report Title                                                                    Date
          AFAA          F-2014-0002-O40000   Civilian Hiring Incentives                                                      12/16/2013
          AFAA          F-2014-0003-O40000   Death Gratuity Payments                                                         01/13/2014
          AFAA          F-2014-0004-O40000   Reserve Travel System–Phase 2 Application Controls                              01/24/2014
          AFAA          F-2014-0006-O40000   Air Reserve Order Writing System-Reserve General Controls                       03/17/2014



         Health Care
          Agency        Report Number        Report Title                                                                    Date
          DoD IG        DODIG-2014-040       Assessment of DoD Wounded Warrior Matters: Managing Risks of Multiple           02/21/2014
                                             Medications
          USAAA         A-2014-0012-IEM      Audit of the Implementation of Pain Management Initiatives–Interdisciplinary    11/13/2013
                                             Pain Management Centers
          USAAA         A-2014-0019-IEM      Pharmaceutical Purchases, U.S. Army Medical Command                             12/11/2013
          USAAA         A-2014-0022-IEM      Audit of the Implementation of Comprehensive Soldier and Family Fitness         12/09/2013
                                             Program Training Centers
          USAAA         A-2014-0038-IEE      Army Hearing Program: Hearing Conservation                                      02/12/2014
          USAAA         A-2014-0047-IEM      Management of the e-Profile Process, U.S. Army Medical Command                  03/03/2014
          NAVAUDSVC     N2014-0009           Navy Urinalysis Program for Military Personnel                                  02/18/2014
          AFAA          F-2014-0004-O20000   Environmental Compliance                                                        02/06/2014



         Infrastructure and Environment
          Agency        Report Number        Report Title                                                                    Date
          NAVAUDSVC     N2014-0007           Reporting of Environmental Liabilities                                          02/05/2014
          NAVAUDSVC     N2014-0008           Department of the Navy’s Military Construction Projects Proposed for            02/11/2014
                                             Fiscal Year 2015
          NAVAUDSVC     N2014-0012           Energy Research at the Office of Naval Research and Naval Research Laboratory   03/13/2014



         Investigative Oversight
          Agency        Report Number        Report Title                                                                    Date
          DoD IG        DODIG-2014-029       Review of Deoxyribonucleic Acid (DNA) Collection Requirements for Criminal      02/27/2014
                                             Investigations



         Joint Warfighting and Readiness
          Agency        Report Number        Report Title                                                                    Date
          DoD IG        DODIG-2014-001       MV-22 Squadrons Could Improve Reporting of Mission Capability Rates and         10/23/2013
                                             Readiness (Classified)
          DoD IG        DODIG-2014-005       Combined Joint Task Force-Horn of Africa Needed Better Guidance and Systems     10/30/2013
                                             to Adequately Manage Civil-Military Operations (For Official Use Only)
          DoD IG        DODIG-2014-007       Defense Logistics Agency Disposition Services Afghanistan Disposal Process      11/08/2013
                                             Needed Improvement
          DoD IG        DODIG-2014-008       Contract and Controls Over Information Operations Assessments in Afghanistan    11/07/2013
                                             Should Be Strengthened (Classified)
          DoD IG        DODIG-2014-009       Missile Defense Agency Can Improve Adherence to Target Process and              11/12/2013
                                             Transparency of Target Costs (Classified)




90 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                                     Appendix A

Agency      Report Number        Report Title                                                                        Date
DoD IG      DODIG-2014-032       Defense Logistics Agency Effectively Managed Continental U.S. Mission-Critical      01/27/2014
                                 Batteries
DoD IG      DODIG-2014-033       Followup Audit: Body Armor First Article Testing Standardized DoD-Wide              01/28/2014
USAAA       A-2014-0001-IEF      Agreed-Upon Procedures Attestation of U.S. Army Corps of Engineers Mobile           10/21/2013
                                 District's Readiness Support Center (For Official Use Only)
USAAA       A-2014-0002-MTS      Followup Audit of Readiness of Modular Units–Army National Guard                    10/22/2013
USAAA       A-2014-0003-MTE      Audit of Force Protection–Contractor Accountability (For Official Use Only)         10/31/2013
USAAA       A-2014-0007-IEE      Demilitarization Efficiencies–Conventional Ammunition (For Official Use Only)       11/15/2013
USAAA       A-2014-0008-ALA      Audit of Aviation Requirements–Shadow Platoon Instructor Operators                  11/01/2013
USAAA       A-2014-0013-IEE      Followup Audit: Planning for Disposal of Chemical Demilitarization and              11/22/2013
                                 Storage Facilities
USAAA       A-2014-0023-IEE      Followup Audit of Funding Requirements for the Conventional Ammunition              12/16/2013
                                 Demilitarization Program
USAAA       A-2014-0025-MTT      Training Support System–Contracting, Office of the Deputy Chief of Staff,           12/18/2013
                                 G-3/5/7
USAAA       A-2014-0026-MTE      Logistics Civil Augmentation Program IV Contract Drawdown, Afghanistan              12/24/2013
                                 (For Official Use Only)
USAAA       A-2014-0029-MTE      Audit of Material Handling Equipment–Afghanistan (For Official Use Only)            12/24/2013


USAAA       A-2014-0030-ALE      Central African Region Operations, U.S. Africa Command                              01/10/2014
USAAA       A-2014-0032-ALM      Depot-Level Maintenance Workload Reporting–FY 12                                    01/16/2014
USAAA       A-2014-0037-FMP      Army Prepositioned Stock-4, Korea (For Official Use Only)                           01/15/2014
USAAA       A-2014-0039-ALS      Small Arms Loan Program (For Official Use Only)                                     01/31/2014
USAAA       A-2014-0041-ALS      Management of Lateral Transfers, Program Executive Office, Aviation                 01/30/2014
USAAA       A-2014-0043-ALM      Unit Maintained Equipment (For Official Use Only)                                   02/12/2014
USAAA       A-2014-0045-MTP      Followup Audit of the Military Working Dog Program                                  02/11/2014
USAAA       A-2014-0046-MTH      Sexual Assault-Related Phone Numbers, Office of the Deputy Chief of Staff, G-1      02/13/2014
USAAA       A-2014-0048-MTT      Army National Guard Operating Tempo Funds Use, Army National Guard                  02/25/2014
USAAA       A-2014-0049-MTE      Surface Tender U.S. Central Command Region Program, Camp Arifjan, Kuwait            03/07/2014
                                 (For Official Use Only)
USAAA       A-2014-0050-ALE      Army Prepositioned Stocks, Leghorn Army Depot, Livorno, Italy                       03/05/2014
                                 (For Official Use Only)
USAAA       A-2014-0051-MTE      Audit of Repatriating Loaned Equipment (For Official Use Only)                      03/11/2014
USAAA       A-2014-0053-IEF      Reserve Components Drill Pay, U.S. Army Reserve Command and Army National           03/18/2014
                                 Guard
USAAA       A-2014-0054-IEI      Audit of the Army National Guard Director's Strength Maintenance Award              03/24/2014
                                 Ceremony and Strength Maintenance Core Functions Training
USAAA       A-2014-0057-ALM      Followup Audit of Time-Sensitive Issue-M113 Family of Vehicles FY 11 Reset          03/27/2014
                                 Maintenance Requirements
NAVAUDSVC   N2014-0006           Navy Reserve Individual Augmentee Reintegration Process                             01/07/2014
AFAA        F-2014-0001-L20000   KC-10 Coke Cleaning Initiative                                                      12/13/2013
AFAA        F-2014-0001-L40000   Automated Budget Compilation System Directed Program Additives                      10/23/2013
AFAA        F-2014-0001-O20000   Air Mobility Command Mission Index Flying                                           12/16/2013
AFAA        F-2014-0005-O20000   Air Mobility Command Fuel Efficiencies                                              02/24/2014
AFAA        F-2014-0001-O30000   Remotely Piloted Aircraft Maintenance and Support Equipment Accountability          11/15/2013
AFAA        F-2014-0001-O40000   Civilian Workforce Diversity                                                        11/21/2013
AFAA        F-2014-0005-O40000   Technical Training Requirements                                                     03/03/2014




                                                                                                             OCTOBER 1, 2013 TO MARCH 31, 2014 │ 91
Appendix A


         Nuclear Enterprise
          Agency         Report Number          Report Title                                                                Date
          DoD IG         DODIG-2014-019         Assessment of Continental United States Based Nuclear Response Task Force   12/03/2013
                                                Programs (Classified)
          DoD IG         DODIG-2014-031         Review of DoD Requirements for Nuclear Gravity Weapon Delivery Parameters   01/14/2014
                                                (Classified)



         Other
          Agency         Report Number          Report Title                                                                Date
          DoD IG         DODIG-2014-051         Assessment of Voting Assistance Programs for Calendar Year 2013             03/31/2014
          NAVAUDSVC      N2014-0002             Naval Facilities Engineering Command Senior Officials’ Travel Costs         11/08/2013


            ◊	Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix, Section 5(a) (6).




92 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                             Appendix B


REPORTS CONTAINING POTENTIAL
MONETARY BENEFITS
                                                                                        Potential Monetary Benefits
                   Reports Issued                                Date                                     Funds Put to Better
                                                                                  Questioned Costs
                                                                                                                 Use
DODIG-2014-005
Combined Joint Task Force-Horn of Africa Needed
                                                              10/30/2013                 $228,971                      N/A
Better Guidance and Systems to Adequately Manage
Civil-Military Operations (For Official Use Only)
DODIG-2014-020
U.S. Army Contracting Command Did Not Obtain Fair
                                                              12/05/2013               $3,300,000                      N/A
and Reasonable Prices for Communications Equipment
(For Official Use Only)
DODIG-2014-044
Improvements Are Needed in Contractor Oversight,
Mission Security, and Personnel Safety for the                03/11/2014                 $141,923                      N/A
Afghanistan Rotary Wing Program Contracts
(For Official Use Only)
Total                                                                                  $3,670,894

◊	Partially fulfills the requirement of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix, Section 5(a)(6)
  (See Appendix A).




                                                                                                     OCTOBER 1, 2013 TO MARCH 31, 2014 │ 93
Appendix C


         FOLLOWUP ACTIVITIES
         Decision status of DoD IG issued audit, inspection, and evaluation reports and dollar value of recommendations
         that funds be put to better use.

                                                                                                                           Funds Put
                                                 Status                                              Number             to Better Use1
                                                                                                                       ($ in thousands)
           A.	 For which no management decision had been made by the beginning of
                                                                                                         33                 $179,345
               the reporting period.
           B.	 Which were issued during the reporting period.                                            52                    $3,6711
                 Subtotals (A+B)                                                                         85                 $183,016
           C.	 For which a management decision was made during the reporting period.                     61
                 (i)	 dollar value of recommendations that were agreed to by
                       management.
                         - based on proposed management action                                                                          0
                         - based on proposed legislative action
                 (ii)	 dollar value of recommendations that were not agreed to by
                       management.                                                                                            $36,9002,3
           D.	 For which no management decision has been made by the                                     24                 $146,1164
               end of the reporting period.

                 Reports for which no management decision was made within 6 months of                      55               $ 145,745
                 issue (as of March 31, 2014).

           1.	   DoD IG issued audit reports during the period involving $3.7 million in “questioned costs.”

           2.	   On these audit reports management has agreed to take the recommended actions, but the amount of agreed monetary
                 benefits cannot be determined until those actions are completed.

           3.	   Includes $3.3 million in “questioned costs.”

           4.	   Includes $371 thousand in “questioned costs.”

           5.	   DoD IG Report Nos. DODIG-2013-095, “Award and Administration of Radio Contracts for the Afghan National Security
                 Forces Need Improvement,” DODIG-2013-116, “National Geospatial-Intelligence Agency Did Not Comply With Base
                 Realignment and Closure Legislation,” DODIG-2013-123, “Army Needs To Improve Mi-17 Overhaul Management
                 and Contract Administration,” DODIG-2013-136, “Assessment of the Office of Security Cooperation–Iraq Mission
                 Capabilities,” and, DODIG-2013-137, ” DoD Is Not Properly Monitoring the Initiation of Maintenance for Facilities at
                 Kandahar Airfield, Afghanistan,” had no decision as of March 31, 2014, but action to achieve a decision is in process.

            ◊	Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix, Section 5(a)(8),(9) & (10).




94 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                              Appendix C

Status of action on central internal audits period ending March 31, 2014

                                                                                                                 Funds Put
                                           Status                                          Number             to Better Use1
                                                                                                             ($ in thousands)
  DoD IG
        Action in Progress - Beginning of Period                                              166                         $0
        Action Initiated - During Period                                                       61                   $36,9001
        Action Completed - During Period                                                       67                   $25,8762
        Action in Progress - End of Period                                                    160                         $03
  Military Departments
        Action in Progress - Beginning of Period                                              525                 7,543,305
        Action Initiated - During Period                                                      103                 2,159,116
        Action Completed - During Period                                                      113                 1,483,734
        Action in Progress - End of Period                                                    515                 6,913,341

  1.	   DoD IG opened audit reports during the period involving $3.3 million in “questioned costs.”

  2.	   Included are recouped “questioned costs” of $13.4 million.

  3.	   On certain reports with audit estimated monetary benefits of $23.5 billion, we agreed that the resulting monetary
        benefits can only be estimated after completion of management action, which is ongoing.

  ◊	Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix, Section 5(b)(2) & (3).




                                                                                                      OCTOBER 1, 2013 TO MARCH 31, 2014 │ 95
Appendix D


         CONTRACT AUDIT REPORTS ISSUED1
                                                                                  Dollars          Questioned            Funds Put to
                        Type of Audit2                   Reports Issued         Examined               Costs3             Better Use
                                                                              ($ in millions)     ($ in millions)       ($ in millions)
           Incurred Costs, Ops Audits, Special Audits           1,419           $27,553.8             $1,305.6                   $3.84
           Forward Pricing Proposals                              511           $22,358.2                   ---              $1,822.55
           Cost Accounting Standards                              331                 $9.1               $22.2                      ---
           Defective Pricing                                         6            (Note 6)               $62.8                      ---
           Totals                                               2,267           $49,921.1            $1,390.6                $ 1,826.3

         Note 1. This schedule represents Defense Contract Audit Agency (DCAA) contract audit reports issued during the six months
         ended March 31, 2014. This schedule includes any audits that DCAA performed on a reimbursable basis for other Government
         agencies and the associated statistics may also be reported in other office of inspectors’ general (OIGs)’ Semiannual Reports
         to Congress. Both “Questioned Costs” and “Funds Put to Better Use” represent potential cost savings. Because of limited
         time between availability of management information system data and legislative reporting requirements, there is minimal
         opportunity for DCAA to verify the accuracy of reported data. Accordingly, submitted data is subject to change based on
         subsequent DCAA authentication. In prior semiannual reporting periods, DCAA reported the total number of assignments
         completed. The total number of assignments completed during the six months ended March 31, 2014 was 5,782. Some
         completed assignments do not result in a report issued because they are part of a larger audit or because the scope of the work
         performed does not constitute an audit or attestation engagement under generally accepted Government auditing standards, so
         the number of audit reports issued is less than the total number of assignments completed.

         Note 2. This schedule represents audits performed by DCAA summarized into four principal categories, which are defined as:
           •	 Incurred Costs – Audits of direct and indirect costs charged to Government contracts to determine that the costs are
              reasonable, allocable, and allowable as prescribed by the Federal Acquisition Regulation, Defense Federal Acquisition
              Regulation Supplement, and provisions of the contract. Also included under incurred cost audits are Operations Audits,
              which evaluate a contractor’s operations and management practices to identify opportunities for increased efficiency and
              economy; and Special Audits, which include audits of terminations and claims.
           •	 Forward Pricing Proposals – Audits of estimated future costs of proposed contract prices, proposed contract change orders,
              costs for redeterminable fixed-price contracts, and costs incurred but not yet covered by definitized contracts.
           •	 Cost Accounting Standards (CAS) – A review of a contractor’s cost impact statement required due to changes to disclosed
              practices, failure to consistently follow a disclosed or established cost accounting practice, or noncompliance with a CAS
              regulation.
           •	 Defective Pricing – A review to determine whether contracts are based on current, complete and accurate cost or pricing
              data (the Truth in Negotiations Act).

         Note 3. Questioned costs represent costs that DCAA has questioned because they do not comply with rules, regulations, laws,
         and/or contractual terms.

         Note 4. Represents recommendations associated with Operations Audits where DCAA has presented to a contractor that funds
         could be used more effectively if management took action to implement cost reduction recommendations.

         Note 5. Represents potential cost reductions that may be realized during contract negotiations.

         Note 6. Defective pricing dollars examined are not reported because the original value was included in the audits associated
         with the original forward pricing proposals.

            ◊	Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix, Section 8(f)(1).




96 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                               Appendix E


STATUS OF ACTION ON POST-AWARD
CONTRACTS1
                                                                               Costs Questioned6           Costs Sustained7
                                                 Number of Reports
                                                                                 ($ in millions)            ($ in millions)
Open Reports
      Within Guidelines2                                 526                        $2,382.1                             N/A8
      Overage, greater than 6 months3                    688                        $4,652.8                             N/A
      Overage, greater than 12 months   4
                                                         533                        $2,492.5                             N/A
      In Litigation   5
                                                         144                        $1,719.2                             N/A
Total Open Reports                                     1,891                       $11,246.6                             N/A
Closed Reports                                           515                        $1,022.7                   463.0 (45.3%)9
All Reports                                            2,406                       $12,269.3

1.	   This schedule represents the status of Defense Contract Audit Agency reports on incurred costs, defective pricing,
      equitable adjustments, accounting and related internal control systems, and noncompliances with the Cost Accounting
      Standards as reported by DoD Components. The status of action on significant post-award contract audits is reported
      in accordance with DoD Instruction 7640.02, “Policy for Follow-up on Contract Audit Reports”. Because of limited time
      between availability of the data and reporting requirements, there is minimal opportunity to verify the accuracy of the
      reported data.

2.	   These reports are within the time frames established by Office of Management Budget (OMB) Circular A-50, “Audit
      Follow-up”, and DoD Instruction 7640.02 as described in footnotes 3 and 4 below.

3.	   OMB Circular A-50 requires that audit reports be resolved within 6 months after report issuance. Generally, an audit is
      resolved when the contracting officer determines a course of action which is documented and approved in accordance
      with agency policy.

4.	   DoD Instruction 7640.02 states that audit reports are overage if not dispositioned within 12 months from date of
      issuance. Generally, disposition is achieved when the contractor implements audit recommendations, the contracting
      officer negotiates a settlement with the contractor, or the contracting officer issues a final decision pursuant to the
      Disputes Clause.

5.	   Of the 144 reports in litigation, 35 are under criminal investigation.

6.	   Cost Questioned represents the amount of audit exception, potential cost avoidance, or recommended price adjustment
      in the audit report.

7.	   Cost Sustained represent the questioned costs, potential cost avoidance, or recommended price adjustment sustained
      by the contracting officer.

8.	   N/A (not applicable). Cost Sustained occurs when an audit report has been dispositioned (closed) during the reporting
      period and as a result would not be applicable when reporting data on open reports.

9.	   Contracting officers sustained $463 million (45.3 percent) of the $1,022.7 million questioned as a result of significant
      post-award contract audits during the period. The contracting officer sustention rate of 45.3 percent represents an
      increase from the sustention rate of 42.5 percent for the prior reporting period.

◊	Fulfills requirement of DoD Instruction 7640.02, “Policy for Follow-up on Contract Audit Reports”, Enclosure 2,
  Section (1)(d).




                                                                                                      OCTOBER 1, 2013 TO MARCH 31, 2014 │ 97
Appendix F


         STATUS OF REPORTS WITH
         ACTION PENDING1
         Report: D-2006-077, DoD Personnel Security                           Report: D-2009-028, Organizational Structure and
         Clearance Process at Requesting Activities,                          Managers’ Internal Control Program for the Assistant
         04/19/2006                                                           Secretary of Defense (Public Affairs) and American
         Description of Action: Updating DoD Personnel                        Forces Information Service, 12/10/2008
         Security Clearance Program policies to include                       Description of Action: Investigate potential misuse of
         information on investigative responsibilities, security              funds, improper contracting, and statutory violations.
         clearance systems, submission processes, levels of                   Reason Action Not Completed: The formal
         security clearances, and training requirements.                      Antideficiency Act Violation Investigation is ongoing.
         Reason Action Not Completed: Office of Management                    Principal Action Office: Assistant Secretary of Defense
         and Budget (OMB) delayed publication of DoD                          (Public Affairs)
         Instruction 5200.2 as a final rule three times following
         DoD’s submission to OMB in September 2012. Finally                   Report: D-2009-030, Marine Corps Implementation of
         cleared February 24, 2014 and published March 21,                    the Urgent Universal Needs Process for Mine Resistant
         2014. Submission to OMB on Volumes I and II of                       Ambush Protected Vehicles, 12/08/2008
         related DoD Manual is targeted for June 2014 and                     Description of Action: Report is For Official Use Only.
         January 2015, respectively. Promulgation will also                   Reason Action Not Completed: The Marine Corps
         be contingent on OMB clearance. Air Force guidance                   action was on hold pending Joint Staff issuing revised
         delayed due to increased workload supporting new                     guidance. Joint Staff issued revised guidance in
         personnel security efforts. Estimated completion date                January 2012. The Marine Corps has not yet updated
         is November 2014. Army Regulation 380-67 on hold                     their guidance.
         by Army Judge Advocate General pending publication                   Principal Action Office: Marine Corps
         of revised DoD guidance.
         Principal Action Office: Under Secretary of Defense                  Report: D-2009-062, Internal Controls Over DoD Cash
         for Intelligence, Army, Air Force                                    and Other Monetary Assets, 03/25/2009
                                                                              Description of Action: Improve internal controls
         Report: D-2008-089, Planning Armor Requirements                      over cash and other monetary assets by establishing
         for the Family of Medium Tactical Vehicles (FMTV),                   a special control account, developing policies and
         05/09/2008                                                           procedures, and monitoring cash usage. Develop non-
         Description of Action: Update the capabilities                       cash methods of payment for contingency operations.
         documents for the Family of Medium Tactical Vehicles                 Reason Action Not Completed: Corrective actions
         to include armor kit requirements.                                   cannot be implemented until coordination with
         Reason Action Not Completed: Although action was                     the Office of Management and Budget and/
         initiated in late 2008, the Army has yet to establish                or the Department of the Treasury is complete.
         validated armor kit requirements for the Family of                   Extensive coordination needed between DoD and
         Medium Tactical Vehicles.                                            its Components, and with the Treasury and Office of
         Principal Action Office: Army                                        Management and Budget.
                                                                              Principal Action Office: Under Secretary of Defense
         Report: D-2008-090, Controls Over Reconciling Army                   (Comptroller), Defense Finance and Accounting
         Working Capital Fund Inventory Records, 05/13/2008                   Service
         Description of Action: The Army is working to
         update system capabilities for annual and end-of-day                 Report: D-2009-064, FY 2007 DoD Purchases Made
         inventory reconciliations.                                           Through the National Institutes of Health, 03/24/2009
         Reason Action Not Completed: Requested systems                       Description of Action: Develop mandatory training
         changes to the Logistics Modernization Program are                   to address how the rules and regulations governing
         expected to be released this Spring.                                 multiple-award contracts differ from those governing
         Principal Action Office: Army                                        the General Services Administration’s Federal Supply


           1.	   For this reporting period, there were disallowed costs of $28.4 million on reports over 12 months old with final
                 action pending.



98 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                 Appendix F

Schedules, including the award and administration of      Report: D-2010-026, Joint Civilian Orientation
task and delivery orders.                                 Conference (JCOC) Program, 12/09/2009
Reason Action Not Completed: Updating policy              Description of Action: Update DoD Instruction
and in-processing Federal Acquisition Regulation          5410.19 to clarify how to administer and manage the
changes takes time. Developing training materials to      Joint Civilian Orientation Conference program.
be consistent with the Federal Acquisition Regulation     Reason Action Not Completed: A rewrite of DoD
changes also takes time.                                  Instruction 5410.19 is underway.
Principal Action Office: Under Secretary of Defense       Principal Action Office: Assistant Secretary of Defense
for Acquisition, Technology, and Logistics                (Public Affairs)

Report: D-2009-098, Status of the Defense Emergency       Report: D-2010-028, Rapid Acquisition and Fielding of
Response Fund in Support of the Global War on             Materiel Solutions by the Navy, 12/15/2009
Terror, 07/30/2009                                        Description of Action: Report is For Official Use Only.
Description of Action: Review the Fund for Global         Reason Action Not Completed: Long-term corrective
War on Terrorism obligations and deobligate all           actions are ongoing.
unliquidated obligations, withdraw all excess funds       Principal Action Office: Navy
provided to the DoD Components, and transfer the
funds to the U.S. Treasury. Revise DoD Financial          Report: D-2010-043, Deferred Maintenance and
Management Regulation guidance to eliminate               Carryover on the Army Abrams Tank, 3/2/2010
confusion between the two appropriations, Defense         Description of Action: Report is For Official Use Only.
Emergency Response Fund and Emergency Response            Reason Action Not Completed: The proposed change
Fund, Defense.                                            has been incorporated into the revised Financial
Reason Action Not Completed: Extensive time               Management Regulation, issuance of which is now
needed to coordinate deobligation of unliquidated         expected in September 2014.
obligations, withdrawal of excess funds, and              Principal Action Office: Under Secretary of Defense
transference of funds to U.S. Treasury; and update        (Comptroller)
DoD Financial Management Regulation guidance.
Principal Action Office: Under Secretary of Defense       Report: D-2010-051, Defense Contract Management
(Comptroller)                                             Agency Acquisition Workforce for Southwest Asia,
                                                          04/08/2010
Report: D-2010-015, DoD Civil Support During the          Description of Action: Revise DoD Instruction
2007 and 2008 California Wildland Fires, 11/13/2009       5000.66 to require military departments and defense
Description of Action: Update DoD guidance to add         agencies to develop guidance to identify acquisition,
clarity to the process of staffing Federal Emergency      technology and logistics workforce requirements
Management Agency mission assignments, on the             in accordance with other DoD instructions and the
legal employment of surveillance by DoD assets            Financial Management Regulation.
providing assistance to civil authorities, and on         Reason Action Not Completed: Extensive time
specific events for command and control handoff           required to revise and coordinate instructions/
guidance.                                                 guidance.
Reason Action Not Completed: Extensive time               Principal Action Office: Under Secretary of Defense
required to develop, coordinate and implement the         for Acquisition, Technology, and Logistics
guidance.
Principal Action Office: Under Secretary of Defense       Report: D-2010-065, Validity and Security of Selected
(Comptroller)                                             DoD Civilian Employee Accounts, 05/25/2010
                                                          Description of Action: Report is Classified
Report: D-2010-024, Contracted Advisory and               Reason Action Not Completed: Extensive time
Assistance Services for the U.S. Army Future Combat       required to establish policies and procedures to
Systems, 11/24/2009                                       conduct periodic assurance reviews for identifying
Description of Action: Report is For Official Use Only.   potentially invalid accounts and applying corrections.
Reason Action Not Completed: Extensive time               Principal Action Office: Defense Finance and
required to coordinate and issue guidance.                Accounting Service
Principal Action Office: Under Secretary of Defense
for Acquisition, Technology, and Logistics




                                                                                         OCTOBER 1, 2013 TO MARCH 31, 2014 │ 99
Appendix F

         Report: D-2010-078, Air Force Use of Time-and-            Report: D-2011-060, Marine Corps Inventory of Small
         Materials Contracts in Southwest Asia, 08/16/2010         Arms Was Generally Accurate but Improvements
         Description of Action: The Air Force Center for           Are Needed for Related Guidance and Training,
         Engineering and the Environment requested Defense         04/22/2011
         Contract Audit Agency audit assistance and will obtain    Description of Action: Update Marine Corps Order
         reimbursements for incorrect charges with attention       8300.1C to include additional guidance for small arms
         to $24.3 million for labor charges invoiced by the        accountability.
         contractors but not authorized by the task orders.        Reason Action Not Completed: Competing
         Reason Action Not Completed: The Defense Contract         management priorities.
         Audit Agency work is ongoing and the contracting          Principal Action Office: Navy
         officer was to review $3.3 million in Defense Contract
         Audit Agency identified questioned costs.                 Report: D-2011-061, Excess Inventory and Contract
         Principal Action Office: Air Force                        Pricing Problems Jeopardize the Army Contract with
                                                                   Boeing to Support the Corpus Christi Army Depot,
         Report: D-2010-081, Army Use of Time-and-Materials        05/03/2011
         Contracts in Southwest Asia, 08/27/2010                   Description of Action: Establish a formal
         Description of Action: The Army Contracting               memorandum of agreement between the Corpus
         Command (ACC) will establish a plan for reviewing         Christi Army Depot, Aviation and Missile Command
         invoices for 18 contracts, and will request Defense       Integrated Material Management Center, Defense
         Contract Audit Agency (DCAA) assistance. ACC-             Logistics Agency and Boeing for dealing with excess
         Aberdeen Proving Ground and White Sands Missile           DoD inventory.
         Range will review contracts and task orders. DCAA         Reason Action Not Completed: Long-term corrective
         will conduct incurred cost audits on the contractor for   actions are still ongoing.
         FY 2006 and FY 2007. ACC will pursue a refund from        Principal Action Office: Army
         the contractor, if appropriate.
         Reason Action Not Completed: The ACC and DCAA             Report: D-2011-077, Improved Management Can
         have not completed reviews of task orders and audits      Reduce Costs of the Maintenance, Repair, and
         of incurred costs.                                        Operations Prime Vendor Contract for the Republic of
         Principal Action Office: Army                             Korea, 06/24/2011
                                                                   Description of Action: Report is For Official Use Only.
         Report: D-2011-028, Contract Oversight for the            Reason Action Not Completed: The final award
         Broad Area Maritime Surveillance Contract Needs           decision documents are now in review and an award
         Improvement, 12/23/2010                                   will be made by April 30, 2014.
         Description of Action: Develop an agency                  Principal Action Office: Defense Logistics Agency
         improvement policy that will require all letters
         of delegation be modified to include necessary            Report: D-2011-080, DoD and DoS Need Better
         surveillance and inspection requirements.                 Procedures to Monitor and Expend DoD Funds for the
         Reason Action Not Completed: Extensive time               Afghan National Police Training Program, 07/07/2011
         required to develop and coordinate guidance.              Description of Action: The Defense Contract Audit
         Principal Action Office: Defense Contract                 Agency will conduct audit work to verify that DynCorp
         Management Agency                                         did not double-bill claimed costs under DoD and
                                                                   Department of State contracts from December 30,
         Report: D-2011-037, Marine Corps Response to              2010, through July 15, 2011.
         Nonlethal Laser Dazzler Urgent Request, 02/09/2011        Reason Action Not Completed: Corrective actions are
         Description of Action: Perform a review of the            on-going and on schedule.
         circumstances that led to the purchase of the 28          Principal Action Office: Defense Contract Audit
         Compact High Power Laser Dazzlers and initiate            Agency
         administrative action, if appropriate.
         Reason Action Not Completed: Competing                    Report: D-2011-083, Additional Actions Can Further
         management priorities.                                    Improve the DoD Suspension and Debarment Process,
         Principal Action Office: Navy                             07/14/2011
                                                                   Description of Action: Develop a training program to
                                                                   inform contracting personnel of the suspension and




100 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                 Appendix F

debarment program and the process for referring           Report: D-2011-106, The Department of the Navy
poorly performing contractors.                            Spent Recovery Act Funds on Photovoltaic Projects
Reason Action Not Completed: Long-term corrective         That Were Not Cost-Effective, 09/22/2011
actions are in process.                                   Description of Action: Develop comprehensive policy
Principal Action Office: Under Secretary of Defense       for planning, prioritizing, selecting, and executing
for Acquisition, Technology, and Logistics                cost-effective shore energy projects in accordance
                                                          with DoD and Federal requirements.
Report: D-2011-089, Reducing Vulnerabilities at           Reason Action Not Completed: The Navy and
the Defense Information Systems Agency Defense            the Marine Corps are developing planning and
Enterprise Computing Centers, 07/22/2011                  implementation guidance.
Description of Action: Report is For Official Use Only.   Principal Action Office: Navy, Marine Corps
Reason Action Not Completed: Extensive time
required to coordinate and implement corrective           Report: D-2011-111, Guidance for Petroleum War
actions.                                                  Reserve Stock Needs Clarification, 09/27/2011
Principal Action Office: Defense Information Systems      Description of Action: The Report is Classified.
Agency                                                    Reason Action Not Completed: Corrective actions are
                                                          on schedule.
Report: D-2011-090, Cost of War Data for Marine           Principal Action Office: Under Secretary of Defense
Corps Contingency Operations Were Not Reliable,           for Acquisition, Technology, and Logistics
07/22/2011
Description of Action: Update Marine Corps Order          Report: D-2011-115, DoD Cannot Ensure Contractors
7300.21A ““Marine Corps Financial Management              Protected Controlled Unclassified Information for
Standard Operating Procedure Manual,” October 2,          Weapon Systems Contracts, 09/30/2011
2008.                                                     Description of Action: Report is For Official Use Only.
Reason Action Not Completed: The publication of           Reason Action Not Completed: Significant public
updated Marine Corps Order 7300.21B was delayed           comments required additional time to adjudicate.
to allow for the publication of the Consumer-Level        Principal Action Office: Under Secretary of Defense
Supply Policy (Marine Corps Order 4400.150), which        for Acquisition, Technology, and Logistics
was finally published on January 14, 2014.
Principal Action Office: Navy                             Report: DODIG-2012-004, Changes Are Needed to
                                                          the Army Contract With Sikorsky to Use Existing DoD
Report: D-2011-096, Improvements Are Needed               Inventory and Control Costs at the Corpus Christi
to the DoD Information Assurance Vulnerability            Army Depot, 11/03/2011
Management Program, 08/12/2011                            Description of Action: Army will develop a plan
Description of Action: Report is For Official Use Only.   to improve use of existing inventory and source
Reason Action Not Completed: Extensive time               of supply; will obtain refunds from Sikorsky for a
required to revise and coordinate policy guidance.        materiel cost reduction incentive and for excessive
Principal Action Office: DoD Chief Information Officer,   profits on purchases from Defense Logistics Agency;
U.S. Strategic Command                                    and contracting personnel will improve contracts
                                                          related to materiel cost reduction incentives and
Report: D-2011-104, Pricing and Escalation Issues         purchases from Defense Logistics Agency to prevent
Weaken the Effectiveness of the Army Contract With        Sikorsky from making excessive profits.
Sikorsky to Support the Corpus Christi Army Depot,        Reason Action Not Completed: Long-term corrective
09/08/2011                                                actions are on-going.
Description of Action: The Defense Contract               Principal Action Office: Army
Management Agency will identify the Sikorsky
purchasing system as high risk and perform a review       Report: DODIG-2012-006, Counter Narcoterrorism
to determine improvements that can be made. Army          Technology Program Office (CNTPO) Task Orders Had
will improve contracting procedures for pricing and       Excess Fees, and the Army Was Incorrectly Billed,
procurement, and obtain refunds from Sikorsky for         11/01/2011
pricing and excessive escalation.                         Description of Action: The U.S. Army Space and
Reason Action Not Completed: A Department of              Missile Command contracting office will complete
Justice investigation is on-going.                        their final review of excess fixed fees in the amount
Principal Action Office: Defense Contract                 of $20,000 and will negotiate a return of the funds, if
Management Agency, Army                                   appropriate.


                                                                                        OCTOBER 1, 2013 TO MARCH 31, 2014 │ 101
Appendix F

         Reason Action Not Completed: Ten correction              broader effort to review and modify the Department’s
         modifications have been made and two remain to be        profit guidelines.
         executed.                                                Principal Action Office: Under Secretary of Defense
         Principal Action Office: Army                            for Acquisition, Technology, and Logistics

         Report: DODIG-2012-007, Acquisition of the Multi-        Report: DODIG-2012-050, Improvements Needed
         Platform Radar Technology Insertion Program Needs        With Host-Based Intrusion Detection Systems,
         Transparency and Accountability, 11/02/2011              02/03/2012
         Description of Action: Direct the Air Force to update    Description of Action: Report is For Official Use Only.
         the Acquisition Strategy before Milestone C, submit      Reason Action Not Completed: Multiple systems and
         a Capability Production Document in the Acquisition      configuration processes that are needed are ongoing.
         Decision Memorandum, and update the Multi-               Principal Action Office: U.S. Strategic Command,
         Platform Radar Technology Insertion Program/Global       Defense Information Systems Agency
         Hawk Block 40 Test and Evaluation Master Plan.
         Reason Action Not Completed: Corrective actions are      Report: DODIG-2012-064, Vulnerability and Risk
         ongoing.                                                 Assessments Needed to Protect Defense Industrial
         Principal Action Office: Under Secretary of Defense      Base Critical Assets, 03/13/2012
         for Acquisition, Technology, and Logistics               Description of Action: Report is For Official Use Only.
                                                                  Reason Action Not Completed: Corrective actions are
         Report: DODIG-2012-017, U.S. Naval Academy (USNA)        on schedule.
         Officials Did Not Adhere to Contracting and Gift         Principal Action Office: Under Secretary of Defense
         Policies, 11/07/2011                                     for Policy
         Description of Action: The U.S. Naval Academy will
         revise guidance, improve controls, and implement         Report: DODIG-2012-066, General Fund Enterprise
         computer software systems covering in-kind gifts and     Business System Did Not Provide Required Financial
         sponsorship funds.                                       Information, 03/26/2012
         Reason Action Not Completed: Corrective actions are      Description of Action: Implement corrective actions
         ongoing.                                                 to address the Standard Financial Information
         Principal Action Office: Navy                            Structure gaps as reported in the General Fund
                                                                  Enterprise Business System.
         Report: DODIG-2012-036, DoD Needs to Improve             Reason Action Not Completed: Extensive time
         Accountability and Identify Costs and Requirements       required to coordinate and implement corrective
         for Non-Standard Rotary Wing Aircraft, 01/05/2012        actions.
         Description of Action: Develop a departmental            Principal Action Office: Army
         directive that establishes and implements policy for
         Service and Component airworthiness programs.            Report: DODIG-2012-072, FY 2010 DoD Purchases
         Reason Action Not Completed: Corrective actions are      Made Through the Department of the Interior (DoI),
         on schedule.                                             04/13/2012
         Principal Action Office: Under Secretary of Defense      Description of Action: The Under Secretary of
         for Acquisition, Technology, and Logistics               Defense for Acquisition, Technology and Logistics will
                                                                  issue contracting guidance to DoD that establishes
         Report: DODIG-2012-039, Summary Report on DoD’s          procedures for approving contracting actions when
         Management of Undefinitized Contractual Actions,         using other Federal agencies contracts to make
         01/13/2012                                               purchases for DoD.
         Description of Action: Develop a transparent             Reason Action Not Completed: The DoD has not yet
         means to document incurred costs and reduced             completed the policy memorandum for contracting
         cost risk related to substantial incurred costs during   guidance.
         undefinitized periods.                                   Principal Action Office: Under Secretary of Defense
         Reason Action Not Completed: The original Defense        for Acquisition, Technology, and Logistics
         Federal Acquisition Regulation Supplement case
         has been subsumed under a new Defense Federal
         Acquisition Regulation Supplement case to address a




102 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                              Appendix F

Report: DODIG-2012-081, Defense Contract                Report: DODIG-2012-090, Information Security
Management Agency Contract Support to the Navy          Controls Over the Defense Enrollment Eligibility
Organic Airborne and Surface Influence Sweep            Reporting System, 05/22/2012
Program, 04/27/2012                                     Description of Action: Report is For Official Use Only.
Description of Action: Navy will review the             Reason Action Not Completed: Corrective actions are
other programs of Littoral Combat Ship portfolio        on schedule.
to determine whether program managers are               Principal Action Office: Under Secretary of Defense
maximizing the use of Defense Contract Management       for Personnel and Readiness
Agency services.
Reason Action Not Completed: Corrective actions are     Report: DODIG-2012-098, Defense Logistics Agency’s
in process.                                             Procurement Automated Contract Evaluation (PACE)
Principal Action Office: Navy                           System, 06/05/2012
                                                        Description of Action: Report is For Official Use Only.
Report: DODIG-2012-082, DoD Can Improve Its             Reason Action Not Completed: One recommendation
Accounting for Residual Value From the Sale of U.S.     under mediation.
Facilities in Europe, 05/04/2012                        Principal Action Office: Defense Logistics Agency
Description of Action: The Comptroller has obligated
$5.1 million of a $6.8 million unobligated balance      Report: DODIG-2012-099, Adequate Contract Support
in the DoD Overseas Military Facilities Investment      and Oversight Needed for the Tactical Wheeled
Recovery Account. The Under Secretary of Defense        Vehicle Maintenance Mission in Kuwait, 06/01/2012
for Acquisition, Technology and Logistics will revise   Description of Action: Report is For Official Use Only.
guidance to accommodate new legislation and require     Reason Action Not Completed: Corrective actions are
that future residual value settlement negotiations      on schedule.
analyze and document how the settlement was             Principal Action Office: Army
determined.
Reason Action Not Completed: The corrective actions     Report: DODIG-2012-102, Cost-Control Measures Are
are being implemented on schedule.                      Needed on the Army’s Cost-Reimbursable Services
Principal Action Office: Under Secretary of Defense     Contract for Logistics Support of Stryker Vehicles,
(Comptroller), Under Secretary of Defense for           06/18/2012
Acquisition, Technology, and Logistics                  Description of Action: Revise Army Regulation
                                                        700-127 to require the use of all necessary DoD
Report: DODIG-2012-083, Additional Guidance and         overarching total life-cycle systems management
Training Needed to Improve Afghan National Army         metrics in performance-based logistics contracts to
Pharmaceutical Distribution, 05/07/2012                 effectively ensure desired outcomes.
Description of Action: Develop a new course that        Reason Action Not Completed: Extensive time
will provide pharmacy technicians with the logistics    required to coordinate and issue guidance.
training needed to perform their jobs and help          Principal Action Office: Army
improve the pharmaceutical distribution process.
Reason Action Not Completed: Time needed to             Report: DODIG-2012-104, DoD Needs to Improve
develop new a training module for the Pharmacy          Vocational Training Efforts to Develop the Afghan
Technician Training Course and update policy changes.   National Security Forces Infrastructure Maintenance
Principal Action Office: U.S. Central Command           Capabilities, 06/18/2012
                                                        Description of Action: The Combined Security
Report: DODIG-2012-087, Logistics Modernization         Transition Command-Afghanistan will execute
Program System Procure-to-Pay Process Did Not           existing transition strategy initiatives and develop
Correct Material Weaknesses, 05/29/2012                 new initiatives to accelerate development of Afghan
Description of Action: Develop a plan of action and     National Security Forces infrastructure maintenance
milestones to bring the Logistics Modernization         capabilities.
Program system into compliance with the DoD             Reason Action Not Completed: Time needed to revise
Business Enterprise Architecture Procure-to-Pay         and staff the lnfrastructure Training Advisory Team
business rules.                                         Campaign Plan.
Reason Action Not Completed: Long-term corrective       Principal Action Office: U.S. Central Command
actions are still ongoing.
Principal Action Office: Army



                                                                                     OCTOBER 1, 2013 TO MARCH 31, 2014 │ 103
Appendix F

         Report: DODIG-2012-107, Data and Processes                Description of Action: The Defense Contract Audit
         supporting the Fund Balance with Treasury                 Agency will coordinate with the Army contracting
         Reconciliation for Other Defense Organizations,           officer to implement procedures for reviewing
         07/09/2012                                                vouchers and verifying that the contractor does not
         Description of Action: Develop a systems                  receive reimbursement for potentially unallowable
         infrastructure that will allow: retrieval of detailed     costs.
         transactions that support open appropriations;            Reason Action Not Completed: Defense Contract
         reconciliations between transactions supporting the       Audit Agency action is on-going and on schedule.
         amounts on the Cash Management Report and Other           Principal Action Office: Defense Contract Audit
         Defense Organizations’ accounting systems; and            Agency
         monthly transaction level reconciliations for the Other
         Defense Organizations. Also, develop an agreement         Report: DODIG-2012-117, General Fund Enterprise
         that designates responsibility for remediating            Business System Project Office Contract Modifications,
         transactions that have remained unmatched since           08/14/2012
         2007.                                                     Description of Action: DoD Acquisition and Logistics
         Reason Action Not Completed: Long-term corrective         officials established a working group to review
         actions are still ongoing.                                acquisition policy related to Economy Act and non-
         Principal Action Office: Defense Finance and              Economy Act interagency acquisitions. The group
         Accounting Service                                        will address the recommendation regarding the use
                                                                   of either a reimbursement process or a direct cite
         Report: DODIG-2012-110, Better Oversight Needed           when establishing Economy Act orders with non-
         for the National Guard’s Weapons of Mass Destruction      DoD agencies; and the recommendation to include
         Civil Support Teams, 07/02/2012                           procedures for properly monitoring interagency
         Description of Action: The Director, National Guard       acquisitions. U.S. Forces-Afghanistan is updating
         Bureau-J3, will develop a written oversight plan          procedures and establishing controls over the
         that verifies compliance with mission reporting           development and monitoring of Economic Act orders.
         requirements and provides feedback to Weapons of          Reason Action Not Completed: Long-term corrective
         Mass Destruction Civil Support Teams on omissions         actions are in process.
         and errors.                                               Principal Action Office: Under Secretary of Defense
         Reason Action Not Completed: Time required to             for Acquisition, Technology, and Logistics, U.S. Central
         convert all National Guard Bureau issued instructions     Command
         to Chief, National Guard Bureau issued policy and
         manuals.                                                  Report: DODIG-2012-119, Combatant Command
         Principal Action Office: National Guard Bureau            Disaster Relief Operations, 08/14/2012
                                                                   Description of Action: Implement best practices
         Report: DODIG-2012-112, Reporting the Daily               for disaster relief in key areas, such as command
         Location of Deployed Service Members Generally            procedures, information sharing, phase-zero activities,
         Adequate; However, the Navy Needed Improvement,           and dissemination of lessons learned.
         07/18/2012                                                Reason Action Not Completed: U.S. European
         Description of Action: Task the appropriate               Command will review Disaster Relief Plans from other
         commands to establish roles and responsibilities for      Combatant Commands and utilize concepts, ideas and
         implementing daily location reporting for deployed        best practices from those plans that are compatible
         Service members required by DoD Instruction               and effective into European Command plans.
         6490.03, “Deployment Health.”                             Principal Action Office: U.S. European Command
         Reason Action Not Completed: The Chief of Naval
         Operations is developing a plan of action and             Report: DODIG-2012-122, DoD Should Procure
         milestones outlining the way to achieve compliance        Compliant Physical Access Control Systems to Reduce
         with the location reporting requirements.                 the Risk of Unauthorized Access, 08/29/2012
         Principal Action Office: Navy                             Description of Action: Require each office
                                                                   implementing Homeland Security Presidential
         Report: DODIG-2012-115, Improved Oversight, but           Directive-12 to provide full oversight and
         No Invoice Reviews and Potential Antideficiency Act       accountability. Require Services and DoD agencies
         Violation May Have Occurred on the Kuwait Observer        to report to the Under Secretary of Defense for
         Controller Team Task Orders, 08/02/2012                   Personnel and Readiness on the status of their efforts.



104 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                   Appendix F

Report on facilities’ physical access control systems       Report: DODIG-2012-131, Improvements Needed
compliance with Federal Information Processing              in How the Defense Finance and Accounting Service
Standard 201. Require the completion of site                Adjusts and Supports Billing Rates, 09/19/2012
surveys that address all mission requirements and           Description of Action: The Under Secretary of
infrastructure limitations.                                 Defense Comptroller/Chief Financial Officer
Reason Action Not Completed: The Under Secretary            is updating the DoD Financial Management
of Defense for Personnel and Readiness will hold            Regulation to clarify and strengthen the guidance on
meetings to address the responsibilities of each            management-directed Accumulated Operating Results
Homeland Security Presidential Directive-12 Office          reductions.
of the Secretary of Defense Principal Staff Assistant.      Reason Action Not Completed: Long-term corrective
The Under Secretary of Defense for Personnel and            actions are in process.
Readiness will work with each Principal Staff Assistant     Principal Action Office: Under Secretary of Defense
to ensure compliance with requirements and request          (Comptroller)
an annual update regarding their efforts. All DoD
Components will be directed to use the Defense              Report: DODIG-2012-132, Audit of Justification and
Property Accountability System to inventory and             Planning for Project Repair Fire Station Building 106,
manage physical access control systems and physical         Naval Station Great Lakes, 09/14/2012
access control equipment. A directive paragraph will        Description of Action: Identify existing deficiencies,
be included in the Navy Physical Security and Law           such as those identified in this report related to
Enforcement Policy to include the requirement for           the unified facilities criteria and quality of life,
installation officials to be included in the site survey.   and implement appropriate actions to correct the
Headquarter Marine Corps coordination of working            deficiencies.
groups is ongoing to address required support to the        Reason Action Not Completed: Of the 26 items
integrated assessment team and to identify specific         noted, 19 now have been closed, 5 are in progress
information, requirements, and standards that will be       and two are listed for future funding.
compiled during the site visits.                            Principal Action Office: Navy
Principal Action Office: Under Secretary of Defense
for Personnel and Readiness, Under Secretary of             Report: DODIG-2012-135, Counter Narcoterrorism
Defense for Intelligence, Navy, Marine Corps                Technology Program Office’s Mi-17 Overhaul
                                                            Contracts, 09/27/2012
Report: DODIG-2012-125, General Fund Enterprise             Description of Action: Army will consider suspension
Business System Project Office Contract Modifications,      or debarment of a contractor; review analyses of
09/11/2012                                                  costs to ensure correctness; withhold payments to
Description of Action: Army will evaluate the recovery      contractor until costs have been verified as correct;
options advised by the Army Office of General               and establish controls for contracting officers on cost
Counsel, to include a waiver under the equitable            and price analysis, modifications, and documentation
theories of Quantum Merit (the value of services            of fair and reasonable price determinations.
provided) and Quantum Valebant (the value of                Reason Action Not Completed: Corrective actions are
goods).                                                     on schedule
Reason Action Not Completed: Corrective actions are         Principal Action Office: Army
on-going and on schedule.
Principal Action Office: Army                               Report: DODIG-2012-136, Audit of the Department
                                                            of Defense Education Activity Requirements
Report: DODIG-2012-129, General Purpose Forces              Development Process for Military Construction
Enablers Support to Special Operations Forces Works         Contracts in Europe, 09/24/2012
Effectively, but Opportunities Exist for Improvement,       Description of Action: DoD Education Activity will
09/13/2012                                                  conduct a Business Case Analysis and cost estimate
Description of Action: The Report is Classified.            on the 21st Century Education Facilities Specifications
Reason Action Not Completed: Corrective actions are         Initiative that meets applicable standards and
on schedule.                                                guidance.
Principal Action Office: Joint Chiefs of Staff              Reason Action Not Completed: Corrective actions are
                                                            on schedule.




                                                                                          OCTOBER 1, 2013 TO MARCH 31, 2014 │ 105
Appendix F

         Principal Action Office: Under Secretary of Defense      performance indicators; and coordinating to connect
         for Personnel and Readiness                              the performance management framework with
                                                                  the broader ministerial development assessment
         Report: DODIG-2012-137, U.S. Pacific Command’s           framework.
         Petroleum War Reserve Requirements and Stocks,           Reason Action Not Completed: Corrective actions are
         09/26/2012                                               ongoing.
         Description of Action: Revise DoD Manual 4140-25-        Principal Action Office: : Assistant Secretary of
         M, “DoD Management of Bulk Petroleum Products,           Defense for Special Operations and Low-Intensity
         Natural Gas, and Coal,” to include a requirement for     Conflict
         updating the days of supply planning factors at least
         biannually.                                              Report: DODIG-2013-006, Defense Logistics Agency
         Reason Action Not Completed: DoD Directive 4140-         Could Improve Its Oversight of the Maintenance,
         25 and DoD Manual 4140-25-M are expected to be           Repair, and Operations Prime Vendor Contract for
         issued in the 4th Quarter 2014 and 1st Quarter 2015,     Korea, 10/19/2012
         respectively.                                            Description of Action: Report is For Official Use Only.
         Principal Action Office: Under Secretary of Defense      Reason Action Not Completed: The review of
         for Acquisition, Technology, and Logistics               potential overcharges is expected to be completed by
                                                                  this summer.
         Report: DODIG-2012-138, Wholesale Accountability         Principal Action Office: Defense Logistics Agency
         Procedures Need Improvement for the Redistribution
         Property Assistance Team Operations, 09/26/2012          Report: DODIG-2013-007, Award and Administration
         Description of Action: Update performance work           of Multiple Award Contracts at Naval Facilities
         statement to include performance measures for            Engineering Command Specialty Centers Need
         Redistribution Property Assistance Team operations,      Improvement, 10/26/2012
         incorporate updated performance work statement           Description of Action: Require contracting officers to
         into contract.                                           appoint a Navy Technical Representative in writing,
         Reason Action Not Completed: Updated performance         including responsibilities and oversight duties, and
         work statement was not incorporated in existing          require contracting officer to initiate action to recover
         contract because mission was complete. Change in         unsupported other direct costs, unless detailed cost
         acquisition strategy delayed contract re-competition.    support documentation is provided.
         Contract award is expected in June 2014.                 Reason Action Not Completed: Managers have
         Principal Action Office: Army                            been briefed on the report findings and actions are
                                                                  ongoing. The subject vouchers are under review for
         Report: DODIG-2013-002, Improvement Needed               supportability and allowability.
         With DoD Single-Bid Program to Increase Effective        Principal Action Office: Navy
         Competition for Contracts, 10/04/2012
         Description of Action: Conduct a review to identify      Report: DODIG-2013-019, Defense Institution Reform
         single-bid competitive knowledge-based services          Initiative Program Elements Need to Be Defined,
         contracts and develop procedures to monitor the          11/09/2012
         input of single-bid competitive contract data into the   Description of Action: Issue guidance that defines
         Federal Procurement Data System - Next Generation.       the Defense Institution Reform Initiative Program’s
         Reason Action Not Completed: Corrective actions are      mission and goals, program strategy, and performance
         on schedule.                                             measures; defines defense institution building roles
         Principal Action Office: Army                            and responsibilities; and implements procedures that
                                                                  require the coordination of the defense institution
         Report: DODIG-2013-005, Performance Framework            building program’s mission and goals, program
         and Better Management of Resources Needed for the        strategy, and performance measures with other
         Ministry of Defense Advisors Program, 10/23/2012         security cooperation activities.
         Description of Action: Developing a performance          Reason Action Not Completed: Progress is ongoing
         management framework to cover Ministry of                toward development of the recommended guidance.
         Defense Advisors’ program office responsibilities,       Principal Action Office: Under Secretary of Defense
         including advisor recruiting, training, and deployment   for Policy




106 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                 Appendix F

Report: DODIG-2013-025, Accountability Was Missing         Report: DODIG-2013-045, Army Business Systems
for Government Property Procured on the Army’s             Information Technology Strategy Needs Improvement,
Services Contract for Logistics Support of Stryker         02/01/2013
Vehicles, 11/30/2012                                       Description of Action: Develop a comprehensive Army
Description of Action: Properly account for, value,        Business Management Strategy and Implementation
and report all contractor-acquired and Government-         Plan.
owned Stryker inventory.                                   Reason Action Not Completed: Corrective actions are
Reason Action Not Completed: Corrective actions are        on schedule.
on schedule.                                               Principal Action Office: Army
Principal Action Office: Army
                                                           Report: DODIG-2013-046, DoD Does Not Have
Report: DODIG-2013-027, DoD Generally Effective            Visibility Over the Use of Funds Provided to the
at Correcting Causes of Antideficiency Act Violations      Department of Energy, 02/15/2013
in Military Personnel Accounts, But Vulnerabilities        Description of Action: Develop an interim data
Remain, 11/30/2012                                         gathering solution using the Electronic Document
Description of Action: Establish procedures to             Access system as a single data repository.
maintain records documenting corrective actions            Reason Action Not Completed: Corrective actions are
taken for each Antideficiency Act violation for at least   on schedule.
6-years and 3-months.                                      Principal Action Office: Under Secretary of Defense
Reason Action Not Completed: Corrective actions are        for Acquisition, Technology, and Logistics, Under
on schedule.                                               Secretary of Defense (Comptroller)
Principal Action Office: Army, Navy
                                                           Report: DODIG-2013-050, Recovering Organizational
Report: DODIG-2013-035, Better Reporting and               Clothing and Individual Equipment From Civilians
Certification Processes Can Improve Red Teams’             and Contractor Employees Remains a Challenge,
Effectiveness, 12/21/2012                                  02/22/2013
Description of Action: Report is classified.               Description of Action: Implement procedures
Reason Action Not Completed: Corrective actions are        to recover organizational clothing and individual
on schedule.                                               equipment from civilians and contractor employees.
Principal Action Office: Air Force, National Security      Reason Action Not Completed: Long-term corrective
Agency, U.S. Strategic Command                             actions are in process.
                                                           Principal Action Office: Under Secretary of Defense
Report: DODIG-2013-036, Improvements Are Needed            for Acquisition, Technology, and Logistics
to Strengthen the Security Posture of U.S. Army
Corps of Engineers, Civil Works, Critical Infrastructure   Report: DODIG-2013-051, Improvements to Controls
and Industrial Control Systems in the Northwestern         Over Cash Are Needed at the Army Disbursing Office
Division, 01/14/2013                                       at Soto Cano Air Base, Honduras, 03/04/2013
Description of Action: Report is For Official Use Only.    Description of Action: Provide an appropriate security
Reason Action Not Completed: Corrective actions are        container at the Army disbursing office on Soto Cano
on schedule.                                               Air Base, Honduras.
Principal Action Office: Army                              Reason Action Not Completed: Corrective actions are
                                                           on schedule.
Report: DODIG-2013-040, Critical Information Needed        Principal Action Office: U.S. Southern Command
to Determine the Cost and Availability of G222 Spare
Parts, 01/31/2013                                          Report: DODIG-2013-052, Inadequate Contract
Description of Action: Report is For Official Use Only.    Oversight of Military Construction Projects in
Reason Action Not Completed: Air Force needs to            Afghanistan Resulted in Increased Hazards to Life and
develop a plan for the disposition of the G222 aircraft    Safety of Coalition Forces, 03/08/2013
and determine whether any spare parts are needed to        Description of Action: Develop quality assurance
support the disposal plan.                                 surveillance plans for contract task orders and
Principal Action Office: Air Force                         develop procedures to verify that contracting officer’s
                                                           representatives conduct and document appropriate
                                                           surveillance of contractors.




                                                                                        OCTOBER 1, 2013 TO MARCH 31, 2014 │ 107
Appendix F

         Reason Action Not Completed: Corrective actions are                 Reason Action Not Completed: Corrective actions are
         ongoing.                                                            on schedule.
         Principal Action Office: Air Force                                  Principal Action Office: Defense Logistics Agency,
         Report: DODIG-2013-055, Controls Over Wireless                      Under Secretary of Defense (Comptroller)
         Intrusion Detection Systems at the Defense Logistics
         Agency, 03/13/2013                                                  Report: DODIG-2013-059, Air Force Needs Better
         Description of Action: Report is For Official Use Only.             Processes to Appropriately Justify and Manage Cost-
         Reason Action Not Completed: Corrective actions are                 Reimbursable Contracts, 03/21/2013
         on schedule.                                                        Description of Action: Revise current guidance to
         Principal Action Office: Defense Logistics Agency                   eliminate the potential contradictions and clarify
                                                                             the instructions for the use of cost-reimbursable
         Report: DODIG-2013-057, Enterprise Business                         contracts.
         System Was Not Configured to Implement the                          Reason Action Not Completed: Corrective actions are
         U.S. Government Standard General Ledger at the                      on schedule.
         Transaction Level, 03/20/2013                                       Principal Action Office: Under Secretary of Defense
         Description of Action: The Deputy Chief Management                  for Acquisition, Technology, and Logistics, Air Force
         Officer and Deputy Chief Financial Officer will
         establish procedures to validate that pre-certification             Report: DODIG-2013-060, Improvements Needed
         authorities certify the DoD Standard Chart of                       With Tracking and Configuring Army Commercial
         Accounts and all applicable updates. The Deputy Chief               Mobile Devices, 03/26/2013
         Financial Officer will also initiate a working group                Description of Action: Before the end of FY 2014, the
         to determine the best way forward for validating                    Army stated a mobile device management application
         the posting logic within the DoD United States                      would be used to manage mobile devices and would
         Standard General Ledger Transaction Library. The                    be fully operational.
         Defense Logistics Agency will develop appropriate                   Reason Action Not Completed: Corrective actions are
         documentation for verifying DoD Standard Chart of                   on schedule.
         Accounts criteria to be submitted to DoD annually for               Principal Action Office: Army
         Investment Review Board certification.
            ◊	Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix, Section 5(b)(4).




108 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                     Appendix G


SECTION 845 ANNEX AUDIT REPORTS WITH
SIGNIFICANT FINDINGS
DCAA
Audit Report No. 06211-2007C10100004-R1                             Date: November 14, 2013
Subject: Independent Audit of Final Incurred Cost Proposal for Contractor Fiscal Year 2007
Prepared For: Defense Contract Management Agency, Cost and Pricing Center
Report: $75.5 Million Questioned Cost
The audit of the incurred cost proposal resulted in $75.5 million of questioned costs, including the following
significant items: $5.7 million of indirect costs primarily consisting of unallowable conference, meeting, employee
relations, membership expenses, and claimed allocations from other segments in excess of the audit accepted
amounts; $7.4 million of subcontractor labor billed at the time and material hourly rates in the prime contract
instead of at the cost to the prime contractor; and $62.4 million of claimed labor for employees who did not
possess the contract required education or experience.

Audit Report No. 06821-2006F10100001                                Date: October 24, 2013
Subject: Independent Audit of Certified Final Indirect Cost Proposal for Fiscal Year 2006
Prepared For: Defense Contract Management Agency, Corporate Administrative Contracting Officer
Report: $38 Million Questioned Cost
The audit of the indirect cost proposal resulted in $38 million of questioned costs. Significant items of questioned
cost include: $14.2 million of environmental remediation costs in excess of allowable amounts from advance
agreements or that were unreasonable; $9 million of post-retirement benefit expenses in excess of allowable
amounts from advance agreements or that had not been funded in prior periods; $5.4 million of unreasonable
executive compensation; and $4.3 million of unallowable lobbying expenses.

Audit Report No. 02671-2007A10100001                                Date: October 25, 2013
Subject: Independent Audit of Calendar Year 2007 Incurred Costs
Prepared For: Defense Contract Management Agency, Corporate Administrative Contracting Officer
Report: $62.2 Million Questioned Cost
The audit of the incurred cost proposal resulted in $62.2 million of questioned costs. Significant items of
questioned cost include: $17.8 million of state income tax not allocable to Government contracts; $12.4 million
of health insurance costs for ineligible dependents; $7.5 million of unallowable legal costs primarily related to
alleged wrongdoing or contract disputes; $4.4 million in travel and meals primarily due to unallowable premium
air fares or inadequate supporting documentation; and $3.3 million of unreasonable executive compensation.

Audit Report No. 03421-2010J17100802                                Date: October 30, 2013
Subject: Independent Audit of Partial Termination Settlement Proposal
Prepared For: Defense Contract Management Agency, Terminations Division
Report: $12.1 Million Questioned Cost
The audit of the termination settlement proposal resulted in $12.1 million of questioned cost. Significant
questioned items include $2.6 million of unallowable fee because the contractor incorrectly included settlements
with subcontractors in the fee base, and $7.9 million of settlements with subcontractors due primarily to assist
audits of the subcontractor proposals.




                                                                                            OCTOBER 1, 2013 TO MARCH 31, 2014 │ 109
Appendix G

          Audit Report No. 03171-2007S10100001                                Date: October 31, 2013
          Subject: Independent Audit of Fiscal Year 2007 Incurred Cost Submission
          Prepared For: Defense Contract Management Agency
          Report: $11.9 Million Questioned Cost
          The audit of the incurred cost proposal resulted in $11.9 million of questioned costs, including $8.3 million of
          subcontractor and professional services costs which were not supported by (i) evidence of the actual services
          rendered, (ii) original records – such as subcontractor timesheets, or (iii) evidence of required prime contractor
          approval per the terms of the subcontracts. Another $1.9 million of claimed labor costs were questioned because
          support was not provided for the labor category billed or the employees did not have the type or length of work
          experience required by the contract.

          Audit Report No. 09771-2013D17100001                                Date: November 8, 2013
          Subject: Independent Audit of Termination for Convenience Proposal
          Prepared For: Defense Contract Management Agency
          Report: $13 Million Questioned Costs
          The audit of the termination proposal resulted in $13 million of questioned costs. Significant items of questioned
          costs were as follows: (i) $11.9 million per Federal Acquisition Regulation 52.232-22, Limitation of Funds Clause,
          for costs claimed over the contract’s funding limitations; (ii) $0.8 million of other costs because the contractor
          could not provide supporting documentation to demonstrate that the cost was allowable; and (iii)
          $0.2 million of direct labor costs because the contractor fiscal years 2004 and 2005 proposed costs in the
          termination proposal exceeded the amounts in the Defense Contract Audit Agency audited incurred cost
          submissions, and because the contractor could not account for over 2,400 hours incurred in contractor fiscal
          years 2006.

          Audit Report No. 03221-2007T10100001                                Date: November 22, 2013
          Subject: Independent Audit of CFY 2007 Administrative, Centrally Administered, and Cost of Money Certified
          Final Indirect Cost Proposals
          Prepared For: Defense Contract Management Agency, Corporate Administrative Contracting Officer
          Report: $162.3 Million Questioned Cost
          The audit of multiple corporate office incurred cost proposals resulted in $162.3 million of questioned costs.
          Significant items questioned include: $61.2 million of legal costs primarily related to various cases for alleged
          breach of contract or for which sufficient supporting evidence was not provided to allow evaluation of the costs;
          $29.2 million of expenses incurred at international offices which were not supported by evidence of the nature
          of the activities performed at the offices; $15.9 million of professional services costs primarily due to duplicate
          invoices or lack of adequate supporting documentation; a $15.8 million self-insurance premium because the
          contractor did not demonstrate that actual loss history was used to determine the premium; $9.6 million of
          unallowable labor and related fringe benefits primarily for lobbying effort or other unallowable activities;
          $3.7 million of executive compensation in excess of the Federal Acquisition Regulation ceiling; and
          $2.5 million of insurance costs for ineligible dependents.




110 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                      Appendix G

Audit Report No. 03231-2012L42098001                                 Date: November 26, 2013
Subject: Independent Audit of Cost or Pricing Data Resulting in the Duplication of Proratable Costs
Prepared For: Defense Contract Management Agency, Divisional Administrative Contracting Officer Group
Report: $13.7 Million Recommended Price Adjustment
The audit of the contractor’s compliance with 10 U.S.C. 2306a (Truth in Negotiations Act) related to pricing low
value material costs such as solvents, adhesives, lubricants, and insulation resulted in a recommended price
adjustment of $13.7 million for overstated material costs and related burdens on negotiated contracts because
the costs were proposed twice, both as a direct cost and an indirect cost.

Audit Report No. 06831-2006B10100003                                 Date: November 27, 2013
Subject: Independent Audit of FY 2006 Incurred Cost Proposal
Prepared For: Defense Contract Management Agency, Virginia
Report: $93.7 Million Noncompliant Costs
The audit disclosed that the contractor was unable to provide adequate explanation of the development of its
incurred cost proposal, or sufficient documentation to support a majority of the transactions sampled from
its proposal, resulting in a disclaimer of opinion. The procedures performed disclosed $93.7 million of costs
inadequately supported, representing material noncompliances with Federal Acquisition Regulation Part 31.
Significant noncompliant costs include: $55.5 million of direct labor for which the contractor was unable to
provide support for the labor rates, hours charged, or evidence of actual payment to employees; $12.6 million
of claimed allocations from other segments that the contractor was unable to adequately support; and $8.2 of
subcontract costs not adequately supported with agreements, purchase orders, invoices, or documentation of
actual payment.

Audit Report No. 06281-2007H10100001                                 Date: December 9, 2013
Subject: Independent Audit of Contractor FY 2007 Incurred Cost Submission
Prepared For: Defense Contract Management Agency
Report: $107.8 Million Questioned Costs
The audit of the corporate office final incurred cost proposal resulted in $107.8 million of questioned cost,
including the following significant items: $80.3 million of segment level pension costs that were incorrectly
included in the home office submission, $8.4 million of health and welfare costs for ineligible dependents,
$5.3 million of unreasonable/unallowable executive compensation, $3.5 million of corporate initiatives cost
lacking adequate support for allocation bases, and $1.8 million of fringe costs based on incorporation of the
questioned labor, health and welfare, and pension costs.

Audit Report No. 01101-2011L42098001                                 Date: December 11, 2013
Subject: Independent Audit of Cost or Pricing Data
Prepared For: Procuring Contracting Officer, United States Air Force/AFMC, C130 Systems Group
Report: $24 Million Recommended Price Adjustment
The audit of the contractor’s compliance with 10 U.S.C. 2306a (Truth in Negotiations Act) resulted in a
recommended price adjustment of $24 million for overstated material and related labor, burdens, and profit on
the negotiated contract because the contractor (i) did not disclose the existence of an agreement with another
company segment for materials or that significant costs had already been incurred by the other segment; (ii) did
not disclose the most current, accurate, and complete data for several specific parts; and (iii) included costs in its
proposal for several parts not applicable to the contract.




                                                                                             OCTOBER 1, 2013 TO MARCH 31, 2014 │ 111
Appendix G

          Audit Report No. 01751-2006D10100001                                 Date: December 20, 2013
          Subject: Independent Audit of Post Year End Incurred Cost Audit Report for Fiscal Year (FY) 2006
          Prepared For: Department of the Navy, Supervisor of Shipbuilding
          Report: $13.8 Million Questioned Costs
          The audit of the final indirect cost rate proposal resulted in $13.8 million of questioned cost, including
          $10 million of claimed direct costs for material written-off as damaged by Hurricane Katrina but not supported
          with a damage assessment documenting that the material was unusable; $1.3M of executive compensation in
          excess of Federal Acquisition Regulation limitations or the amount considered unreasonable; $0.5 million of
          automobile allowances paid to company executives that were not supported as related to business use;
          $0.3 million of executive compensation related to lobbying activities; and $0.2 million of unallowable
          entertainment and related expenses.

          Audit Report No. 03531-2006B10100003                                 Date: December 18, 2013
          Subject: Independent Audit of FY2006 Incurred Cost
          Prepared For: Department of Health and Human Services, Centers for Medicare and Medicaid Services
          Report: $17.6 Million Questioned Cost
          The audit of the incurred cost submission resulted in $17.6 million of questioned cost, including $12.6 million
          of shared service allocations from other segments not supported by details of the costs being allocated or
          the basis for allocation; and $5.0 million of subcontract costs not supported with proof of payment or by the
          subcontractor’s incurred cost submission.

          Audit Report No. 06811-2005U10100001                                 Date: December 19, 2013
          Subject: Independent Audit of Fiscal Year (FY) 2005 Incurred Costs and Proposed Indirect Rates
          Prepared For: Defense Contract Management Agency, Cost and Pricing Center
          Report: $108.9 Million Questioned Costs
          The audit of the final indirect rate proposal resulted in $108.9 million of questioned costs, including
          $24.6 million of indirect costs and $84.3 million of direct costs. Significant questioned indirect costs relate to
          bonuses not supported by the basis for award; payouts for a profit sharing plan that are unreasonable to charge
          to Government contracts; costs for stock distributions that were not adequately supported; and Independent
          research and development/bid and proposal costs that were unallowable per Federal Acquisition Regulation
          Part 31 or were for effort that related to a specific subcontract. The majority of questioned direct costs are
          the result of (i) lack of adequate supporting documentation; (ii) claimed costs that were not allocable to the
          contract or cost objective on which they were claimed or the contractor’s inability to demonstrate that the costs
          were allocable to the contracts on which claimed; (iii) costs related to a prior fiscal year; (iv) costs claimed that
          represented a significant deviation from the contractor’s policies; and (v) claimed costs that were unallowable
          per Federal Acquisition Regulation Part 31 and contract terms.

          Audit Report No. 03151-2007U10100001                                 Date: December 20, 2013
          Subject: Independent Audit of Fiscal Year 2007 Incurred Costs
          Prepared For: Defense Contract Management Agency, Cost and Pricing Center
          Report: $73.7 Million Questioned Cost
          The audit of the incurred cost submission resulted in $73.7 million of questioned costs, including the following
          significant items: $61.7 million of claimed subcontract costs, $29.4 million of professional services costs, and
          $9.9 million of material costs. The costs were questioned for reasons including: expenses incurred prior to the
          company formation, missing documentation such as purchase orders or detailed invoices, without adequate price
          analysis, purchase discounts not taken, or unallowable advertising/public relations costs. The questioned costs
          were off-set by a $27 million upward adjustment for a credit erroneously included in the submission.


112 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                    Appendix G

Audit Report No. 06161-2013U17900001                                Date: December 23, 2013
Subject: Independent Report on the Application of Agreed-Upon Procedures to Final Draft Invoice
Prepared For: Transportation Security Administration
Report: $16.9 Million Differences
The application of the agreed-upon procedures to the draft invoice for labor costs resulted in identifying
$16.9 million of labor which lacked supporting employee timecards or other documentation, duplicated costs for
hours previously billed, was related to a delay in processing the hours, or was the result of differences between
the proposed billing and supporting documentation.

Audit Report No. 06271-2003A10100103                                Date: December 24, 2013
Subject: Independent Audit of Incurred Cost Proposal for Fiscal Year 2003
Prepared For: Defense Contract Management Agency, Cost and Pricing Center
Report: $104.4 Million Noncompliant Costs
Because of scope restrictions, Defense Contract Audit Agency was not able to perform all appropriate audit
procedures to obtain sufficient evidential matter on which to base a definitive opinion on the reasonableness,
allowability, and allocability of the claimed costs resulting in a disclaimer of opinion. The procedures performed
disclosed $104.4 million of costs noncompliant with Federal Acquisition Regulation, including the following
significant items: $91.3 million of material costs for which adequate supporting documentation such as purchase
orders, inter-company agreements, invoices, and proof of payment was not provided; and $5.5 million of
subcontract costs from assist audits.

Audit Report No. 09881-2006C10100036                                Date: December 30, 2013
Subject: Independent Audit of Contractor FY 2006 Incurred Cost Submissions
Prepared For: Defense Contract Management Agency
Report: $35.7 Million Questioned Costs
The audit of the incurred cost submission resulted in $35.7 million questioned cost including $35.2 million of
questioned direct costs and $0.5 million of questioned indirect expenses applicable to Government contracts.
The significant items of questioned direct costs related to unsupported direct labor costs and other direct costs.
Significant questioned indirect expenses related to general and administrative labor, consulting/subcontractor,
and insurance costs that were unsupported.

Audit Report No. 09881-2007C10100007                                Date: December 30, 2013
Subject: Independent Audit of Contractor FY 2006A Incurred Cost Submissions
Prepared For: Defense Contract Management Agency
Report: $19.1 Million Questioned Costs
The audit of the incurred cost submission resulted in $19.1 million questioned cost including $19 million of
questioned direct costs and $0.1 million of questioned indirect expenses applicable to Government contracts.
The significant items of questioned direct costs related to unsupported direct labor costs and other direct costs.

Audit Report No. 03421-2013C17200101                                Date: December 31, 2013
Subject: Independent Audit of Claim
Prepared For: Department of the Navy, Naval Supply Systems Command Weapon Systems Support
Report: $11.9 Million Questioned Cost
The audit of the certified claim resulted in questioning the entire claim amount of $11.9 million because the
claim lacked adequate supporting documentation and the contractor refused to support the audit since the claim
was appealed to the Armed Services Board of Contract Appeals.


                                                                                           OCTOBER 1, 2013 TO MARCH 31, 2014 │ 113
Appendix G

          Audit Report No. 04611-2007Y10100001                                 Date: January 15, 2014
          Subject: Independent Audit of Incurred Costs and Facilities Capital Cost of Money for Year Ended December 31,
          2007
          Prepared For: Defense Contract Management Agency, Cost and Pricing Center
          Report: $37.3 Million Noncompliant Costs
          Because of scope restrictions, Defense Contract Audit Agency was not able to perform all appropriate audit
          procedures to obtain sufficient evidential matter on which to base a definitive opinion on the reasonableness,
          allowability, and allocability of the claimed costs resulting in a disclaimer of opinion. The procedures performed
          disclosed $37.3 million of costs noncompliant with Federal Acquisition Regulation, including the following
          significant items: $25.7 million of corporate aircraft costs because the contractor did not maintain the required
          flight manifests/logs; $3.2 million of commercial airfare in excess of the lowest priced airfare available; and
          $3.7 million of lease costs in excess of the cost of ownership for a building leased from a related company.

          Audit Report No. 02131-2014F17200001                                 Date: January 24, 2014
          Subject: Independent Audit of Price Adjustment Claim
          Prepared For: Defense Logistics Agency, Troop Support - Subsistence
          Report: $11 Million Questioned Cost
          The audit of the price adjustment claim resulted in questioning the entire claimed amount of $11 million because
          the contractor did not provide evidence that the claimed costs were the result of the Government’s failure to
          provide reliable information on the anticipated demand for food based on the size of the population to be fed.

          Audit Report No. 06221-2005U10100009 &                               Date: January 24, 2014
          06221-2005U10100011
          Subject: Independent Audit of Contractor FY 2005 Incurred Cost Claim
          Prepared For: Defense Contract Management Agency
          Report: $28.2 Million Noncompliant Costs
          Because of scope restrictions, Defense Contract Audit Agency was not able to obtain sufficient evidential matter
          on which to base an opinion on the reasonableness, allowability, and allocability of the claimed costs resulting in
          a disclaimer of opinion. The procedures performed disclosed $28.2 million of noncompliant costs including
          $27.2 million of noncompliant direct labor on Time & Material contracts, ($23.1 million for noncompliant rates
          and $4.1 million related to noncompliant hours), and $1 million of direct material, other direct costs, and indirect
          costs based on assist audits and reconciling differences.

          Audit Report No. 06281-2007G10100002                                 Date: January 24, 2014
          Subject: Independent Audit of Contractor FY 2007 Final Indirect Cost Rate Proposal
          Prepared For: Defense Contract Management Agency
          Report: $14.6 Million Questioned Costs
          The audit of the indirect cost rate proposal resulted in $14.6 million questioned cost including $12.7 million of
          indirect costs and $1.9 million of direct costs. Significant questioned direct costs include $1.7 million of materials
          and other direct costs for which inadequate or no support was provided. The significant items of questioned
          indirect cost are $6.7 million of fringe costs questioned because the contractor has not provided evidence
          necessary to support the allocability of the costs, and $5.2 million of various pool allocations including results of
          fringe rates and related segment, home office and corporate office assist audit reports.




114 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                      Appendix G

Audit Report No. 06281-2007G10100001                                 Date: January 27, 2014
Subject: Independent Audit of Contractor FY 2007 Final Indirect Cost Rate Proposal
Prepared For: Defense Contract Management Agency
Report: $100.2 Million Questioned Costs
The audit of the indirect cost rate proposal resulted in $100.2 million of questioned cost including $70.7 million
of indirect costs and $29.5 million of direct costs. Significant items of questioned direct cost include $13.7 million
for which inadequate or no support was provided, $13.2 million of costs noncompliant with contract terms, and
$2.2 million of unallowable travel and consultant cost. Questioned indirect costs include the following significant
items: $42.2 million of various pool allocations including results of fringe rates and related segment, home
office and corporate office assist audit reports, $10.2 million of various claimed costs for which inadequate or
no support was provided, $10.0 million of fringe costs questioned because the contractor has not provided
evidence necessary to support the allocability of the costs, and $4.0 million of unallowable compensation and
consultant costs.

Audit Report No. 06281-2007G10100003                                 Date: January 31, 2014
Subject: Independent Audit of Home Office – FY 2007 Final Indirect Cost Rate Proposal
Prepared For: Defense Contract Management Agency, Maryland
Report: $141.9 Million Questioned Cost
The audit of the home office incurred cost proposal resulted in $141.9 million of questioned costs, including
the following significant items: $81.7 million of costs because the contractor did not provide sufficient and
appropriate evidence to support the allocation method used; $20.4 million due to questioned allocation bases;
$11.5 million of costs for which adequate support was not provided; and $9.4 million of costs from other
segments due to reconciliation differences.

Audit Report No. 06311-2007M10100003                                 Date: February 21, 2014
Subject: Independent Audit of Fiscal Year 2007 Incurred Costs
Prepared For: Defense Contract Management Agency East, DCMA Naval Sea Systems Division
Report: $32.2 Million Questioned Cost
The audit of the incurred cost proposal resulted in $32.2 million of questioned costs, including the following
significant items: $21.1 million of depreciation due to destroyed records or insufficient documentation; and
$5 million of subcontract, equipment and other direct costs due to lack of adequate supporting documentation.

Audit Report No. 04281-2006I10100046                                 Date: February 28, 2014
Subject: Independent Audit of Fiscal Year 2006 Incurred Cost
Prepared For: Defense Contract Management Agency, Northern California
Report: $44.0 Million Questioned Cost
The audit of the incurred cost proposal resulted in $44 million of questioned costs, including the following
significant items: $33 million of subcontract costs because the contractor did not have the required Contracting
Officer consent to subcontract and/or lacked adequate support such as subcontractor proposals, subcontract
agreements, purchase orders, or sole source justification; $3.3 million of labor costs because employee
timesheets lacked supervisory approval; $1.1 million of consultant costs not adequately supported by detailed
agreements, invoices, or evidence of work performed; and $1 million of unreasonable compensation.




                                                                                             OCTOBER 1, 2013 TO MARCH 31, 2014 │ 115
Appendix G

          Audit Report No. 06811-2008U42000003                                      Date: March 11, 2004
          Subject: Independent Post Award Audit
          Prepared For: Army Contracting Command - Warren
          Report: $18 Million Recommended Price Adjustment
          The audit of the contractor’s compliance with 10 U.S.C. 2306a (Truth in Negotiations Act) resulted in a
          recommended price adjustment of $18 million due to overstated material costs and related burdens because the
          contractor certified to quantities in excess of what was required and did not submit the most current purchase
          orders/invoices for several proposed material items.

          Audit Report No. 03701-2007B10100001                                      Date: March 28, 2014
          Subject: Independent Audit of Contractor Fiscal Year (FY) 2007 Contracting Officer Determined Final Indirect Cost
          Rates for the Period of December 31, 2006 to December 29, 2007
          Prepared For: Defense Contract Management Agency
          Report: $89.4 Million Questioned Cost
          The audit of the final indirect cost rate proposal resulted in $89.4 million of questioned cost including the
          following significant items: $60.3 million of direct materials and other direct costs not adequately supported;
          $18.3 million of consultant costs not adequately supported with statements of work, invoices, and proof of
          payment; and $3.1 million of airfare costs claimed twice, associated with attendance at trade shows, or first class
          tickets.

          Audit Report No. 03701-2011B17200001                                      Date: Sept. 20, 2013
          Subject: Independent Audit of Parts of Contractor’s Certified Claim for Payment for Low Rate Initial Production
          Items for FYs 2006-2011
          Prepared For: U.S. Department of Justice
          Report: $21.9 Million Questioned Costs
          The audit of parts of the certified claim resulted in $21.9 million in questioned costs, including $20.8 million for
          settlements with subcontractors, and $1.1 million for inventory common to other work, differences between
          raw material standard cost and purchase order cost, and unallowable profit on settlement expenses. The
          $20.8 million questioned subcontractor settlements included: $10.6 million questioned based on more current
          available information (revision to the prime contractor’s claim, updates to subcontractor claims, and negotiated
          settlement with a subcontractor); $6.5 million questioned because the proposed settlement is not supported by
          accounting data and other information sufficient for adequate review by the Government; and $3.7 million for
          items common to other work of the contractor or subcontractor.

            ◊	Fulfills requirements of the National Defense Authorization Act for FY 2008 Section 845.




116 │ SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                             Appendix H


RESULTS OF PEER REVIEWS
Peer Review of DCIS Operations by the U.S. Department of Health and Human Services Office of
Inspector General
The U.S. Department of Health and Human Services (HHS) Office of Inspector General (OIG) conducted an external
peer review of Defense Criminal Investigative Service’s (DCIS’s) system of internal safeguards and management
procedures in effect through July 2011, and HHS OIG also conducted an evaluation to determine DCIS’ compliance
with applicable internal policies and procedures from April 2009 to July 2011. Since DCIS does not derive its statutory
law enforcement authority from the Attorney General or the Inspector General Act, it is not subject to the Council of
the Inspectors General on Integrity and Efficiency (CIGIE); thus, DCIS’s participation in this peer review was voluntary.
After completing its review of DCIS, the HHS OIG issued a final report dated August 19, 2011, and concluded that
the system of internal safeguards and management procedures for DCIS was in full compliance with the quality
standards established by CIGIE and the Attorney General guidelines. These safeguards and procedures provide
reasonable assurance that DCIS is conforming to the professional standards for investigations established by CIGIE.

Peer Review of Department of Defense IG by U.S. Department of Housing and Urban Development
Office of the Inspector General
The Department of Housing and Urban Development Office of the Inspector General, conducted an external peer
review of DoD IG Office of Audit and issued a final report November 13, 2012. DoD IG received a peer review rating
of pass (with a scope limitation). There are no outstanding recommendations. A copy of the external quality control
review report can be viewed at www.dodig.mil/pubs/reviews.html.

Peer Review of Department of Transportation Office of Inspector General by U.S. Department of
Defense OIG
DoD IG conducted an external quality control review of Department of Transportation Office of Inspector General
(OIG), audit organization, and issued a final report August 8, 2013. Department of Transportation, OIG, received a
peer review rating of pass. There are no outstanding recommendations. A copy of the external quality control review
report can be viewed on the Department of Transportation OIG website at www.oig.dot.gov/peer-review.

DODIG-2013-065, Quality Control Review of the Defense Contract Management Agency Internal
Review Audit Function
DoD IG reviewed the adequacy of the Defense Contract Management Agency Internal Review Team compliance
with quality policies, procedures and standards. In performing the review, DoD IG considered the requirements of
quality control standards contained in the July 2007 revision of generally accepted government auditing standards
issued by the Comptroller General of the United States. DoD IG judgmentally selected two reports to review for
compliance with Generally Accepted Government Auditing Standards in nine areas: quality control, independence,
professional judgment, competence, audit planning, supervision, evidence, audit documentation and reporting. In
addition, DoD IG selected one audit in which DCMA performed monitoring of an independent public accounting
firm for compliance with the Council of the Inspectors General on Integrity and Efficiency Guide. DoD IG issued a
pass opinion because DCMA’s system of quality control for the DCMA IRT was adequately designed and functioning
as prescribed. The findings DoD IG identified during its review of the selected audit reports were not cumulatively
significant enough to rise to the level of a deficiency or significant deficiency, based on DoD IG’s opinion and as
defined by the CIGIE Guide for Conducting External Peer Reviews of the Audit Organizations of Federal Offices of
Inspector General. DoD IG did identify five areas with findings relating to the quality control system, independence,
planning, audit documentation and quality control of audits. In addition, DoD IG made recommendations in relation
to the monitoring of independent public accountants. The review of the monitoring of the independent public
accountants did not affect the opinion of the DCMA initial response team quality control review. Management
agreed with all report recommendations.

  ◊	Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix, Section 5(a)(14),(15),(16) and
    Section 8(c)(10).

                                                                                                    OCTOBER 1, 2013 TO MARCH 31, 2014 │ 117
Appendix I

         ACRONYMS
          ABCMR         Army Board for Corrections of Military Records     ISO          Investigations of Senior Officials
          ACAT          Acquisition Category                               MCIO         Military Criminal Investigative Office
          ACC           Army Contracting Command                           MCLB         Marine Corps Logistics Base
          AER           Army Emergency Relief                              MEDCOM       U.S. Army Medical Command
          AFAA          Air Force Audit Agency                             MILCON       military construction
          AFB           Air Force Base                                     MMAS         Material Management and Accounting System
          AFOSI         Air Force Office of Special Investigation          MoD          Ministry of Defense
          AGEAR         After Government Employees Advice Repository       MRAP         Mine Resistant Ambush Protected
          ANC           Arlington National Cemetery                        MSP          Maryland State Police
          ANP           Afghan National Police                             NAFI         Nonappropriated Funds Instrumentality
          ANSF          Afghan National Security Forces                    NATO         North Atlantic Treaty Organization
          ARNG          Army National Guard                                NAVAUDSVC    Naval Audit Service
          ASN (RD&A)    Assistant Secretary of the Navy (Research,         NAVSEA       Naval Sea Systems Command
                        Development, and Acquisition)                      NCCS         U.S. Nuclear Command and Control System
          ATAAPS        Automated Time, Attendance, and Production         NCIS         Naval Criminal Investigative Service
                        System
                                                                           NCMEC        National Center for Missing and Exploited Children
          BPA           Blanket Purchase Agreement
                                                                           NCO          noncommissioned officer
          CAS           Cost Accounting Standards
                                                                           NSSA         Norfolk Ship Support Activity
          CEO           Chief Executive Officer
                                                                           OCCL         Office of Communications and Congressional
          CID           Criminal Investigation Division                                 Liaison
          CJTF-HOA      Combined Joint Task Force-Horn of Africa           OEL          Other Accrued Environmental Liabilities
          CODIS         Combined DNA Index System                          OIG          Office of Inspector General
          CONUS         continental United States                          OMB          Office of Management and Budget
          CSF2          Comprehensive Soldier and Family Fitness           OPTEMPO      operating tempo
          DCAA          Defense Contract Audit Agency                      OWF          Operation Warfighter
          DCMA          Defense Contract Management Agency                 PCO          procurement contracting officer
          DCIS          Defense Criminal Investigative Service             PEO          Program Executive Office
          DISA          Defense Information Systems Agency                 PM Demil     Product Manager Demilitarization
          DLA           Defense Logistics Agency                           RPAT         Redistribution Property Assistance Team
          DNA           deoxyribonucleic acid                              RTF          response task force
          DoD           Department of Defense                              SAHNC        Soldiers’ and Airmen’s Home National Cemetery
          DON           Department of the Navy                             SBA          Small Business Administration
          e-Profile     Electronic Profiling System                        SBIR         Small Business Innovation Research
          FBI           Federal Bureau of Investigation                    SES          senior executive service
          FDA           Food and Drug Administration                       SHARP        Sexual Harassment/Assault Response and
          FFRDC         federally funded research and development center                Prevention
          FOB           forward operating base                             UAS          unmanned aircraft system
          GAO           Government Accountability Office                   USAAA        U.S. Army Audit Agency
          GDMA          Glenn Defense Marine Asia, Ltd.                    USACE        U.S. Army Corps of Engineers
          GPD           Groton Town Police Department (CT)                 USACIL       U.S. Army Criminal Investigation Laboratory
          GSA           General Services Administration                    USAFRICOM    U.S. Africa Command
          HASC          House Armed Services Committee                     USCENTCOM    U.S. Central Command
          HHS           Department of Health and Human Services            USD (C)      Under Secretary of Defense (Comptroller)
          ICAC          Internet Crimes against Children                   USFOR-A      U.S. Forces–Afghanistan
          IG            inspector general                                  USTRANSCOM   U.S. Transportation Command
          IO            instructor operator                                WRI          Whistleblower Reprisal Investigations




118 │ SEMIANNUAL REPORT TO THE CONGRESS
             Whistleblower Protection
            U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires the
Inspector General to designate a Whistleblower Protection Ombudsman
to educate agency employees about prohibitions on retaliation, and rights
and remedies against retaliation for protected disclosures. The designated
ombudsman is the DoD Hotline Director. For more information on your
rights and remedies against retaliation, go to the Whistleblower webpage at
                www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                         Congressional Liaison
               Congressional@dodig.mil; 703.604.8324
                              DoD Hotline
                             1.800.424.9098
                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324
                            Monthly Update
                 dodigconnect-request@listserve.com
                          Reports Mailing List
                      dodig_report@listserve.com
                                 Twitter
                          twitter.com/DoD_IG
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L




                           4800 Mark Center Drive
                         Alexandria, VA 22350-1500
                               www.dodig.mil
                       Defense Hotline 1.800.424.9098
